<html>
<title> - PHILADELPHIA AND OAKLAND: SYSTEMIC FAILURES AND MISMANAGEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




     PHILADELPHIA AND OAKLAND: SYSTEMIC FAILURES AND MISMANAGEMENT

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, APRIL 22, 2015

                               __________

                           Serial No. 114-16

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-633                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BRO WN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-     Minority Member
Chairman                             MARK TAKANO, California
DAVID P. RO E, Tennessee             JULIA BRO WNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'RO URKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
Samoa
MIKE BOST, Illinois

                       Jon Towers, Staff Director

                Don Phillips, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.












                            C O N T E N T S

                               __________

                       Wednesday, April 22, 2015

                                                                   Page

Philadelphia and Oakland: Systemic Failures and Mismanagement....     1

                           OPENING STATEMENTS

Jeff Miller, Chairman............................................     1
    Prepared Statement...........................................    80
Corrine Brown, Ranking Member....................................     3
    Prepared Statement...........................................    82
Hon. Ralph Abraham
    Prepared Statement...........................................    82
Hon. Raul Ruiz
    Prepared Statement...........................................    83

                               WITNESSES

Kristen Ruell, J.D., Whistleblower, Philadelphia Regional Office, 
  U.S. Department of Veterans Affairs............................     6
    Prepared Statement...........................................    83
Mr. Joseph Malizia, President, Local 940, American Federation of 
  Government Employees...........................................     7
    Prepared Statement...........................................    84
Ms. Diana Blender, Whistleblower, Philadelphia Regional Office, 
  U.S. Department of Veterans Affairs............................     9
    Prepared Statement...........................................    87
Ms. Rustyann Brown, Whistleblower, Oakland Regional Office, U.S. 
  Department of Veterans Affairs.................................    11
    Prepared Statement...........................................    90
Ms. Linda Halliday, Assistant Inspector General for Audits and 
  Evaluations, Office of Inspector General, U.S. Department of 
  Veterans Affairs...............................................    43
    Prepared Statement...........................................    92

    Accompanied by:

        Ms. Nora Stokes, Director Bay Pines Benefits Inspections 
            Division, Office of Inspector General, U.S. 
            Department of Veterans Affairs
    And

        Mr. Brent Arronte, Director, San Diego Benefits 
            Inspections Division, Office of Audits and 
            Evaluations, Office of Inspector General, U.S. 
            Department of Veterans Affairs

Mr. Danny G.I. Pummill, Principal Deputy Under Secretary for 
  Benefits, VBA, U.S. Department of Veterans Affairs.............    45
    Prepared Statement...........................................    98

    Accompanied by:

        Ms. Diana Rubens, Director, Philadelphia Regional Office, 
            Veterans Benefits Administration, U.S. Department of 
            Veterans Affairs,
        Ms. Lucy Filipov, Assistant Director, Philadelphia 
            Regional Office, Veterans Benefits Administration, 
            U.S. Department of Veterans Affairs,
        Ms. Julianna M. Boor, Director, Oakland Regional Office, 
            Veterans Benefits Administration, U.S. Department of 
            Veterans Affairs,
    And
        Ms. Michele Kwok, Assistant Director, Oakland Regional 
            Office, Veterans Benefits Administration, U.S. 
            Department of Veterans Affairs

                             FOR THE RECORD

Mr. Ryan Cease...................................................   104
Letter From: Richard J. Griffin To: Jeff Miller, Chairman........   110
 
     PHILADELPHIA AND OAKLAND: SYSTEMIC FAILURES AND MISMANAGEMENT

                              ----------                              


                       Wednesday, April 22, 2015

                  House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:30 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present:  Representatives Miller, Lamborn, Bilirakis, Roe, 
Benishek, Coffman, Wenstrup, Walorski, Abraham, Costello, 
Brown, Brownley, Titus, Ruiz, Kuster, O'Rourke, Rice, McNerney, 
Walz.
    Also Present: Representatives LaMalfa, Meehan.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. The committee will come to order.
    Good morning, everybody. Welcome to our witnesses who are 
here today, especially those brave whistleblowers who are 
appearing on our first panel.
    The title of our hearing this morning, Philadelphia and 
Oakland: Systemic Failures and Mismanagement.
    Now, based on the IG's reports describing the serious 
problems processing claims in both Philadelphia and Oakland, I 
think that the phrase systemic failures and mismanagement might 
be a gross understatement.
    The witnesses from the VA will have an impossible task 
today. They will have to try to explain the inexcusable, a 
pattern of malfeasance, abuse and incompetence by VA officials 
that has led to waste of taxpayers' funds, a serious failure to 
correctly process veterans' claims, and in Philadelphia, a 
workplace environment so corrosive, so toxic, so abusive that 
according to whistleblowers workers have even been driven to 
attempt suicide.
    In one tragic case, as one witness will testify, a worker 
may have actually succeeded in taking his own life after being 
bullied by VA management.
    I also have serious questions about the cost incurred by VA 
regarding the transfer of Philadelphia RO Director, Diana 
Rubens, from the VA Central Office in Washington to the 
Philadelphia RO.
    The VA incurred over $300,000 in relocation expenses last 
summer to move Ms. Rubens, one of the highest paid employees at 
VA. Let me repeat. At a time when VA was telling Congress and 
the American public that it needed more money for claims 
processors, it authorized more than $300,000 in order to move a 
federal employee less than 140 miles from Washington to 
Philadelphia.
    In fact, of the total sum of relocation expenses, 
$84,643.70 was paid directly to Ms. Rubens for expenses such as 
subsistence and temporary expenses, real estate expenses, 
``relocation income tax allowances,'' income tax allowances, 
permanent duty travel, permanent change of station meals, 
shipment of household goods and personal effects, and storage 
of household goods for the first 30 days.
    While such an expenditure may have been totally legal, it 
does not pass the smell test. Paying such an exorbitant amount 
on behalf of a federal employee to move three hours down the 
road is an outrageous abuse of taxpayer funds in this fiscal 
climate or in any fiscal climate, for that matter. In this 
situation, everyone wins except the taxpayer.
    I would also note that a comparison of relocation expenses 
for our servicemembers with those available to VA employees 
shows a significant advantage to civilian employees.
    I have asked the Office of Inspector General to investigate 
not only the payments for Ms. Rubens' transfer but also whether 
there is a more systemic problem with VA's use of relocation 
expenses. Relocation expenses are intended to entice employees 
to take hard-to-fill positions.
    Now, from what I have learned, VA makes these benefits 
available to every single RO Director who relocates. That is 
hardly the kind of scrutiny such a large expenditure of 
taxpayer funds deserves.
    VA's problems are more than just an abuse of the relocation 
program. VA asserts that it is making progress in resolving its 
backlog, but the IG's findings that Philadelphia staff 
deliberately manipulated claim dates in order to conceal the 
true size of its backlog seriously undermines the VA's 
credibility, at least where the Philadelphia RO is concerned.
    Although the mismanagement and data manipulation detailed 
in the IG's report on Philadelphia is as bad as I have seen in 
a long time, we cannot ignore the serious problems that have 
been discovered at the Oakland Regional Office. It is 
absolutely inexcusable that the Oakland RO ignored more than 
13,000 informal claims, some dating from the mid 1990s.
    This committee will continue its oversight to ensure that 
the VA actually holds the Philadelphia and Oakland management 
staff accountable for the abuses and mismanagement outlined in 
these reports. VA's actions, not words, in these two cases will 
demonstrate whether the department is serious about cleaning up 
yet another mess.
    Merely requiring staff to attend training sessions is not 
enough and shuffling poor performing managers to other stations 
as was done with Mr. Gary Hodge, the manager of the Pension 
Management Center who was transferred to the central office 
literally hours after the release of the IG report, is simply 
the old VA way of papering over a problem.
    Further, VA's response to my request for all Equal 
Employment Opportunity and Merit System Protection Board files 
from the Philadelphia RO is another example of VA's lack of 
transparency and seeming attempt to hide the truth about 
working conditions in Philadelphia.
    I asked for the files on December 19th last year, four 
months ago. I also requested this information when I met with 
Secretary McDonald February 25th. In addition, I specifically 
asked VA's general counsel for these files during a committee 
hearing on the 16th of March. And my staff has repeatedly 
followed up on my request with the VA over the last four 
months.
    Finally, after months of delay, on April 14, we received 
some documents including a disposition log of MSPB cases that 
the VA claimed was complete, but in actuality is incomplete. 
Since Friday evening of last week, the VA has since turned over 
some additional files, but has failed to deliver all of the 
files that this committee has requested.
    For example, the committee has received seven of 22 files 
for MSPB claimants, although there are believed to be more than 
22 individual employees who have filed claims since 2008. To 
date, VA has failed to deliver any EEO files. These continued 
delays are unacceptable and inexcusable.
    If all requested records are not provided by week's end, I 
intend to ask my colleagues to join me in subpoenaing the 
documents.
    With that, I would like to ask unanimous consent of the 
committee that Representative Meehan and Representative LaMalfa 
both be allowed to participate in today's hearing. With no 
objection, so ordered.
    I now yield to our distinguished ranking member for her 
opening statement.

    [The prepared Statement of Chairman Jeff Miller appears in 
the Appendix]

       OPENING STATEMENT OF RANKING MEMBER CORRINE BROWN

    Ms. Brown of Florida. Thank you, Mr. Chairman. Thank you 
for holding this hearing today. I am looking forward to working 
with you and all of the other members to help our Nation's 
veterans.
    I would like to recognize and thank Representative Barbara 
Lee and Representative Matt Thompson and Representative Jackie 
Speier for all of the work that they have done in keeping tabs 
on the Oakland Regional Office and Representative Chaka Fattah 
for the Philadelphia Regional Office.
    I also would like to recognize a veteran, Mr. O. Bobby 
Brown, who is currently serving by the Philadelphia Regional 
Office, sitting here today.
    Mr. Brown, would you just raise your hand? I want to thank 
you for your service to our country.
    We all agree that providing veterans timely and accurate 
benefits is an important focus of this committee. I for one is 
very concerned about the facts before us today.
    Today we are hearing from the Department of Veterans 
Affairs' Office of the Inspector General and numerous 
whistleblowers that will highlight two broken regional offices. 
Individuals, employees, and some supervisors who have alleged 
to have engaged in shameful activities, which at the end of the 
day will hurt veterans. I know that I and the VA leadership 
will not tolerate such actions.
    Today, I hope to hear VA's plans to fix the office and 
assure accountability for management and mid-level management. 
I also hope to hear from our witnesses on what needs to be done 
to resolve the problem. Our job is not only to find problems, 
it is to offer solutions.
    The Office of Inspector General highlighted in its report 
``serious issues involving mismanagement, and distrust of 
Veterans Affairs' Regional Office management, effectiveness in 
operating and service to the veterans.''
    To me, these sound like local cultural issues and it sounds 
like the Philadelphia and Oakland offices are due for a 
leadership shakeup at all levels if these allegations are 
proven to be true.
    I hope to hear from VA as to how you are coming to, along 
with the 38 Veterans Affairs' Office of the Inspector General 
recommendations between these two regional offices.
    With that said, I think it is important that we keep 
today's hearing in content. We are focused on two broken VA 
Regional Offices. While VA as a whole has dramatically 
increased their timeliness and quality adjudicating of claims, 
VA still seems to be on track to eliminate the backlog by the 
end of this year. In fact, VA has reduced the backlog from 
611,000 claims on March 2013 to 188,000 today.
    We are not there yet, but I believe we are on the right 
track. I don't want a few bad actors taking away the progress 
that has been made across the country for our veterans.
    I ask Representative Lee and Chaka Fattah to stay on top of 
the concerns of veterans who are supported by the Oakland and 
Philadelphia Regional Office. I spoke with Representative Lee 
this morning and it was confirmed that Secretary McDonald is in 
Oakland today as we speak in the Regional Office.
    I know for a fact for years Representative Lee has gone to 
the Appropriations Committee and requested additional funds for 
the Oakland office. The problem in the Oakland office are not 
new problems. It is a problem that they have experienced for 
years with the backlog.
    Again, I am looking forward to this hearing and with that, 
Mr. Chairman, I yield back the balance of my time.

    [The prepared statement of Ranking Member, Corrine Brown 
will appears in the Appendix]

    The Chairman. Thank you very much, Ms. Brown. I appreciate 
your comments.
    As customary with our committee, I would ask that all 
members would waive their opening statements and they will be 
placed in the appropriate position in the record should you 
choose to do so.
    I now acknowledge our first panel that is seated and yield 
to Mr. Costello for a brief introduction of the witnesses who 
are here from the Philadelphia RO.
    Mr. Costello. Thank you, Mr. Chairman, for allowing me the 
opportunity to introduce the whistleblowers from the 
Philadelphia Regional Office.
    I am proud to introduce Ms. Kristen Ruell, Ms. Diana 
Blender, and I would also like to recognize Mr. Ryan Cease who 
could not be here today but has submitted a statement for the 
record. Mr. Joseph Malizia is also here today as the president 
of AFGE Local 940 at the Philadelphia VA to shed light on his 
experiences.
    I commend each of them for their bravery in coming forward 
to tell Congress and the Nation of the misconduct and 
mismanagement by employees and managers at the Philadelphia VA. 
It is because of them that we are here today at this hearing to 
fully understand the gravity of the situation in Philadelphia. 
And I just want to emphasize that. It is because of them that 
we are all here today.
    It is now our duty in Congress to ensure that they are 
protected from retaliation. I have been to the facility and 
have heard firsthand of the wrongdoings and ongoing concerns at 
the Philadelphia VA. The VA must provide an environment that is 
free of fear in order to create an environment of transparency 
and accountability.
    In the end, all the wrongdoings done at the Philadelphia VA 
will fall on the backs of our Nation's veterans, especially the 
825,000 veterans served at this facility, including so many 
veterans from my district in southeastern Pennsylvania.
    I am grateful for Kristen, Joe, Diana, and Ryan for 
exposing problems at the Philadelphia VA in order to protect 
our veterans.
    And thank you, Mr. Chairman, for allowing me to introduce 
them.
    The Chairman. Thank you very much, Mr. Costello.
    I will now yield to Mr. LaMalfa for a brief introduction of 
the witnesses who are here to speak about the Oakland RO.
    Mr. LaMalfa. Thank you, Mr. Chairman. I am very grateful to 
be allowed to participate in today's committee. Very important 
to northern California as well as the picture across the whole 
country.
    I am also very grateful and pleased that our witness and I 
am able to introduce Ms. Rustyann Brown who has joined us 
today. She is a veteran, a ten-year veteran of the U.S. Navy 
and was employed at the Oakland VA Regional Office for five 
years. She worked on the informal project team that was tasked 
with sorting through the up to that point missing 13,184 claims 
that were discovered in a file cabinet at the Oakland VA.
    Rusty contacted my office in 2013 when she realized her 
supervisor was not appropriately handling these claims. She has 
a very compelling story to tell and I am pleased she is able to 
be here, especially with the difficulty it is to travel from 
the West Coast here.
    And so thank you for joining us today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. LaMalfa. I want to 
thank both you and Mr. Costello for your tenacity on this 
particular issue.
    And I would ask the witnesses, if you would, to please 
stand. We are going to swear the witnesses in today. Please 
stand and raise your right hand.
    [Witnesses sworn.]
    The Chairman. Thank you. Please be seated.
    We do appreciate your attendance today. Your complete 
written statements will be entered into the hearing record.
    Ms. Ruell, it is great to see you again before the 
committee. You are recognized for five minutes.

                   STATEMENT OF KRISTEN RUELL

    Ms. Ruell. Thank you.
    My name is Kristen Ruell. I am an authorization quality 
review specialist at the Philadelphia Regional Office. My 
primary job duty includes performing quality reviews on the 
accuracy of benefit payments paid out from the VA to its 
beneficiaries.
    This August will mark my eighth year of employment with the 
Philadelphia Regional Office at the United States Department of 
Veterans Affairs. The agency has potential to be the greatest 
place to work in the entire country. The feeling of being able 
to give back to the American citizens that served our country 
is truly satisfying.
    Earlier this month, the Office of Inspector General's 
report on the Philadelphia Regional Office was released. The 
report confirms what whistleblowers have alleged for years, 
that the managers at the Philadelphia Regional Office lack the 
ability to appropriately govern and oversee the wide range of 
benefits and services for which it is responsible.
    To date, the VA has failed to hold any management official 
accountable for the many deficiencies cited in the report. The 
VA has stated that 95 percent of the problems cited in the 
report have been fixed. I strongly disagree for the following 
reasons.
    Number one, the Philadelphia Regional Office has a large 
number of EEO complaints against various members of management. 
A large amount of taxpayer monies have been spent on 
administrative costs, attorneys' fees, and settlements. For 
every case settled, a new one is filed.
    Without removing the officials making the bad decisions, 
the number of claims filed will not decline. When the evidence 
clearly indicates that the same decision makers are not making 
the right decisions, they should no longer be in decision-
making positions.
    Number two, I have personally reported erroneous and 
duplicate payments since 2010. In 2012, I reported the 
erroneous payments to the IRS, Department of Justice, OIG, OSC, 
and the VA secretary. The duplicate payment problem has never 
been fixed. Unless the computer is programmed to prevent a 
duplicate payment, they will continue to occur.
    The VA has stated that they have no way to identify and 
prevent duplicate payments aside from a duplicate payment 
report which Philadelphia Regional Office employees admitted 
they were unaware the reports existed. Stopping an award that 
is paying twice is not correcting the underlying problem which 
is wasting millions of taxpayer dollars.
    The VA also did not keep a list of people that were paid 
duplicate awards and many were sent letters in which the 
erroneous award was stopped without processing and noting the 
overpayment. Creating a ledger of overpayments at this point 
would be virtually impossible due to the lack of recordkeeping 
regarding these payments.
    Number three, although Fast Letter 13-10 was rescinded, 
there is evidence that data manipulation continues. The data 
manipulation will continue until the performance standards are 
amended. The current standards are unreasonable and cause an 
employee to do things to save their job that in turn can harm 
the veteran. It's not fair to place an employee in that 
situation. It's even less fair to the veteran whose claim may 
be affected.
    Fourth, an Administrative Investigative Board has been 
charged with making a determination on certain issues regarding 
the misapplication of Fast Letter 13-10 which pertains to dates 
assigned to claims filed by veterans and their survivors. The 
Administrative Investigative Board consists of VA employees who 
determine whether there is intentional wrongdoing.
    The OIG just finished their investigation on this issue. It 
is confusing to me why the OIG suggested an AIB rather than an 
outside investigation. An outside agency should be assigned to 
eliminate bias.
    Philadelphia Regional Office Director Diana Rubens used to 
be in charge of 57 field offices and most likely knows most 
management officials chosen to investigate on behalf of her 
regional office. The VA should not be trusted to investigate 
itself until it proves it's complying with VA core values.
    Number five, employees are expecting management to be held 
accountable for the deficiencies cited in the recent OIG report 
regarding the Philadelphia Regional Office. The typical VA 
solution for most every problem is training, committees, 
meetings which do not fix managers who lack morals and 
integrity.
    The Philadelphia Regional Office needs new leadership. 
Employees have lost trust in their managers and do not trust 
the broken chain of command. I have lost trust in VA management 
at all levels. I stopped sending emails to the VA Central 
Office because I was informed that my and other employees' 
emails were being rerouted to the regional office and were in 
the hands of the people we reported.
    The only way to rebuild trust at the Philadelphia Regional 
Office is to hold those accountable that were responsible for 
the many issues cited in the OIG report. Congress and the 
American people need whistleblowers so they are informed as to 
what happens inside the walls of federal agencies. Without 
accountability in my office and at the VA, there will be far 
fewer whistleblowers, if any.
    Thank you for the invitation to be part of this hearing 
today. I'll be happy to answer any questions you may have 
regarding my experiences at the Philadelphia office.

    [The prepared statement of Kristen Ruell appears in the 
Appendix]

    The Chairman. Thank you very much.
    Mr. Malizia, you are recognized for five minutes.

                  STATEMENT OF JOSEPH MALIZIA

    Mr. Malizia. Thank you.
    Thank you, Chairman Miller, Ranking Member Brown, and 
members of the committee, for allowing me to address the 
continuing problems at the Philadelphia Regional Office.
    I am a 37-year employee of the Philly Regional--VA Regional 
Office and have been the president of AFGE Local 940 for the 
past 16 years.
    I concur with Ms. Ruell's statement. AFGE Local 940 
represents front-line employees who work on claims related to 
disability and pension in the Philly and Wilmington regional 
offices. A negative cloud has been hanging over all of the 
front-line employees for the past nine months which is causing 
everyone to feel so demoralized.
    These are hard-working, dedicated employees. It has been 
hard for them to function under the hostile work environment 
that has been created by the combined management of Director 
Diana Rubens, Assistant Director Lucy Filipov, Pension Center 
manager Gary Hodge, Veteran Service Center manager Jeanne Paul, 
and Human Resources Chief Lina Giampa.
    Director Rubens is fairly new to the Philadelphia RO, but 
clearly not new to VA. And she, therefore, should have been 
well aware of the problems that existed in the Philadelphia 
Regional Office. At first, I was very hopeful about working 
with Ms. Rubens, but regrettably for the employees of the 
Philly RO after Ms. Rubens arrived, things actually got worse.
    For example, she did not properly handle a complaint raised 
by the union about a hostile work environment in the Pension 
Management Center training class. Even though Director Rubens 
told me she would authorize an investigation outside of the PMC 
and possibly even outside of the regional office, all she ended 
up doing was reneging on her word and ordering a sham 
investigation.
    It appears that Director Rubens' management philosophy is 
deny, cover up, and repeat. Given all the negative publicity 
about the Philadelphia RO, I would have thought that Director 
Rubens would have changed her behavior, but we have not seen 
that and, in fact, she has told employees that morale is their 
responsibility, not management's.
    Last week, AFGE Local president and doctor, Maryann Hooker, 
testified here before your committee and spoke about 
psychological safety and workplace bullying. The very--these 
very same practices are--are causing systemic problems in the 
Philadelphia Regional Office and I would say throughout VBA, 
that they are covertly used to retaliate against employees who 
have the courage to speak up about problems or to question 
practices.
    Another serious problem in the Philadelphia RO which Ms. 
Ruell spoke to is the manner in which reasonable accommodation 
requests for employees with disabilities and equal opportunity 
employee--employment complaints are handled. Many of these 
cases involve veteran employees who--who have a service-
connected disability. VA's stalling tactics in handling these 
cases cause unnecessary stress on employees, waste hundreds of 
thousands of dollars through lost production, settlements, and 
judgments.
    Many employees also feel that Ms. Rubens' reimbursement for 
relocation expenses is another example of special treatment. 
Please don't be fooled by the rhetoric that VA management will 
present today. They are playing the proverbial street hustler's 
shell game, moving and manipulating data to distract you from 
the real problems.
    Don't let them make the employees the scapegoat for their 
mismanagement. Employees are not the problem. It is my hope 
that justice will be served and that this committee can help 
stop this culture of deny, cover up, and repeat. The only way 
the VA can restore its integrity is to remove the management 
staff at the Philadelphia Regional Office.
    AFGE is a valuable resource in VA that is drastically 
underused. AFGE is ready, willing, and able to work with this 
committee and the VA to restore the integrity of VA and, 
therefore, the faith that the citizens of our country have in 
the VA.
    And like Ms. Ruell, I'm willing to answer any questions 
that you have later and based on my testimony. Thank you.

    [The prepared statement of Joseph Malizia appears in the 
Appendix]

    The Chairman. Thank you very much for your testimony.
    Ms. Blender, you are recognized for five minutes. And if 
you could, pull your microphone a little bit closer. There you 
go.

                   STATEMENT OF DIANA BLENDER

    Ms. Blender. Can you hear me?
    The Chairman. Yes.
    Ms. Blender. Okay. My name is Diana Blender. My story is 
one of harassment, belittlement, discrimination that occurred 
to me when I attempted to blow the whistle. Sadly for me when I 
unearthed the true happenings in this department--it's not the 
department I'm in now--I was sent on a daily journey of abuse, 
mental cruelty, emotional torture, and undeserved corrective 
job actions.
    When I first came to triage, we had a manager that was 
extremely knowledgeable. He knew what he was doing and it was 
great to work for him because if we worked hard, he told us 
that. And most of us were new, had to be trained, and it wasn't 
easy.
    Unfortunately, he--I'm not sticking to this because it's 
the only way I can talk. Unfortunately, they got rid of him. 
When I say got rid of him, they got rid of him. You know, when 
all this started, I had no idea. I thought he was transferred. 
But after a couple of years, I realized that this is what 
management does. They discredit you and get rid of you because 
maybe they want somebody else who's a friend in there.
    Anyway, he was gone. We had somebody new who knew nothing 
of what we were doing. I have my thoughts about that. She 
didn't belong there, but she was there. Because she knew 
nothing, she hid in her office a lot and she left it to the 
people that were on the floor that knew what they were doing 
supposedly.
    They began to manipulate the mail. And I said to one of my 
co-workers, wow, they're really fast at what they do. And--and 
she said are you crazy? And I said why, what's up? What am I 
missing? And she said they come in at five in the morning and 
they take all the easy claims and leave the hard ones for us. 
So, of course, we can't get our numbers.
    So I said time to get in early. I came in one morning at 
five o'clock in the morning and caught them. And I said what 
are you two guys doing? And they had no answer. I said that's 
mail manipulation. They said, well, we'll give you some easy 
work today and they gave me the easy work. They followed 
through.
    And the next day, I went to my immediate supervisor. Later 
on to find out that he was in cahoots with them. And so there 
it began. They tore my work apart. Prior to that, I was--I was 
a wonderful employee. I was doing my best to do a good job.
    When I got the job for the VA, I was so proud of myself 
because I came from a family of veterans and said, wow, if my 
mother and father were alive today. My father was a POW. My two 
brother-in-laws were Vietnam War veterans. We were tap dancing 
in VA hospitals when I was maybe three or four years old 
because my father who was a POW says it's the holiday, we've 
got to go take care of the boys.
    I was proud to be there, but I soon found out it was a 
horrible place. Some of the things they did to me when I became 
a whistleblower came to an end because this new woman came in 
and I told her if this continues, I'm going to set myself on 
fire out front so people know what's going on here.
    So she started to work with me. They gave me 
congressionals. Congressionals are very important. More and 
more people were going to their congressmen because we couldn't 
handle their work. At one point when I was doing 
congressionals, they had 28,000 pieces of mail in shopping 
carts that was unopened.
    I kept saying to my supervisor can I go through that mail 
and look for the congressionals. She said, no, it's not 
allowed. I said you can see it right on the envelope who it's 
from.
    Anyway, one day when I had a day off, I came back. All that 
mail was gone and I was getting phone calls. What do we got 
congressionals for? I said to her call all the supervisors, the 
coaches, get the congressionals back in here. You gave away all 
that mail and it's filled with congressionals. And I'm going to 
take the blame.
    Long story short, they killed the messenger, took me off 
congressionals, and I became a victim again. That's as quick as 
I can say it. I really need a half hour, but that's fine with 
me. When I was victimized, they would drop heavy things in back 
of me and I'd say, you know, I'm 68 years old at that time. I'm 
going to be 73 now. I said, you know, you could have given me a 
heart attack.
    They would file charges against you for murder. And he 
said--I was crying because I had it up to here. Things were 
missing from my desk. I couldn't go to the ladies room without 
throwing everything in a cart and taking it with me. They 
thought it was a big joke, but I was being victimized like no 
woman should be.
    And I'll tell you the truth. When my kids saw some of 
this--I never told my children what was going on because I 
didn't want them to be upset--they were extremely upset that 
their mother was treated this way.
    When all this was coming down--you can tell I'm emotional--
I was in the hall one day and I ran into the two directors. And 
I said how do you feel about all this stuff that's on 
television now? And nobody answered me. I said I'd like an 
answer. Well, this could make us go forward and do a better 
job. I said, yes, but you can't do that until you clean up the 
past.
    There's a lot of victims. All--I was the only one of the 
seniors that survived. That mail manipulation taking the easy 
work for themselves and giving the hard work to people like me, 
I named it setting you up for failure. They made sure you got 
all the new claims because they take longer to develop. They 
made sure you got that hard work so you couldn't make it.
    And as much as I begged them to stay--we got to fight I 
would say. We got to fight. This is not right. This is not the 
first government agency I worked in. I worked in the Department 
of the Army where they developed ammunition. I worked for 
Social Security. Whenever you worked hard, you were 
appreciated. Some more than others, but I never knew that it 
was management that was instigating for people they didn't want 
there.
    And I also found out two days before my--my--what do you 
call that--arbitration, because I was filing all these things, 
somebody came at night and she said to me don't you realize 
what you're up against? And I said what are you talking about?
    Now, this woman used to be my supervisor and she had said 
to me--I told her when she came--she said something to me 
negative. I said you know what, I'm not your problem in this 
place. They already have you marked. Their words are they're 
going to get rid of you. Worry about yourself.

    [The prepared statement of Diana Blender appears in the 
Appendix]

    The Chairman. Thank you, Ms. Blender. I apologize, but we 
need to----
    Ms. Blender. That's okay.
    The Chairman [continuing]. Go to our fourth witness. Ms. 
Brown, you are recognized for five minutes. Thank you.

                  STATEMENT OF RUSTYANN BROWN

    Ms. Brown. Good morning, committee members. I'm Rustyann 
Brown. I'm a retired federal employee who served ten years in 
the Navy as a hospital corpsman and then years later continued 
my federal service at the Veterans Benefit Administration 
Regional Office Oakland.
    I quickly realized that we were being instructed to do 
things that were not in the best interest of the veteran, but 
instead good for the employee and management numbers. It 
started with returned mail piling up in huge tubs and no one 
assigned to research and locate current addresses.
    Letters regarding claims issues that were sent to veterans 
always included the 800 number and we were never allowed to 
give out our personal numbers. Elderly and terminal veterans' 
claims would not be moved or acted upon. Just no sense of 
urgency for them.
    I began to voice my opinion to my supervisors and other 
employees because we were not doing the right thing. This was a 
regular visit to my supervisor's office. Sometimes as I 
approached, I could see him roll his eyes at me and then 
dismiss me with just do what you're told to do.
    Then one day, this supervisor brought me into his office 
and told me that per the director, I could no longer do 
volunteer work with the Oakland Vet Center. I had been 
volunteering to help veterans understand the forms and which 
ones were needed for their situations. When I asked why I was 
being restricted, I was simply told the director believed it 
was a conflict of interest.
    In July 2012, I was promoted to veteran service 
representative and sent to San Diego for what should have been 
eight weeks of training. Instead, after only three weeks, my 
training group of five was brought back and placed on a special 
project, informal project. We were never given an answer as to 
why we were doing this work that was part of our--our previous 
role and why we were not allowed to fulfill the remainder of 
our training requirements.
    This project consisted of 13,184 informal claims which had 
never been reviewed. We realized that a substantial portion of 
these veterans were now dead and their claims had never been 
answered. Nothing had been done to help them. If we determined 
they were dead or had never filed a formal claim, we were 
instructed to mark them NAN, ``no action necessary'', our 
initials, the date, and set aside.
    We began to ask management why nothing was being done to 
take care of these claims as required by policy and also why 
their criteria for screening these claims was not the normal 
screening practices.
    I would go home on a daily basis telling my husband of the 
heart-wrenching letters I had read that day and how many--so 
many of these veterans and dependents were now dead before 
anyone had even looked at the claim. Even among the ones still 
living, it had been years, sometimes more than 10 or 12 since 
they made the request.
    After several months of screening these claims, we were 
taken off the project and relocated to a different team. Our 
team continued to do other special projects for our previous 
department, IPC, and we were also finally given claims to begin 
developing in our new position. This was new work for which the 
San Diego training was supposed to prepare us.
    I began to see military sexual trauma claims show up in my 
work assignments. These claims are supposed to be developed by 
the special OPS team because of the sensitive nature of the 
claim. But when I would take the claim to my mentor or 
supervisor and tell them what I had, that it needed to be moved 
to special OPS, I was told to just do the next action and move 
it on.
    This was a huge problem for me as I am a survivor of 
military sexual trauma and service-connected for PTSD due to 
this. For me, simply reading the statements would bring back 
all the memories I had tried for years to forget. I would spend 
time in the restroom crying or hiding in a stairwell so no one 
could see me and the physical reaction I would have to these 
claims.
    A reasonable accommodation request was initiated in May 
2013 to remove MST and certain other PTSD claims from my claim 
files I reviewed, those that provoked my PTSD symptoms. Under 
the VA's rules, I should have had--I should have received a 
response within 30 days, yet I did not even receive a request 
for additional medical documentation for over 60 days and did 
not receive a final determination for five months.
    During this time, I continued to review files and my own 
PTSD reactions intensified in part because of the fears I would 
have to review these files. I took FMLA in September to remove 
myself from the situation. While I was on leave on October the 
30th, 2013, five months after the request was initiated, I 
received a letter from the regional office denying my request 
without good justification.
    During this entire time, no one at the agency had engaged 
in the required interactive process with me as a disabled 
employee. No one asked me about the details of which files I 
could review and they believed with a simple accommodation. 
Thus, they never learned that it was a smaller group of files 
than they believed with a simple accommodation which would 
allow me to continue as a veteran service representative.
    With my accommodation denied and in order to maintain my 
employment and protect my retirement, I agreed to take a 
downgrade in pay and status and was sent back to IPC.
    In April 2014, a cart showed up in my work area and when I 
looked at the cart, it was some of the informal claims from 
2012. I saw my initials on the very first page. I didn't 
understand why they were still hanging around. I took a picture 
of the cart and I forwarded it to Congressman LaMalfa.
    Two other employees and I hand carried approximately 120 to 
140 claims to the OIG office in the building per Congressman 
LaMalfa's instructions, all of which required actions.
    OIG came in and took 16 days to do an investigation in 
June, July 2014. After months of being referred to as snitch 
and NARC by other employees and being isolated within my 
department, I put in for early retirement.
    From that day, I have fought to get the word out regarding 
these claims and the veterans who were ignored. So many of 
these veterans had letters or personal notes attached and 
begging for help. And we, the VBA Oakland, did nothing.
    I do not have general or CEO on my resume, but I know what 
was done to these veterans was not right. I will carry those 
memories of those letters for the rest of my life. And I ask 
the committee to do everything in their power to do the right 
thing for these veterans, their families, and the employees 
that truly want to do the right thing without fear of 
retaliation.
    Thank you.

    [The prepared statement of Rustyann Brown appears in the 
Appendix]

    The Chairman. Thank you very much, Ms. Brown.
    Thank you to all the witnesses on our first panel. I will 
start the questioning.
    And, Ms. Brown, if I could just go directly back to you. In 
your written statement, you talked about 2012, you were placed 
on a special team that processed more than 13,000 previously 
unprocessed informal claims that had been allowed to languish 
at the Oakland office for as long as 20 years; is that correct?
    Ms. Brown. Yes, sir.
    The Chairman. Moreover, you described a process by which 
you were instructed to mark a claim with the notation no action 
necessary if the veteran were dead or had never filed a formal 
claim.
    So I think the committee needs to know; were the 
instructions that you received consistent with normal practice 
in processing informal claims, and what survivor benefits would 
be lost by marking a claim ``no action necessary?''
    Ms. Brown. Well, first of all, if--if the claims were not 
done appropriately--if--if--say the veteran was dead and we 
marked it no action necessary, they'd put it aside. Data 
integrity was not--it was not taken care of properly. So 
information about the veteran was not put into the system. So 
if the widow ever came in to file a claim for DIC, there's 
nothing there. There's no information about her husband 
previously putting in the system. Okay. You have to excuse me. 
I'm----
    The Chairman. That is okay. That is fine. Do you know what 
happened to the informal claims----
    Ms. Brown. We----
    The Chairman [continuing]. After you were reassigned?
    Ms. Brown. We were told that another team was going to come 
in behind us and finish them all and yet on a daily basis we 
were seeing piles of them set aside, the ones that said no 
action necessary.
    Now, you have to understand even though they were marked no 
action necessary, there was still action that was necessary. If 
they had not filed a formal claim, it was our obligation to 
send a letter to that veteran telling them exactly what they 
did need to do to fix that claim and make it a formal claim. We 
didn't do that. We didn't do anything.
    If they--once again, if they already passed away, it was 
our obligation to contact that family. We should have. We 
didn't.
    The Chairman. Thank you very much.
    Mr. Malizia, since Ms. Rubens came to Philadelphia to 
become the RO Director, have you ever heard her state that she 
wanted to work at the Philadelphia RO for a long time prior to 
when her transfer took place?
    Mr. Malizia. Well, there was discussion and--and rumored 
information being spread throughout VBA that Ms. Rubens was 
destined to be the director at Philadelphia two years prior. 
That was ultimately filled by Robert McKendrick.
    So getting back to Philadelphia was something that was 
rumored to have been something she was interested in. And then 
once she actually came to Philadelphia, she had made statements 
that she's glad she's here. She's been wanting to get here for 
a while.
    The Chairman. Ms. Ruell, in your written testimony, you 
described a systemic failure which has led to erroneous and 
duplicate payments which has resulted in veterans and their 
families receiving improper payments. In fact, you state that 
you reported some of these payments to the IRS, to OIG, OSC, 
and to the secretary in the central office.
    And my question is, has the VA effectively corrected the 
system error which allows for duplicate payments to ensure that 
veterans and their families are receiving only the payments 
that they are entitled to receive?
    Ms. Ruell. Apparently not. The VA when they went from 
VETSNET to VBMS, there are statements on the record that the VA 
has known about this problem for a very long time. When they 
created a new computer system, that allows for duplicates as 
well. So to my knowledge, the system has never been fixed. I 
saw one just the other day at work.
    The Chairman. Ms. Ruell, you know the assistant director, 
Lucy Filipov, correct?
    Ms. Ruell. Yes.
    The Chairman. Are you aware that there was a dinner party 
hosted in June of 2014 for RO employees including the PMC 
manager, Gary Hodge, and his wife and Ms. Filipov and Mr. Hodge 
are both GS-15 level managers? But allegedly many of the 
employees at the party were GS-13s, 14s, and I think there were 
some GS-9s.
    But I understand Ms. Hodge is a medium and offered her 
services to attend these to share messages she received from 
their deceased loved ones. And I understand that she may have 
charged people as much as $30 to have their deceased loved ones 
contacted. Have you heard these reports?
    Ms. Ruell. I have heard all about that party. I was not 
invited to that party, but I heard from people that were not 
invited to the party either and they did tell me that they were 
in meetings and there was talk about the party and that they 
had to pay $30 for Mr. Hodge's wife to give them a fortune 
telling experience.
    The Chairman. Do you know if any of the attendees fell 
within either Ms. Filipov or Mr. Hodge's chain of command?
    Ms. Ruell. Definitely. Most of--most all of them did. A lot 
of the people that went to the party, to my knowledge, from 
what I've heard around the office, they were Pension Center 
employees that were under Gary Hodge and ultimately under Lucy 
Filipov. She's one of his bosses.
    The Chairman. Thank you.
    Ms. Brown.
    Ms. Brown of Florida. I am going last.
    The Chairman. Thank you.
    Ms. Kuster.
    Ms. Kuster. Thank you, Mr. Chair.
    And thank you. I want to particularly thank the 
whistleblowers who are with us today and, Ms. Brown, thank you 
for sharing your story which probably only exacerbates your 
feelings about your experience. So I just want you to know that 
we certainly care and appreciate you coming forward.
    I am trying to get at where we go from here, how we can 
change the culture at either Philadelphia or Oakland. And I 
know there have been attempts.
    One of the issues I am particularly concerned about is how 
the data manipulation--and let's start with you, Ms. Ruell. You 
mentioned that there is data manipulation because of the way 
performance criteria are kept.
    Can you just expound on that and what type of changes would 
be required in the criteria, in the performance criteria that 
would help to get the job done for our veterans to make sure 
that their applications are processed in a timely way?
    Ms. Ruell. Yes. Most employees, especially anyone who does 
production work, VSRs, people who review, those are people who 
process claims and the people who review the claims are on 
production. There's some--I don't know how the production 
system was set up, but every claim gets--gets points associated 
with it.
    So it's very hard to, when you look at a claim, to know how 
long that claim is going to take. A lot of things are 
electronic. Some folders are in other offices. You get the same 
amount of points to, for instance, do someone--someone whose 
claim has passed as you do to do a live vet that has different 
issues that you'll need to get information for.
    So people will cherry pick the work. They are worried that 
they won't get their points. It's kind of like a batting 
average. So if you need 16 points today and you only get 14, 
you have to get 18 tomorrow. So--and if you don't get your 
points, they put you on a performance improvement plan which is 
exactly the opposite of what it's called. It's not to improve 
your performance.
    Usually when you go on one of those, the next step is out 
the door. So people get very worried that they're going to get 
fired and they do things that they probably wouldn't normally 
do if this point system was not there.
    Ms. Kuster. So can you give examples of how they would 
handle a claim?
    Ms. Ruell. There's all kinds of things. They could failure 
to prosecute it if we needed a piece of evidence and say that 
we didn't get it when it might be sitting in the mail room and 
not scanned in for a few days. They can skip over cases.
    They--there's a way that employees can run reports called 
VOR reports and they can pick out all the end products of the--
for the claimants that have passed away. And so if you need 
points, usually if you do one of those, that's a very fast 
claim.
    So it's--in my opinion, most of the problems are results of 
horrible managers and this production system that you can set 
an employee up to fail.
    Ms. Kuster. Okay. That is very helpful. Thank you.
    Any of the others? Ms. Brown, do you have a similar 
situation out in Oakland with the way those points are kept and 
the way the production criteria are applied to employees' 
performance?
    Ms. Brown. Absolutely.
    Ms. Kuster. Could you give us some examples?
    Ms. Brown. Well, in--just in--in bringing and screening 
claims and--and getting them initiated, once again, you're 
talking about addresses and checking addresses and--and whether 
the vet was even still alive or just simple things, connecting 
the mail to pieces, you know. It was a constant--an employee 
was always worried about making their points. If they didn't 
make their points like Kristen said, you were setting yourself 
up for failure and you were--you were halfway out the door 
already.
    So if you try to do the right thing and slow down and do it 
right by the veteran, you were getting yourself in trouble. And 
that was every day. All the employees talked about this and it 
was a huge problem, huge.
    Ms. Kuster. Well, we appreciate you bringing this forward 
to us today. And, you know, we are one of the more bipartisan 
committees on Capitol Hill. We share your outrage and concern 
and this is something that we will take up with the next panel 
and take right up to the top of the VA. So thank you again for 
coming.
    And I yield back.
    The Chairman. Thank you, Ms. Kuster.
    Dr. Roe, you are recognized.
    Dr. Roe. Thank you.
    I want to just start by thanking all the witnesses for 
being here. And there seems to be an ethical bankruptcy at the 
VA in some instances. And I want to start by, it is sort of 
hitting me because of what I did this weekend.
    This $309,098, Mr. Chairman, to move. Well, I went this 
weekend and moved my 92-year-old mother with my two sons 
because I was spending my own money and we moved 55 years of 
being in a house with a $350 U-Haul-it and about 80 bucks worth 
of gas. And we moved her, all her belongings for less than 
$500. That was a lot of sweat equity on my part and my two sons 
and we moved 350 miles, I might add, and we didn't spend 
$309,000 of the taxpayers' money that could have been spent on 
healthcare for veterans.
    And we see this at the VA and Aurora and Orlando and over 
and over again. And I am about sick of it to see the money that 
is being wasted that could go to veterans' healthcare.
    Ms. Brown, you brought up a point that really hit home to 
me. I don't see how in the world as an employee of the Veterans 
Administration you could sit there and see these claims piled 
up, basket loads of letters, because I hear it all the time 
when I go home, `I haven't heard from the VA, Dr. Roe.' And I 
start looking into it. I don't know why.
    And then I hear what you just said when you have no action 
necessary. And these are little details that we don't know 
because you are the experts on that, that there might be a 
spouse out there that missed out on something that could keep 
her or him above water. These are not rich people and they are 
folks I see that are just getting by barely. And it may be 
their service to this Nation that allows them to do that.
    Am I correct in that? Are there bins of letters that have 
been sent in and a person has a reasonable expectation to hear 
back from their government in a reasonable length of time? 
Could you just walk me through that again because it really lit 
me up when I heard that because I get these phone calls all the 
time at home?
    Ms. Brown. Well, regarding the 13,000, these were in a--in 
a cabinet that had been stored for years and very organized. 
And when we got put on the project to review them, we began to 
realize the very first ones especially that were the older 
ones--the oldest one I saw was 1996 personally. We reviewed 
them. They had not been acted upon. They had not had any 
letters sent. They had not had anything.
    And--and the one that I think probably tore me up the most 
was a elderly woman and she's writing in about the wonderful 
service her husband did during World War II. And--and he loved 
his country and he just knew when he passed that the VA was 
going to take care of her. Baby, don't worry, they're going to 
take care of you.
    She was dead six years by the time we read that letter. 
She'd been gone and we didn't do anything for her. And I can't 
tell you how many there were like that. There were a lot like 
that. And to mark on a piece of paper NAN, no action necessary, 
restricts that surviving spouse from receiving any benefits.
    Dr. Roe. That is what I hear and especially what you just 
said. I get calls not infrequently of a veteran who has cancer.
    Ms. Brown. Yes.
    Dr. Roe. And, you know, as a physician, I can't tell you 
how long, whether it is three months or five months or 
whatever. It is unpredictable. But I do know it is going to be 
fairly soon. It is not going to be three years. I do know that, 
that this veteran may not survive. And it is critical that we 
get those claims adjudicated before that length of time.
    And what I am hearing from you is that many of those were 
put over in the bin. And I hear, well, the veterans are saying, 
well, maybe they are just waiting for me to die so they don't 
have to do anything. And maybe that is the case it sounds like 
at least in Oakland.
    Ms. Brown. Well, a lot of the older vets that I've talked 
to doing volunteer work simply believe, especially the World 
War II and the Korean and Vietnam guys, they--they believe that 
there's somebody out there that must need it more than them. 
There must be a--there must be a reason why I didn't get this. 
There must be a reason. I must have been denied because this 
guy was more deserving than I was.
    So they just don't follow through. They think that they 
were just denied, just dropped off, you know.
    Dr. Roe. But has this changed at Oakland?
    Ms. Brown. Well, I retired in September. I've kept pretty 
close communications with people there, very close 
communications. And it doesn't appear that anything has really 
changed a whole lot.
    There's not a lot of mail hanging around anymore, but 
basically all they've done is scoop it up, sent it to the scan 
center, and dump it off. So it's in a virtual folder someplace 
and unless you work that specific veteran's claim, you won't 
know about that piece of paper.
    Dr. Roe. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Rice, you are recognized.
    Ms Rice. Thank you, Mr. Chairman.
    So if I could just ask all of you if you could again, and 
forgive me if I didn't get these dates down correctly, but for 
each of your individual testimony and the behavior that you 
described, when did that first start? When was that first 
something that you noticed for each of you in terms of like a 
time frame, a year?
    Ms. Ruell. I noticed bad behaviors from the first day I 
started working there in orientation when they told us that if 
we accepted this job and it was in paper, in writing that we 
would get a GS level of a 7, a 9, and then an 11. And in 
orientation, they came into the room and they said, oh, I'm 
sorry, there's--and people moved here in reliance on this paper 
and they said we're sorry, there's a mistake. You're not going 
to get a GS-11. You have to get a GS-10 first.
    So I said, oh, that--that's strange, let me look--let me 
check into this. So I asked a few questions and I was told to 
my face I wouldn't pursue that. It's your first year here and 
you're on probation for the first year. And if you cause a 
problem, they'll fire you. And I had just relocated here from 
Maryland, but I----
    Ms Rice. What year was that?
    Ms. Ruell. 2007.
    Ms Rice. And you started working----
    Ms. Ruell. 2007.
    Ms Rice. That was for the VA? That was your first----
    Ms. Ruell. The VA was my first experience and that was----
    Ms Rice. That is 2007?
    Ms. Ruell. Yes, and----
    Ms Rice. And, Mr. Malizia, how about you?
    Mr. Malizia. The problem is--is an ongoing one. I don't 
know that I can kind of put a start date on it, but these 
problems that the OIG is investigating, that the committee has 
been investigating, that's been ongoing for about the past two 
to three years.
    Ms Rice. For you, about the past two or three years?
    Mr. Malizia. Yes.
    Ms Rice. And, Ms. Blender, how about you?
    Ms. Blender. You know, I started in--I think it was 2008.
    Ms Rice. 2008.
    Ms. Blender. And almost immediately----
    Ms Rice. Okay.
    Ms. Blender [continuing]. I noticed----
    Ms Rice. What you----
    Ms. Blender [continuing]. Mail all over the place. And the 
new mail was 28,000 pieces because they used to take the count 
every day.
    Ms Rice. Yes.
    Ms. Blender. And I was sitting near there, so I would hear 
them. But there might have been double that or more on return 
mail.
    Ms Rice. Yes.
    Ms. Blender. And when you say return mail, there's a thing 
called EVRs when you are making sure that the veteran still has 
monetarily an entitlement. These never got opened and how many 
people did we cut off because if you don't respond within a 
certain time----
    Ms Rice. And you are out of luck.
    Ms. Blender [continuing]. You're not responding----
    Ms Rice. You are out of luck.
    Ms. Blender [continuing]. Boom----
    Ms Rice. Right.
    Ms. Blender [continuing]. You're gone.
    Ms Rice. Ms. Brown, how about you?
    Ms. Brown. Immediately.
    Ms Rice. But what time frame? Give me a year.
    Ms. Brown. Well, this was in September of 2009.
    Ms Rice. 2009.
    Ms. Brown. Was hired, yes.
    Ms Rice. Now, for all four of you, I am going to ask just 
the two same questions. Did you ever get a sense during the 
time period that you talk about, the 2007, 2008, 2009, and Mr. 
Malizia over the last couple of years, that when there was a 
change at the top, a different secretary of the VA or a change 
in maybe the management structure that oversaw you directly, 
did you ever get a sense that there was a change in attitude, 
behavior, or culture?
    Ms. Ruell. Never, because the people promoted would never 
have been somebody that would change things.
    Ms Rice. Okay. Mr. Malizia, how about you?
    Mr. Malizia. What I would like to add to that is that when 
Secretary Shinseki was the VA secretary and he implemented the 
125-day processing time frame, I think that was a big trigger 
for a lot of these actions because that was a very ambitious 
goal to get to and in my opinion very un--and many others, very 
unrealistic.
    And I think that's been the driving force behind a lot of 
activities in VA, the implementation, the need for mandatory 
overtime, the need for all these other things and--and the 
pressures that everybody is feeling. To me, I think that was--
that was one of the key triggers.
    Ms Rice. Okay.
    Mr. Malizia. And it's still in effect now and it's still 
driving, you know, the--the problems in VA now.
    Ms Rice. My time is running very short, so I just have one 
final question. Have any of you ever seen an instance where a 
retaliator was held accountable, yes or no?
    Ms. Ruell. Never.
    Mr. Malizia. No.
    Ms. Brown. No.
    Ms Rice. Okay. Thank you all so much for coming here today.
    And I yield back the balance of my time, Mr. Chairman. 
Thank you.
    Mr. Bilirakis. [presiding]. Thank you.
    Dr. Benishek, you are recognized for five minutes.
    Dr. Benishek. Thank you.
    Ms. Ruell, one of the things that you testified to or I 
heard about is this episode of a possible suicide of an 
employee due to harassment.
    Could you tell me, do you know anything about this, the 
harassment and undue stress that you witnessed that may have 
resulted in a suicide?
    Ms. Ruell. Yes. I honestly don't know his final cause of 
death. I asked a bunch of times and was told that I would not 
be allowed to find that out. However, I was the mentor for that 
employee. I worked closely with him for about three months.
    This man was such a hard worker and was in fear of being 
fired every single day. I became his personal psychiatrist at 
times to try and pump him up to remind him that, come on, you 
got to learn this job. You can't worry about this. We have to--
we have to help veterans. We need to--we need to get you to 
learn this job the best way you could.
    He would spend lunches trying to learn the job even better. 
And there was a threat and intimidation in our building. From 
the beginning, they warn you if you don't get these points, 
then you're not going to make it. This job might not be for 
you.
    This man had moved here from Maryland. He relocated for 
this job and he left his whole entire life to come work here. 
So I felt as his mentor if--if he doesn't make it, I in part 
might have failed him. So I got to know him very well and found 
out that right before Christmas he was dead.
    Dr. Benishek. All right.
    Ms. Ruell. And I know that stress contributed to whatever 
happened to him.
    Dr. Benishek. All right. Thanks.
    Ms. Blender, in your written testimony, you described a 
situation involving 28,000 pieces of mail. How did this 
accumulate over a period of time without being processed? Do 
you know how that happened?
    Ms. Blender. We couldn't get to it. The department I was in 
was called triage. That name triage sounds like an emergency. 
That's the first stuff coming in. If we can't handle these 
important responses from the vets, if we can't get them right 
to where they have to go, it's done.
    Dr. Benishek. Right, right.
    Ms. Blender. If--if--if--as--as a VSR, if somebody is 
waiting for your--for your DD214 and it's sitting in a mail bin 
for three or four months, well, they're going to close the 
claim.
    Dr. Benishek. Right.
    Ms. Blender. We could not handle the amount of work that 
was coming in in the mail.
    Dr. Benishek. Were those ever resolved or are they still 
sitting somewhere?
    Ms. Blender. When everything was gone--the day I came back 
to work, everything was gone. My phone was ringing. I was 
worried about the congressionals. And I said where's the work? 
They said, oh, it's all over the building. I said, all over the 
building? What about the congressionals?
    Anyway, by sending this work all over the building, they 
had little team things that you could win. So for--if you--if 
you developed a certain amount of claims a day as a VSR, that 
team would get maybe, I don't know what, a Dunkin Donuts card 
or what. And I followed it and you know how much it came to, 
13,000 pieces of mail was done in that. What happened to the 
other mail? Where is it?
    Dr. Benishek. Yes, I don't know either.
    Let me ask a question about these managers that have been 
doing this. Was anybody ever punished? Did you ever see anybody 
change? In Philadelphia, did anybody ever lose their job over 
any of this, any one of you?
    Ms. Blender. Recently somebody was transferred out.
    Dr. Benishek. Transferred out?
    Ms. Blender. Of our building.
    Dr. Benishek. Ms. Brown, are you aware of anything in 
Oakland that somebody lost their job over----
    Ms. Brown. Not that I'm aware of.
    Dr. Benishek [continuing]. This mismanagement?
    Ms. Brown. Not at all. We had heard one supervisor had been 
suspended for a couple of weeks, but he came back and said he 
was on vacation, so don't know whether that was true.
    Dr. Benishek. One more question. Ms. Ruell, about these 
double payments, you talked about these duplicative payments to 
some veterans, did they resolve this problem of how this 
occurs, these duplicate payments? Has there been a systemic 
change in the way they do business then to find these claims?
    Ms. Ruell. No, there's no change. I mean, the VA will tell 
you to fix them because they probably got a list from the 
inspector general or one of my many lists I sent them that 
these are paying twice or these are--have multiple PID numbers 
and could pay twice.
    So the way that it works is if we put your name in, your 
name is Al Bundy and we spell your name A-L-B-U-N-D-Y and then 
you come in again and we misspell your name with two LS, A-L-L 
Bundy, you could get two--two payments. So the problem is 
they'll clean up a record and fix it after there's a problem, 
but they don't eliminate the initial problem from happening.
    Dr. Benishek. I am out of time. Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you.
    Dr. Ruiz.
    Dr. Ruiz. Thank you, Mr. Chairman and Ms. Ranking Member.
    And thank you also to the whistleblowers testifying today 
who have persistently worked to expose misconduct at your own 
personal risk.
    Congress must demonstrate the same diligence in fulfilling 
their duty to veterans and we must rid the VA of the systemic 
wrongdoing and those who perpetrated it. I am especially 
concerned that despite repeated assurances from VA officials 
that the recommendations of watchdogs and whistleblowers are 
taken seriously, allegations continue to emerge from employees 
within these regional offices.
    The recent IG report suggests that even after two prior 
hearings calling attention to problems at regional offices and 
a comprehensive investigation beginning last June, some 
regional offices' employees maintain that those problematic 
conditions persist today or have even gotten worse.
    So in the interest of finding long-term solutions, in the 
interest of shifting the conversation to ideas that we can help 
enforce, let me ask some questions that hopefully can get to 
that point.
    Are there any committees within the regional offices that 
include front-line staff in the decision-making process of 
formulating goals or metrics that you know of?
    Mr. Malizia. No. No, there are not.
    Dr. Ruiz. No? In terms of your governance or oversight 
committees in your regional offices, are there any front-line 
staff involved in those discussions or on advisory boards or 
anything like that?
    Mr. Malizia. There--there may be some. I'm not sure exactly 
what your--your question is you want to--you want to get at. I 
mean, sometimes there are employees that potentially are hand 
picked by managers to serve on a committee to kind of validate 
a predetermined outcome that they want. It's not that those 
kinds of committees are open to any employee, you know, or--or 
certain kinds of employees perhaps.
    And, I mean, the union is involved in some things at--at 
local facilities or should be involved in some things, but many 
times the opinions of the union are just summarily dismissed 
and not--not taken into account.
    Dr. Ruiz. What I am getting at is I am drawing from my 
experience as an emergency physician in a hospital-based 
setting. And in the hospitals, they form committees on patient 
quality control, on what is on the formulary, what kind of 
medicine the hospital is going to use or have the options to 
use.
    And oftentimes they save a seat for different departments 
and different regions within the hospital to come in and have a 
committee-based discussion as to what are going to be the best 
practices, what are the best policies, what are doable and not 
doable based on the people that are on the front lines.
    And this model can be used in the regional offices and 
other institutions so that when a goal is set or issues of 
morale or harassment come up that everybody has a voice at the 
table and then it is carried on in the governance structure all 
the way up the ladder to the secretary of the VA.
    So what do you think is needed to change the culture within 
the VA regional offices enough so that the employees can feel 
that they have a voice and have a responsive, respectful 
supervisor who takes the necessary action and feels listened 
to? What do you think needs to happen in your facility 
specifically and then systemically?
    Mr. Malizia. Well, Dr. Ruiz, I'm--I'm familiar with what 
you're talking about in VHA and there are many of those 
committees that exist. That would be a great idea if VBA 
adopted them, but VBA is well aware of those types of 
committees and has refused to participate in those kinds of 
things including quality--they have quality teams or quality 
review things and they--they look at--through the Care and 
Quality Program, the National Quality Program to apply for 
those things and review--internally review themselves. VBA has 
refused to participate in any of those from----
    Dr. Ruiz. Do you have any other ideas, anything specific 
that we can push to implement, Ms. Brown?
    Ms. Brown. Well, the--the employee standards, the 
production requirements like Kristen said, when you--when you 
have the employees held down by you got to get this done, you 
got to get this done, they're not taking the time that they 
need to do the right work by the veteran. So they got--they 
need to stop that. They need to take the pressure off the 
employees. Do the right thing by the vet whether it takes you 
15 minutes or an hour before you go on to the next one.
    Dr. Ruiz. The motto is take care of the veteran and make it 
a veteran-centered, high-quality institution.
    My time is up. I yield back.
    The Chairman [presiding]. Thank you very much.
    Mr. Coffman, you are recognized.
    Mr. Coffman. Mr. Chairman, I just have one quick question 
and then I want to defer the balance of my time to Mr. 
Costello. And that concerns the issue of bonuses and if the 
panel could answer quickly so that I could give the maximum 
amount of time to Mr. Costello.
    Do you think that the data manipulation and other 
misconduct apparently allowed by the VA's managers at these 
offices was driven by the desire to meet performance goals and 
earn a bonus? Start with you, Ms. Brown.
    Ms. Brown. Personally I don't know it, but I believe it, 
yes.
    Mr. Coffman. Okay.
    Ms. Blender. One hundred percent.
    Mr. Malizia. Yes.
    Ms. Ruell. Yes.
    Mr. Coffman. Mr. Costello.
    Mr. Costello. Thank you, Mr. Coffman. Greatly appreciate 
it.
    I understand things take time, but I want to share a 
perspective, Ms. Ruell, for your consideration. Agree, add to 
it, expand upon it, disagree. In terms of a whistleblower at 
the Philadelphia VA and what they are enduring and how they go 
about working in that environment, here is the perspective.
    It is troubling the long lapse of time between 
whistleblower reporting and the present posture we are in 
today. We have a damning IG report. We have no naming of names. 
You had a broad and deep systemic set of problems at the VA.
    We now have a separate board constitute to investigate 
further. We have recommendations from the IG, most of which are 
common sense and deal with work flow and basic administrative 
practices that any large organization would undertake without 
need for an IG report.
    We have no acknowledgment that people need to be fired 
which, calls into question whether everyone is just covering 
each other's hide because if we started pointing fingers, we 
would really start to know who actually is culpable, which 
calls into question whether there is really a disincentive for 
future whistleblower activity at the VA to really hold people 
accountable and really take meaningful corrective action.
    We have a slow walking and an obfuscation when we start 
talking about misinterpretations, to Mr. Coffman's question, 
misinterpretations of a letter rather than purposeful overt 
misapplication which has enabled folks to not allow an audit 
trail to occur which means we don't even know how much data 
manipulation occurred.
    It calls into question--let me say this, something else to 
remember here. Your allegations go back to at least 2010 and in 
2012, whistleblower allegations were either ignored or they 
were determined to be inaccurate. So now we are here in 2014. 
They have proven themselves to be accurate. You are now saying 
that some problems continue. In some cases, they may be 
worsening.
    And so I think it is important that as we hear these major 
problems may have been resolved or they are all being addressed 
in their entirety that that may not be the case. And you being 
sort of a conduit for many anonymous whistleblowers, share with 
me the frustration that many have with where we are in this 
process and with whether corrective action has actually taken 
place and the frustrations that you are hearing from those who 
are reporting to you at this point in time.
    Ms. Ruell. I probably get 20 phone calls a day whether it's 
on my work line or my cell phone from employees. They want to 
give me information. They want me to be a voice for them. I try 
to explain to them that they need to report things themselves. 
It looks better if it's coming from them rather than--than me.
    They tell me they're petrified. They would never. Even 
management officials are in the same boat. Many people in 
Philadelphia feel that because this inspector general 
investigation took ten months that they would never blow the 
whistle because from the day you blow the whistle, you could be 
targeted. And if you know it's going to be over in 30 days, 
that would be great, but there is no statute of limitations or 
time limit for the IG to produce this report.
    So you have to walk around the building for ten months with 
the same managers that are tormenting you or ignoring you or 
shunning you or getting other people to treat you a certain way 
and you never know when it's over. It's kind of like being on 
death row and not knowing when you're getting executed.
    Mr. Costello. And no one has been held accountable by the 
observation of those who have been whistleblowing, has there 
been?
    Ms. Ruell. No. So people have told me I would never report 
anything. What's the purpose? You're just setting yourself up 
to have a horrendous work experience. And I would agree with 
them because I've seen nothing done to change in our office 
from years of information I turned over.
    Mr. Costello. And so the reason why you are here as one 
voice and there may not be as many other whistleblowers who 
have actually been identified isn't because there are not 
problems, it is because they don't want to subject themselves 
to the risk because they don't see any accountability flowing 
to those who have caused the problem in the first instance?
    Ms. Ruell. Yes. There's tons of information out there 
that's probably worse than what we've already heard, but those 
people will not release their information or their names in 
fear of being fired.
    Mr. Costello. Thank you.
    And thank you, Mr. Coffman.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I thought I would begin by asking Ms. Ruell and Ms. Brown 
about how pervasive some of these problems are throughout the 
organizations in Oakland and Philadelphia. You certainly spent, 
I think, an appropriate amount of time focusing on management 
and failures there which I think is a really important place to 
start.
    But, Ms. Brown, when you mentioned veterans' VBA requests 
languishing since 1996 or when I read the OIG report from 
Philadelphia and I see that one employee hid four bins of 
unprocessed mail, I mean, some of these decisions are happening 
at all levels within the VBA.
    And so I wanted to get your confirmation of that or if you 
would like to add some additional color to it and then your 
recommendation on the best way to address that issue. Again, 
appropriately we talked about management. What are the courses 
of accountability for employees who are making some of these 
decisions at their levels to pass this on or to hide this piece 
of mail or to not act on something that needs to be acted on?
    Ms. Ruell, I will begin with you.
    Ms. Ruell. I find it hard to believe that most of the 
employees, at least in my office, would make those type of 
decisions. There might be a few bad apples. But if someone is 
doing that, it's probably a result of an order being given to 
them or out of fear that they're going to lose their job.
    Mr. O'Rourke. Yes.
    Ms. Ruell. In general, most employees in my office really 
do want to help veterans. They'll even leave our office and say 
I thought I came here to help veterans, but I can't take this 
anymore. So there might be a few bad apples, but I truly 
believe the employees are acting out of fear or orders from 
someone higher up.
    Mr. O'Rourke. Yes. And just to be clear, I am not 
suggesting that every employee or most employees. My question 
is, how pervasive is this and is this simply a management issue 
or do we have a lack of accountability throughout the system 
and an inability when you do have an employee who hides four 
bins of mail to hold that employee accountable?
    So, Ms. Brown, I would direct the same question to you in 
terms of what recourse to accountability we have throughout the 
system at every level of employment.
    Ms. Brown. I've got to agree with Kristen. Most of the 
employees in Oakland wanted to do a good job. They--they really 
did. Now, there were a few that--that couldn't make their 
numbers and for whatever reason, management would--would take 
care of them. They were never in trouble. They were always good 
to go. And yet the next person over, if they didn't make their 
numbers, they were gone.
    So there were a few bad apples, so to speak, but the 
majority, it came from--it came from up above. It came from the 
managers telling us what to do. We were just the minions. We 
were just the bottom of the totem pole. They told us what to do 
and then we tried to do the best we could by doing the right 
thing, but a lot of times we couldn't do that.
    Mr. O'Rourke. And it sounds like from your testimony and 
the answers to Ms. Rice's questions about how long we have had 
these kind of problems at these VBA regional offices--you know, 
Ms. Blender, you mentioned 2008. We know about this one case 
that has been held since 1996 in Oakland.
    Mr. Malizia, you mentioned that it has been going on. You 
said there is no start date, but then you said, you know, 
perhaps something happened when Secretary Shinseki sought to 
implement this 125-day goal and that that was such an 
unrealistic expectation. And there were not the systems or 
staff or capacity to adequately process this and so you were 
basically setting something up to fail or to hide the truth. 
And, you know, the people within that system acted accordingly.
    If that is the case, what is the best way forward? How do 
we fix this? Certainly it is leadership. Certainly it is 
accountability. Certainly you have raised some issues with 
management, but structurally, statutorily, systematically, how 
does this get fixed?
    Mr. Malizia. Well, that's a great question and I think that 
really gets to the core of a lot of--a lot of the problems. And 
that is I think that the production standards, the performance 
standards really came on production where talking about the 
point system, you get so many points for this and the time 
allotted to work a claim needs to be reevaluated and readjusted 
because that's the--the--kind of the preset and maybe not 
necessarily realistic, especially since a lot of the claims now 
are very complicated and very involved.
    There's many different issues, conditions that have to be 
addressed, and that takes time, certainly time to do it right 
so there's not a lot of rework and appeals and--and those kinds 
of things. So I think that if the production part of the 
standard can be waived, reevaluated, I think that would go a 
long way to help them resolve some of these issues.
    Mr. O'Rourke. Thank you.
    Mr. Chair, I yield back.
    The Chairman. Thank you very much.
    Dr. Wenstrup, you are recognized.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    And I want to thank you all for being here.
    I think one of the things that just astounds me through all 
this process is there could be that many people that are okay 
with bad behavior. It just floors me that there is such a lack 
of caring for the person, the human being that is on the other 
end of the issue, at the other end of the paperwork or whatever 
the case may be.
    You know, I serve in private practice. Every once in a 
great while, you might have an employee that didn't put the 
patient first, but it was pretty rare. But to see this and to 
see that it is so robust is incredible.
    So one question I have, and it was alluded to in some of 
the other questions, you know, how widespread is this? You 
know, you are within your RO, if you will. Do you have contact 
with people from other regions that say the same things? I 
mean, is it truly across the country? You know, I know you 
represent different areas today, but I would really like to 
hear what your thoughts are on that and if you have contact 
with other people in a similar situation. And you can just go 
down the line.
    Ms. Ruell. After I testified in July, I--many people 
emailed me from other offices. I've made a lot of contacts in 
other places and I hear the same horrible stories all over the 
country. And I think it's just based on people not being honest 
about the workload. They want to make numbers to get bonuses. 
If they were honest about the amount of claims and how long 
they take at all levels, people could get the work done the 
right way. We could hire more staff.
    Mr. Malizia. And I would add that I think that there are--
there are good quality managers and directors in the VBA system 
nationwide and some offices are--are probably much better at--
at doing those things than not. So it's not a hundred percent 
that is in this situation.
    But it just seems odd that it pops up in certain places and 
why is that? There has to be some similarities to what's going 
on in some of these places and I think that we're talking all 
about those kinds of reasons why it's popping up in a place 
like Philadelphia or in Oakland or something like that.
    So that definitely, I think, needs to be looked into and 
explored a little bit more. Excuse me. So--but I do think that 
there--there are some personal issues like, you know, people 
have their own personal way of handling a situation and how 
they interact with their employees and how they interact with 
their labor partners and do things like that and how honest 
they are about actually moving the work and their concern for 
the veterans.
    Like we said, it's--each piece of paper or claim is a 
person or a family that's there. And our employees, I think, 
are extremely dedicated and--and cognizant of that mission and 
they take it very personal that this piece of paper or this 
claim is, in fact, a family and represents a veteran who served 
our country and deserves our--our attention however long it 
takes to get that done and get it done right. And we're not 
afforded that opportunity to do that.
    Dr. Wenstrup. Thank you.
    Ms. Blender. I think I'll just give you a little thing. A 
woman was walking into my office to Social Security because we 
had it in our building. And I slipped and she went to pick me 
up. She was a little old lady about 80 pounds. And I said why 
don't you just take my pocketbook and I'll get up? And I--and 
she says do you work in here? And I said, yes, I do. She said I 
worked here for 30 years. I couldn't wait to get out of here. 
The place is a cesspool and she was talking about 30 years ago.
    Dr. Wenstrup. Thank you.
    Ms. Brown. I've had--since I left the VBA and I've become 
fairly vocal, I've had employees from across the country 
contact me through Facebook and through phone numbers talking 
about the same things that we're talking about. It's 
widespread.
    And the biggest thing that they talk about is the hiding of 
the claims. You have some that are segregated to one group, 
another group that's segregated into a 400 series, and then you 
have 930 series. Put them all together, count them out, see 
what you've got, put the people on it that you need.
    Dr. Wenstrup. It almost sounds like there was a more 
universal method about going about things inappropriately which 
is really a shame. It almost sounds also that there is very few 
people in leadership above you that you felt you could go to to 
trust which is very difficult to imagine as well, but obviously 
the case.
    I hope that through all this we can make some changes and 
make things that are positive, to put the veteran first and 
maybe people will be more evaluated on the satisfaction that is 
achieved for the veteran and their families that are involved.
    And with that, I yield back.
    The Chairman. Ms. Brown.
    Ms. Brown of Florida. Thank you, Mr. Chairman.
    First of all, let me thank each of you for your services. 
When you hear a lot of talk about whistleblowing, sometimes 
people want to think that is negative. I think it is very 
positive. I think it is very important that we get your 
feedback and we know what is going on.
    I want to start with Mr. Malizia, we started out with 
611,000 claims in 2013 now we are down to 188,000. Part of the 
pressure is coming from us. We want you all to expedite those 
claims. Mr. Bilirakis has a Regional Office in St. Petersburg 
with the same kind of problems. When you receive a 
congressional, yes, you are going to process that veteran's 
claim immediately. I guess they put those above some of the 
others.
    My question is, what are your recommendations. The system 
that we have in place is not working. You have been there for 
34 years. What are some of your recommendations because we do 
want these claims processed?
    Mr. Malizia. Absolutely. And like I said earlier, I think 
that the production standards or the performance standards, 
specifically the production element in the performance standard 
needs to be changed.
    I don't disagree that the--the backlog of claims has been 
reduced. There's certainly been a lot of emphasis placed on 
that. And one of the reasons that we were able to accomplish 
that is through the hard work of the employees and also the 
mandatory--enforcement of mandatory overtime for the past five 
years.
    I mean, I think that needs to be looked at as far as 
staffing requirements are concerned. I think VA is--VBA is 
definitely understaffed.
    Ms. Brown of Florida. Yes.
    Mr. Malizia. If you look at the production requirements of 
the performance standards, I think major improvement can be 
done there.
    Ms. Brown of Florida. One of the things, in a hearing, 
someone mentioned some of the claims that were simple and they 
could put them on some kind of system and we could process 
those quickly. And then they have claims that are more 
complicated.
    Mr. Malizia. Yes, that's correct.
    Ms. Brown of Florida. I am trying to figure this out, you 
are saying that the system in place, how do we improve the 
system?
    Mr. Malizia. Well, it's the--it's the time associated with 
working specific claims and the point value that's assigned to 
those specific claims. Management is responsible for delegating 
or designing the--the allocation of claims to specific teams.
    Ms. Brown of Florida. Yes.
    Mr. Malizia. They're responsible for the mail processing 
and the emphasis placed on that and when I mentioned it earlier 
in my opening statement about a shell game, management will 
move mail around and say to employees, we only want you to 
focus on certain end products this week so don't work on this--
just work on all of these.
    So meanwhile, certain claims get attention and everything 
else backs up and then it's crisis management. Now you've got 
all these problems over there. Stop doing all of this and work 
on these other claims to reduce that. They keep moving the work 
around and and--in so doing, things fall through the cracks or 
they forget where the work is or is that a deliberate attempt 
to have the work fall off the radar? You guys be the judge of 
that. OIG was the judge of that.
    I mean, I think there are some practices that just don't 
make sense. Like Congressman Costello said, the answers coming 
back from the VA to address the IG report are basically we're 
going to do our job which is what they should have been doing 
all along.
    Ms. Brown of Florida. As you said earlier, part of the 
problem is that, the amount of work, workloads in different 
offices don't have enough people or maybe a system in place to 
process it.
    Mr. Malizia. It's a variety of reasons. There's--I don't 
think there's one magic answer that's going to resolve all of 
the problems. I think there needs to be a lot of attention paid 
and a lot of changes made across the board in various areas.
    Ms. Brown of Florida. I know that the Congresswoman from 
Oakland, Ms. Barbara Lee, for years has been trying to get 
additional funding for that office because it was understaffed. 
Have you seen any additional people hired in the office to help 
with the processing, Ms. Brown.
    Ms. Brown. As I saw people come in I saw people leave. 
Because there was, there was such a turnover in, personnel. I 
mean, it was a, it was a constant. So there wasn't, we were 
not, we were not getting above staffed, we were just evening 
out.
    Ms. Brown of Florida. Do you think it has something to do 
with the pay level? What did you come in as a seven, then you 
were supposed to have gone to an 11, and you went to a ten?
    Ms. Ruell. You were supposed to go to a nine, and then an 
11.
    Ms. Brown of Florida. Is that based on performance? Or what 
is that based on?
    Ms. Ruell. Yes. You have to meet your quality and your 
performance to move up to the next grade. But time and grade is 
a big problem too, I think. To be a certain position at the, at 
least at the VA, you need to have time in grade. So as you are 
hearing all these stories of what we go through as employees 
there, you have to weather the storm for a lot of years to make 
it to a 13 or a 14. Most people that have any other 
opportunities once they are there a year or two they look for 
another job, because they don't want to deal with this for the 
rest of their life till they retire. So the problem is we are 
always having new employees. We have a new training class every 
couple months of 40 and 50 new employees, and maybe half of 
them will survive what we call this boot camp experience. So 
it's kind of like if we treated employees the right way, and we 
ran this like a real business, they would stay. And the job 
takes two to three years to learn. So you cannot drive people 
away from this place after the first year because then you're 
always going to have the GS-7, brand new employees working all 
of these claims.
    Ms. Brown of Florida. Do you think it is best that we try 
to outsource some of this work?
    Ms. Ruell. I don't think it has to be outsourced. I think 
it would be best just to have people in charge that know how to 
treat humans with dignity and respect and appreciate the work 
that they do, and employees love to help veterans. And if they 
are not under pressure they'll do a great job and they'll want 
to stay there. I can do claims faster than the person who I 
just trained last month. But I mean----
    Ms. Brown of Florida. You have been there for how long?
    Ms. Ruell. Right. I've been there seven years, almost 
eight. So a lot of people that I came in with aren't there 
anymore. If we could keep these people we could, I can do a 
claim twice as fast as someone who just started a year ago. So, 
and I don't mind doing claims. I enjoy it. But the problem is 
when you move up you don't touch the claims anymore. You get a 
different job. So the people always working on the claims are 
brand new. And there's no incentive for them to stay at that 
job because in the government you just want to move to the next 
level, move to the next level. So I think that's a huge 
problem.
    Ms. Brown of Florida. Thank you. I yield back.
    The Chairman. Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman. I just want to thank 
you, the panel, for coming. I think we have learned, I will 
speak for myself on this committee. I think we have heard so 
many reprehensible stories which is why America from New York 
to California stood up last year and said enough is enough. 
Hearing real stories from front line people, they are willing 
to put their job on the line. And as we have sat here over the 
last several months and whistleblowers come in and then 
whistleblowers come back and the retaliation, the things that 
happened to people that put their job on the line I think is 
reprehensible.
    I think what you are saying today, I find it heartbreaking. 
I think it is heartbreaking number one for the sake of our 
veterans, for the sake of many of you that went to work and to 
do good for those who have done the best sacrifice in our 
nation, our brave men and women. And then secondly because they 
come back and not only is the government not providing the 
things we promised to our finest, but when they do come back 
they are in a bureaucratic, a large bureaucracy that has run 
amok. And we have been sitting here now for months, and I know 
some folks for years, trying to figure out how to get to the 
bottom of this. But you know, I have never heard, I will say 
today this is the first time I have ever heard of charging 
money for mandatory parties of palm reading. I mean, I think 
that when the American people hear this tonight there is going 
to be another move from New York to California that stands up 
and says this has to stop. People have to be fired.
    You know, most of us come from places, I come from the 
State of Indiana, in Northern Indiana, and we have issues with 
our CBOCs and our VAs as well and have had Inspector Generals, 
and all kinds of things happening. But I guess I just want to 
see this, I feel like, and Ms. Blender, you made the comment 
about one of your supervisors saw it on TV, saw this whole 
thing, and you said, you know, well how does that make you 
feel? I feel like since we have been doing this and digging 
into the weeds on this issue that these bad actors are doubling 
down. Almost of I dare you to find me, I dare you to be able to 
cut through the bureaucracy and fire me. Do you find that in 
this, in this realm that you are all working in?
    Ms. Blender. Always. Always.
    Ms. Walorski. That there is a double down after Congress 
has really made this visible?
    Ms. Blender. And, and for myself, I don't see these people 
walking the halls anymore. I don't see management. Occasionally 
I've seen Diana. She comes around to talk to us and things. But 
management from before? Forget it. They're hiding. And the 
other things is nepotism. At our office the one person that was 
crucifying me I found out a couple of days before my hearing 
that that was the big shot's son-in-law, our director's son-in-
law. And I saw the director after he retired, and I said why 
was your son-in-law here just to torment, just to torment me? I 
said that to him. Why he wasn't here when I was there. I said 
oh yes, he was. You should be ashamed of him.
    Ms. Walorski. Let me ask you this. Because I really feel 
like in these areas that are geographic hot spots, I really 
feel like the double down effort has, has really started to 
happen in this country. I really feel like it is almost us 
against them in some of these hot areas. When, when these 
people see themselves on TV or in the newspaper and, and the 
staff knows it, right? And you are reading about it in your 
local paper. And then they come back in, does it just affect 
the morale in the little department? Or is the morale regional 
office wide affected by the fact that these people believe that 
they are above the law?
    Ms. Blender. It's throughout the building----
    Ms. Walorski. Mister, yes, I appreciate it. Mr. Malizia?
    Mr. Malizia. It's regional office-wide. That's what I'm 
saying, the employees feel really demoralized by this 
especially if the management staff, the leadership is going to 
get up and, and not be honest and truthful about what really is 
happening and what they are really going to do about it or 
those kinds of things. So when you're being fed that kind of 
misinformation and misdirection about what the issue is, or 
trying to make the, make it seem like employees are the problem 
when employees are not the problem, that's very demoralizing to 
them. So the cloud that I spoke about for the last at least 
nine months in the Philadelphia office has been growing. And 
it's, and like Kristin said, employees are looking for some 
accountability, somebody to be held responsible. Because when 
employees do something wrong, they're held responsible for it 
almost immediately. And they, but they don't see that 
accountability at the higher level, at the management level and 
above. So----
    Ms. Walorski. I appreciate it. And I appreciate your 
honesty and appreciate the sacrifice you are under. Ms. Ruell, 
do you want to add anything?
    Ms. Ruell. I mean, employees I represent they will be on a 
performance improvement plan because they might have missed 
their points, the precious points by maybe a half of a point, 
okay? And they're all, they might have worked here five years 
and now they're no good and they can't do this job anymore. But 
we have managers who can't read a fast letter and interpret 
what that means. And nothing is happening to them. Why aren't 
they are PIPs? Why isn't there, I think they should have a 
standard. If there's this many EEO complaints filed against 
you, and there's a settlement, or the person prevails, I think 
you should be, how do you get outstanding at the end of the 
year for these kind of things?
    Ms. Walorski. I appreciate it. Thanks, Mr. Chairman. I 
yield back.
    The Chairman. Mr. McNerney, you are recognized for five 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman. And I appreciate 
your indulgence for me going in and out to other committee 
hearings.
    I want to thank the panel for coming forward. This is 
pretty hard to do. I appreciate that. Ms. Brown, in your 
testimony you highlighted some of the difficulties that you had 
in bringing negative information forward. Did you speak 
directly to the director or the assistant director or to 
General Hickey when she came to Oakland for the employee town 
hall?
    Ms. Brown. Well first of all, I wasn't allowed to get 
anywhere near Allison Hickey. They had me pretty much out of 
the way. And only certain people were allowed to go down. As 
far as the director and the----
    Mr. McNerney. So it was not really a true town hall, then?
    Ms. Brown. No. No. No. It wasn't a true town hall.
    Mr. McNerney. And that is echoed in Philadelphia as well?
    Ms. Blender. Yes.
    Ms. Ruell. General Hickey has been to our office. I've 
never met her. And you would think if you were coming forward 
and complaining and there's a luncheon, and my friends are 
like, oh, I had lunch with General Hickey today. I knew I would 
never be invited. But the point is if they truly wanted to 
correct problems and cared about veterans, they'd ask the 
people that know about the problems to help out. There's 
meetings about fixing duplicate records. There was one a week 
and a half ago. And Ryan Cease and I have been very vocal in 
this problem. We know how to fix them. We've been asking to 
help. We weren't even invited to the meeting.
    Mr. McNerney. Okay, thank you. The Oakland RO had a program 
of systemic training a couple of years ago. They shut down all 
operations except for training, do you recall that?
    Ms. Brown. No, sir.
    Mr. McNerney. Yes, 33 has there been a big effort to train 
seasoned employees or anything like that at the Oakland RO?
    Ms. Brown. Well speaking for myself, I, I didn't even get 
the required training that I was supposed to get. So, you know, 
they occasionally will throw in a class here or there to fill a 
requirement, but nothing more than that.
    Mr. McNerney. So when, what was your dates of service 
approximately?
    Ms. Brown. At the Oakland VBA? I was hired September 15, 
2009. I retired early on September 15, 2014, exactly five 
years.
    Mr. McNerney. Okay. Mr. Malizia, you described a shell game 
a minute ago of moving a case work around. Was that an attempt 
to hide problems, or was it an attempt to get bonuses, or was 
it just a flat lack of resources to actually do the work that 
was needed?
    Mr. Malizia. I, I wouldn't characterize it as a lack of 
resources because the workforce was there, ready, willing, and 
able to do the work. It was a management prerogative of how 
they assigned the work or priority that they put on the work. 
And what, I can't really speak to their motivation as to why 
they did it, but the end result looked like, you know, they did 
it for self-serving reasons and if one of the those reasons was 
for them to get bonuses, well, all the better.
    Mr. McNerney. Well okay, Ms. Ruell, you sort of described a 
situation where the training was maybe okay but the folks 
weren't motivated to stay long enough to really get out 
competent or really get capable of doing the casework. Is there 
a different management plan that would ease that and make it so 
that people would stay longer and get the, get the, you know, 
get the experience they need to be very effective at their 
jobs?
    Ms. Ruell. I think that if someone comes out of the 
training class after they've, the training is only, it used to 
be maybe nine months, now it's down to only three months. So 
they are lessening training, which I think is a bad idea. They 
are putting the people on live claims immediately, which causes 
a lot of rework. So if, if I was in charge I would have, if you 
are a GS-7 and you come out of training, you'd go serve a shift 
in triage and learn how that all works. You would do the easier 
things because that's what you're capable of doing at that 
learning stage. When I do quality, if I'm on a quality team for 
an employee, I do the same questions on a GS-11 as I do on a 
GS-7. So that new person is expected to know how to do just as 
much and all the types of claims as someone who's worked here 
forever. I would, instead of having teams of people with random 
GS levels, I'd have a team of GS-7s, I'd have a team of GS-9s, 
I'd have a team of GS-11s, and depending on how long you've 
been there would depend on the type of difficulty of the cases 
you should do.
    Mr. McNerney. So there, I mean, there are approaches then 
that would put, put the same, people there long enough to learn 
how to do the job and to keep them motivated and keep them in 
the system, in your opinion?
    Ms. Ruell. Yes. If they were treated correctly, if they 
were treated appropriately.
    Mr. McNerney. Mr. Malizia, do you agree with that?
    Mr. Malizia. Yes, I do. I think the quality of, of the 
training and the consistency of the training is important. And 
that hasn't, in Philadelphia that hasn't always been, in the 
pension center that has not been the case.
    Mr. McNerney. Okay.
    Mr. Malizia. So I think it's better on the service center 
side because most of the service center employees now are going 
to some kind of a national training or are under a national 
training plan, and that's what, I'm sorry, Rusty, Rusty was, 
was under. But it has to be, they have to be good quality 
instructors, there has to be consistency in what's going on. 
And then as Kristen points out when you come back to your 
office you have to be working those kinds of things that you 
were just trained on. And if you're not doing that work you're 
going to lose that knowledge base of it. And then when it comes 
time when you get that case, you're not going to have the ready 
resources to be able to process it. It's going to take you 
longer because you're going to have to research it a little bit 
longer. But you're not afforded the time to do that.
    Mr. McNerney. All right. Thank you, Mr. Chairman.
    The Chairman. Thank you. Dr. Abraham.
    Mr. Abraham. Well let me echo the committee in saying thank 
you so much for coming here. It's been both heart-wrenching 
and, you know, I've become filled with anger when I see the 
problems. How tragic is it in today's VA system that the same 
veteran that we entrust our national security to, and even our 
lives to, that same veteran can't trust our VA system to take 
care of them.
    Dr. Wenstrup mentioned that he was in private practice, as 
I have also been for almost 20 years. And if we had an employee 
that was rude, even rude once to a patient, they got a warning, 
and if they were rude twice they got fired. And this is 
something that, you know, we will look into as to we can remedy 
this system.
    It is bad enough that the $300,000-plus on the moving 
thing. That was a mismanagement of funds. But what I'm hearing 
today is a mismanagement of lives from our VA system. And you 
know, it just goes to the very core of what this nation is 
supposed to be about.
    My staff tells me about the hostile environment that is 
problematic at every level. I have requested VA to send us 
copies of the Merit Systems Protection Board and the EEO 
findings. We, like the chairman, we have not received those 
records yet. So we are waiting patiently and becoming more 
impatient.
    The question I have is, Mr. Malizia, I will address this to 
you. And I am very concerned about the veteran that with known 
PTSD that was bullied in one of these sessions to the point of 
maybe taking his life. Can you expound on that a little bit for 
me? I mean, I just have a hard time wrapping my head around 
something so terrible.
    Mr. Malizia. I, unfortunately I do not have any more 
specific details about that. I mean, Kristen had some personal 
working relationship with, with that employee. I really did not 
know him. I only found out about it after it happened when his 
coworkers in the training class came to me because they were 
very upset and distraught about what had happened. I took it 
directly to the director and said there's a problem here.
    Mr. Abraham. Did she do anything?
    Mr. Malizia. Well after, she wouldn't do anything initially 
until the employee made a written statement which I actually, I 
got from the employee. And then she said she would conduct an 
investigation potentially outside, well definitely outside of 
the pension center where it occurred, and perhaps even outside 
of the regional office. But what happened was she had pension 
center supervisors do the investigation against one of their 
own coworkers and essentially against their boss for what was 
happening, the oversight of the training program. And that was, 
you know, I thought was just very atrocious and indicative of 
some of the, the shell game problems and the coverup problems 
that we, we're, we're here with and what IG was looking at.
    Mr. Abraham. Okay, thank you. Mr. Chairman, I yield back.
    The Chairman. Thank you. Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman. A couple questions, 
but before I do that let me just thank all of you again, and 
also Mr. Cease who could not be here. I just want to read 
something real quick in his testimony. His testimony is very 
precise in terms of what he recognizes as are some ongoing 
problems in terms of the processing of claims.
    But he says this towards the end. A lot of our coworkers 
would just say keep your mouth shut, no matter what you do it's 
going to get covered up. Well, we made it this far. I really do 
hope our efforts will bring some changes not only for our VARO 
but the whole nation. For the record, the Philadelphia VA 
Regional Office has a lot of amazing employees who would go 
above and beyond for a veteran in need. And I say that because 
we recognize that there are a lot of good, hardworking 
employees at the Philadelphia VA. And I think it is important 
that that is said to you here today. And please impart to many 
that you work with who are not part of the problem but want to 
be part of the solution.
    With that said, Ms. Ruell, a couple of quick questions for 
you. I will get through as many as I can. With the anonymous 
whistleblowers to you, you said you may get as many as 20 phone 
calls a day. Repeated trends that stick out in phone calls to 
you about the problems that are still persisting there? Could 
you share with me what, what are some common themes that you 
are hearing in, in folks saying things to you?
    Ms. Ruell. They'll call and they'll say I'm not sure what 
to do because my supervisor is doing this to me, and I know if 
I go to the union and I file a grievance the decision makers 
are those supervisors. So that's the main problem. I feel that 
if there's different claims that you can file when something is 
wrong. If it has to be discrimination for an EEO. It has to be 
an adverse action for MSPB or you're stuck going the union 
grievance route. And why I say stuck is because anytime that 
happens the decision maker is the person----
    Mr. Costello. Right.
    Ms. Ruell [continuing]. You would be reporting.
    Mr. Costello. That's on the retaliation side. What about on 
the implementation of these recommendations, and 
representations that 95 percent of them are being addressed or 
have been satisfactorily addressed? Have you received feedback 
that that may not in fact be accurate?
    Ms. Ruell. Definitely. I mean I, I still work there 
everyday and----
    Mr. Costello. Share with me some substance there if you can 
on common things you are hearing specifically.
    Ms. Ruell. The last month I received too many emails to 
count with claim numbers, which I have since reported to the 
Inspector General's Office. We have an assistant manager in the 
pension center who has been making claims ready to rate that 
are not ready to rate. So there's cycle times for a claim and 
when a claim goes to the rating board there, I think changes 
the suspense for this claim. So there's claims that are already 
rated and this manager is going in there, manipulating the 
data, and making them ready to rate again for no reason to do 
something with the numbers. That's been happening for the last 
month and a half. I have over 100 claims I've reported with 
that.
    Mail, someone came to me with a picture and they said, oh, 
the Inspector General said that the mail needs to be stamped or 
processed within six hours. This mail sat overnight, again. And 
I'm really upset and I don't know what to do. I said, well, 
we're not allowed to take pictures. I really don't know how to 
prove this. So I don't really think, someone told me there was 
a request to change a date stamp back just two weeks ago. So 
anything that I've ever reported, I have not seen any of it 
stopped and I'm seeing it all continue. And I just feel like I 
have so much, so many people coming to me and I don't know what 
to do anymore.
    Mr. Costello. I continue to think that we need an outside 
set of eyes to sort of make this course correction there. A 
question for you, are we asking some of those culpable for the 
problems to now make the reforms necessary----
    Ms. Ruell. Yes.
    Mr. Costello [continuing]. In order to course correct?
    Ms. Ruell. Yes.
    Mr. Costello. Are administrative reforms without cultural 
changes sufficient?
    Ms. Ruell. No.
    Mr. Costello. I think the answer is no. It's sort of a 
rhetorical question. Are any recommendations missing from those 
35 in the IG report that you think should be included in order 
to resolve the outstanding problems at the VA? Any big picture 
things that were not contained in the IG report that you feel 
are missing?
    Ms. Ruell. The IG report recommendations in my opinion are 
very broad. It leaves it up to the agency to interpret it the 
way that they would like. I believe there should be words like 
these people should be fired, not administration action. That 
can be a slap on the wrist.
    Mr. Costello. Right.
    Ms. Ruell. So this AIB business to me is bizarre because 
that's the VA investigating itself.
    Mr. Costello. Has the AIB ever interviewed you?
    Ms. Ruell. Never. And the problem is the AIB is 
interviewing employees based on proving if someone 
intentionally manipulated data, but we don't have the evidence 
anymore.
    Mr. Costello. Right.
    Ms. Ruell. When the IG came in we gave them everything we 
had because we thought they were the people doing the 
investigation. Now when AIB is coming in and people are coming 
to me saying I don't know what to do, I have to get interviewed 
and I don't have any more claim numbers. I gave them all to the 
IG. And I, you know, I tried to contact the IG and say what can 
we do about this. But, I mean, there's no solution. The AIB is 
here and they're probably getting half the information they 
need and I'm the one that reported this originally for our 
office and they've never even spoken to me.
    Mr. Costello. Do you have any observations on EEO 
complaints? There seems to be a larger volume at the 
Philadelphia VARO than elsewhere in terms of the number of 
complaints, in terms of how people are treated after complaints 
are issued. I know my time is up. Thank you.
    Ms. Ruell. The EEO complaints in our office are unreal. 
It's the biggest waste of taxpayer money I've ever seen. 
Employees will file an EEO complaint and they are not resolved 
timely. It takes years to do that and it's, and it costs tons 
of money. And some, some of the complaints are so minor that 
there's no reason to waste money on an EEO complaint. Somebody 
wants their seat changed because cold air is blowing on them 
and they can't breathe. And the resistance in that type of 
situation is just ridiculous. Some people just want to work 
from home because they have medical problems that can't permit 
them to work in the office. And that takes a good year to 
accomplish. So, I mean, nothing happens the way that it should. 
The EEO program is supposed to save money. It's supposed to not 
flood the court system and have a mediation process. I don't 
see, I think it's a waste the way that it is in our office.
    Dr. Roe. [presiding.] Thank the gentleman for yielding. Mr. 
LaMalfa, you are recognized for five minutes.
    Mr. LaMalfa. Thank you. First of all, let me preface this 
here that, you know, in the heat of this discussion here 
sometimes it is lost that those of us doing our oversight 
making these inquiries do not like the employees or do not like 
the VA or things like that. And for me, for being on the 
record, I know there might be some people in Oakland who are 
upset with me. But for those employees that are there grinding 
it out at the grunt level, using a military term, we appreciate 
you. The problem is systemic, starting in Washington, D.C., 
dropping down to the director level and sometimes those floor 
managers as well. But we appreciate anybody that is willing to 
do this work, that wants to serve the veteran, and wants to do 
the quality of work, not on a time basis but actually getting 
the veterans' work processed. So again, Ms. Brown, I really, 
really appreciate you being here and you being willing to come 
forward at the, at the cost it has been for you.
    A couple disturbing things I heard about earlier was the no 
action needed file on old claims. And I can refer to a couple 
things that were in the paper here. There was one by a Mrs. 
Stafford, I think you mentioned that. It was a 2004 claim that 
the, she and her husband, who had since been deceased seven 
years ago, from a July, 2014 letter, he was being thanked for 
his service many years after the claim and having been deceased 
for seven years. It has got to be really frustrating for that 
veteran, for the spouse, to have that be in a no action file 
and then to receive a letter backhanded like that much later 
on. And for that to be a no action needed, we do not know what 
the situation would be for Mrs. Stafford who, where she would 
say, said in this article I have here that she was not even 
aware there would be widow benefits. And even if it was a 
modest $400 a month it may help her, and referring to one other 
lady as well. This is the one that she, that you had mentioned 
in an article, that a note came in from a woman on flowery 
stationery. You can just visualize that. She wrote, I know that 
the VA is going to take care of me because my husband served in 
the Battle of the Bulge. Now when you hear that and you see 
that in your mind, in your mind's eye, a little lady writing 
that down on a piece of flowery paper, and we have seen some 
emotional reactions on this in a previous panel. Heck, I could 
get emotional myself. If I was the Speaker maybe I would be, 
but do not tell the Speaker I said that. But that breaks your 
heart. We have real people out there that are suffering from 
lack of attention, lack of even an answer on that. And so Ms. 
Brown, where did that order come from that on these old claims 
like that that they would go into a no action needed file in 
your office?
    Ms. Brown. Those, that direction came directly from our 
supervisor, the training supervisor at the time, Rochetta 
Luster.
    Mr. LaMalfa. Yes.
    Ms. Brown. And she disseminated to us that that was given 
down from management that this is exactly what we were supposed 
to do.
    Mr. LaMalfa. How high does management go?
    Ms. Brown. The director.
    Mr. LaMalfa. The director. Was that, who----
    Ms. Brown. Douglas Bragg at the time.
    Mr. LaMalfa. Mr. Douglas Bragg. And he has since taken an 
early retirement?
    Ms. Brown. He's gone.
    Mr. LaMalfa. Yes, why do you think that happened?
    Ms. Brown. It got a little warm.
    Mr. LaMalfa. Did it get a little warm? Maybe my office and 
a few others making a little too much heat?
    Ms. Brown. Maybe a little bit.
    Mr. LaMalfa. Yes. Well, we are kind of proud of that 
actually. So Ms. Brown, when you hear about that, no action 
needed, and the, or let us say, let us say, what does it look 
like that a claim would be termed processed? Now I think it is 
one standard for people inside the organization that you have 
moved the piece of paper from here to there, and they call that 
processed, and maybe it is turned into a 400 series file, or a 
930 series file, or something like that. Does processed look to 
you to mean like it has been moved one, one step? Or does it 
look more to you like that the veteran has actually gotten an 
answer to their question of what benefit they should have and a 
timely disbursement of that benefit? What does process, what is 
the language inside and what does the language look like to you 
what it should be?
    Ms. Brown. Well once again when they tell you no action 
necessary and items were put aside, nothing was done to protect 
these claims. Nothing was done to put them into the system. 
Nothing was done to send letters to survivors to cover for DIC 
benefits. Nothing was done. So you had a whole group of 
individuals, especially in the first couple of, the first month 
especially, the older ones that were dead were just put aside. 
And they never even talked about them again.
    Mr. LaMalfa. We are probably going to hear a lot of happy 
talk later from VA management saying we processed all these 
claims. And they have been moved along and now we are, our 
backlog is way down now. How do you feel about that?
    Ms. Brown. A lie.
    Mr. LaMalfa. What you will potentially hear? A lie you 
hear?
    Ms. Brown. A lie.
    Mr. LaMalfa. You say? We are going to hear about probably 
that it is all fixed because the lost mail process is going to 
be better because we are doing it electronically now. Now this 
sounds to me like they are trying to blame the Postal Service 
for losing mail. But isn't this actually mail that has actually 
come inside the door and is lost inside the Oakland and 
Philadelphia and other centers?
    Ms. Brown. Some of it is lost inside the building. We used 
to laugh that there was a black hole and we didn't know where 
stuff went. But, but now it's, it's gathered up, it's boxed up, 
and it's sent to the scan center without ever even looking at 
it.
    Mr. LaMalfa. In Wisconsin.
    Ms. Brown. And it might be, it might be two, three months 
before that piece of paper shows up at the scan center.
    Mr. LaMalfa. Because you have to scan it half a country 
away?
    Ms. Brown. Yes.
    Mr. LaMalfa. Yes, awesome. I yield back, Mr. Chairman.
    The Chairman. Thank you very much, Mr. LaMalfa. Mr. Meehan, 
you are recognized for five minutes.
    Mr. Meehan.  Thank you----
    The Chairman. Thank you for being with us.
    Mr. Meehan.  Thank you, Mr. Chairman. And I thank you for 
the privilege of sitting with you here today. Ms. Ruell, has 
the VARO and Philadelphia, have they completely stopped the 
manipulation of data regarding veterans' claims?
    Ms. Ruell. No. I mean, this ready to rate thing that's 
going on, I can't fathom why an assistant manager would be 
making claims ready to rate when they are already rated. So to 
me that's data manipulation.
    Mr. Meehan. Explain that to me.
    Ms. Ruell. When you need to, when you want to enhance 
benefit of aid and attendance you would to have something 
service connected, it must go to the rating board. We get a 
claim, we, if we do not have all the evidence we need for the 
rater to make a decision a development letter is sent out. If 
we have it it goes ready to rate. The VSRs, the people who 
process the claims, make this claim ready to rate. They get a 
production point for doing that. It goes to the rater, the 
rater looks at it, grants it, denies it, or says we need more. 
At that point we get more or we process the case.
    Most times the claims that I was seeing are ones where 
they're for service connected death and many of them, and the 
claim is not ready to rate. We're rating, some of them we're 
waiting on STRs, we are waiting on a request to verify that 
this veteran served in Vietnam. And she's making the claims 
ready to rate for some reason when they're not, which is 
causing, employees are fed up, they're mad. Lists come out, we 
think claims are ready to be processed and the employees get 
them and they say I can't process this, I'm still waiting on 
the STR.
    Mr. Meehan.  Is, there any identification that those that 
are coming up from some employees are rules ready to rate while 
others are not ruled ready to rate? Does it relate across the 
table or do some coming from certain employees get treated 
differently than others?
    Ms. Ruell. No, it's just that I think what she's doing is 
there must be something with the cycle time to actually stop 
the clock on these claims so they don't look like they're 
pending longer than they are. Because when we need information 
to verify service we don't have that in our building. We have 
to reach out through this program. And if that program takes a 
long time it makes our office look like we're taking a long 
time.
    Mr. Meehan.  Is this working to the benefit or the 
detriment of the veteran?
    Ms. Ruell. Detriment, because overall employees think that 
this claim on their desk is ready to process because if an 
assistant pension center manager made it ready to rate you'd 
think she'd know that it's ready to rate. And so we're looking 
at these claims and they're not ready to rate. So what does the 
employee have to do? They have to go change the suspense in the 
computer, move along to another----
    Mr. Meehan.  So does that work to the detriment of that 
employee then who has to----
    Ms. Ruell. Of course----
    Mr. Meehan.  Mr. Malizia, what is your opinion on this?
    Mr. Malizia. Yes, the same thing that Kristen is saying. 
That this supervisor is doing this to these cases, providing a 
list to the employees and saying here's this list, I've 
completed, I've reviewed these cases, I've made them ready to 
rate. They're ready to go. Now here you go, work them. And they 
can't work them. So it creates a whole bunch of rework----
    Mr. Meehan.  So they're being set up to fail, though, in 
addition to the, to the ability for the case to be handled 
accurately it is also setting up a situation in which the 
employee is going to have a difficult time meeting the 
requirement of turning that around.
    Mr. Malizia. Yes, that is correct.
    Ms. Ruell. And then when, when the claim is actually ready 
to rate two weeks later when the records come in, the service 
treatment records, the employee takes credit for actually 
looking at them, seeing that they're here, and sending it to 
the rating board. And there's a supervisor that actually took 
their credit out of the production system and said you didn't 
make this ready to rate, this assistant manager did. You can't 
get the points for this. So now the worker did their job the 
right way at the right time and they, and this, they got no 
credit for doing it.
    Mr. Meehan.  Are there bonuses associated with this kind of 
ability to perform?
    Ms. Ruell. I believe throughout the VA there are bonuses 
based on performance of a regional office but I can't say for 
sure that that actual individual got a raise. I'd be interested 
to see what her rating was for last year because with acts like 
this it makes her look a lot better.
    Mr. Meehan.  Are this, is this an element of quality review 
for an individual employee?
    Ms. Ruell. It would be. But if I do a quality review and an 
employee says I made this ready to rate and it had this 
assistant manager's name on it, I can't use that case. And 
that's not fair to the employee.
    Mr. Malizia. But it would be charged as a performance error 
if somebody did make a case ready to rate and it wasn't ready 
to rate. It would be a performance measure and they would get 
charged an error.
    Mr. Meehan.  Ms. Blender, I only have 45 seconds. You made, 
you testified that work is all over the building. There were 
some 13,000 pieces of mail that were processed but there was a 
lot of others. Could you explain this to me? What you were 
talking about when you said work that was previously in one 
place was sent all over the building so it looked as if it was 
being handled when in fact it's now presumably not accountable? 
Would you take a moment and explain to me what you were talking 
about?
    Ms. Blender. We had back mail----
    Mr. Meehan.  Could you speak into the microphone please?
    Ms. Blender. I'm sorry. We had back mail, mail that never 
got processed. We had 28,000 pieces. Upper management walked in 
one day and screamed, what is this? What is this? Like she 
didn't know. And we've got to get this work done. And so they 
began, I wasn't there, but they decided to take all these 
28,000 pieces of mail and ship it throughout the building and 
have VSRs stop doing what they're doing and catch up on this 
work. And so they offered, they made like team spirit and stuff 
like that, who's getting what done? So your group did ten 
today? You win the thing. Your group did five this week? You 
win the thing. They never got to 28,000, they got to 13,000. 
And I said that at my hearing. I said what happened to the 
other work?
    Mr. Meehan.  That's 15,000 pieces of mail that aren't 
accounted for.
    Ms. Blender. Where is it?
    Mr. Meehan.  What was the answer?
    Ms. Blender. The answer was to give me what I want and get 
rid of me. That was the answer. I was told that maybe I wasn't 
a good fit. And when after he spoke to me I told him I'm a 
better fit than you.
    Mr. Meehan.  Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Meehan. Members, I would like 
to do a second round but we really need to move to the next 
panel and I apologize for that. Thank you to the witnesses. You 
may get, and I hope you are open to answering some post-hearing 
questions, you may get them from members. We will try to do it 
between the majority and the minority so that we can get them 
to you in a fashion that is a little more concise. But thank 
you very much for your testimony. If you would, I will excuse 
you and ask the second panel to please come forward.
    Okay. Members, we are going to go ahead and continue on as 
they come to the panel. We have Ms. Linda Halliday, Assistant 
Inspector General for Audits and Evaluations with the Office of 
the Inspector General. Ms. Halliday is accompanied by Nora 
Stokes, the Director of the Bay Pines Benefits Inspections 
Division with the Office of the Inspector General; Mr. Brent 
Arronte, the Director of the San Diego Benefits Inspections 
Division with the Office of the Inspector General.
    Also testifying today is Mr. Danny Pummill, the Principal 
Deputy Under Secretary for Benefits at the Veterans Benefits 
Administration. Mr. Pummill is accompanied by Ms. Diana Rubens, 
the Director of the Philadelphia Regional Office; Ms. Lucy 
Filipov, the Assistant Director of the Philadelphia Regional 
Office; Ms. Julianna Boor, the Director of the Oakland Regional 
Office; Ms. Michele Kwok, the Assistant Director of the Oakland 
Regional Office.
    I would ask now that you are all seated that you please all 
rise, raise your right hand.
    [Witnesses sworn.]
    The Chairman. Thank you very much. Be seated. All of your 
complete written statements will be made a part of the record. 
Ms. Halliday, you are recognized for your statement.

 TESTIMONY OF MS. LINDA HALLIDAY, ASSISTANT INSPECTOR GENERAL 
 FOR AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY MS. NORA STOKES, 
 DIRECTOR, BAY PINES BENEFITS INSPECTIONS DIVISION, OFFICE OF 
INSPECTOR GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND MR. 
    BRENT ARRONTE, DIRECTOR, SAN DIEGO BENEFITS INSPECTIONS 
DIVISION, OFFICE OF AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR 
  GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND MR. DANNY 
 G.I. PUMMILL, PRINCIPAL DEPUTY UNDER SECRETARY FOR BENEFITS, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

                TESTIMONY OF MS. LINDA HALLIDAY

    Ms. Halliday. Chairman Miller and members of the committee, 
thank you for the opportunity to discuss the results of the 
OIG's recently published reports where we substantiated 
allegations of data manipulation and mismanagement at the VA 
regional offices in Philadelphia, Pennsylvania and Oakland, 
California. I am accompanied by Ms. Nora Stokes, the Director 
at our Bay Pines Division, who led the review of allegations in 
Philadelphia; and Mr. Brent Arronte, our Director in our San 
Diego Benefits Inspections Division, who led the review in 
Oakland.
    Since June, 2014 we have initiated 13 reviews addressing 
allegations of mismanagement and data manipulation at 11 of 
VBA's 56 VAROs. For seven of these reviews, VBA and VA 
leadership requested OIG assistance. We commend VBA for 
bringing forward allegations as early detection facilitates 
more timely corrective action and strengthens their ability to 
ultimately hold staff accountable.
    We substantiated six of the seven allegations received from 
VBA leadership, which included significant volumes of 
unprocessed paper mail and confirmed some VBA staff and 
supervisors manipulated data by processing inappropriate 
actions. While these allegations have been addressed we are 
concerned that the actions appear to be a systemic trend 
motivated to inappropriately enhance reported performance 
metrics.
    Throughout our review at the Philadelphia Regional Office 
we received an unprecedented number of allegations from 
different sources pointing to lapses of management within 
claims processing activities. Allegations and concerns we 
identified involved functional responsibilities of VARO 
management, the management of the veterans service center, the 
pension management center, two call centers, and an insurance 
center.
    Many of these allegations conveyed issues of serious 
mistrust and fear of reprisal. Allegations of wrongdoing 
included issues such as cooking the books, referring to data 
manipulation, and taking actions that inappropriately reduced 
workload backlog, mail mismanagement, and the potential 
processing of duplicate payments. Mismanagement of VA's 
resources resulted in compromised data integrity affecting the 
timely and accurate delivery of benefits and services, included 
adjusting dates of claims by misapplying guidance in VBA's Fast 
Letter 13-10, altering individual quality review results, and 
failing to enter timely notices of agreements in VBA's tracking 
system for appealed claims. Further the VARO's lack of 
financial stewardship to prioritize the corrective actions 
needed to address duplicate records existing in VBA's corporate 
database ultimately results in improper benefit payments 
totaling about $2.2 million to 56 different beneficiaries.
    The conditions and culture we observed along with the high 
levels of mistrust of VARO management reduced our confidence in 
the leadership's ability to effectively manage and oversee 
issues that are basic functions of a regional office. Until the 
trust and fear of reprisal concerns are addressed, 
whistleblowers will be reluctant to bring issues forward to 
management.
    Throughout our review we provided the VARO leadership with 
the preliminary findings and issued two management advisory 
letters to the Under Secretary for Benefits regarding the 
mismanagement of work processes and our concerns regarding the 
physical space housing the two call centers and some PMC 
operations.
    In April, 2015 our report offered 35 recommendations for 
corrective action. The USB has taken some corrective action and 
she has provided implementation dates for further planned 
corrective action that extend through December, 2015. However, 
as recently as April 7, 2015 we continued to receive new 
allegations that included a new list of more duplicate records 
that had not been corrected since 2012.
    The USB deferred concurrence on three recommendations in 
our report pending the outcome of a VBA administrative 
investigative board.
    Our review did not identify specific individuals 
responsible for the mismanagement of the VARO because this 
responsibility is a department program function outside of the 
scope of the role of the Office of Audits and Evaluations, 
which my role and my office's role is to identify conditions 
and causes adversely affecting organizational performance.
    In July, 2014 we received a requests from the USB as well 
as Congressman Doug LaMalfa to review allegations that the 
Oakland VARO had not processed nearly 14,000 informal requests 
for benefits dating back to the mid-1990s. Allegedly these 
informal claims were also being improperly stored. We reported 
that Oakland VARO staff had not processed a significant number 
of the informal requests for benefits dating back many years 
and improperly stored 537 informal claims. However, because the 
VARO 's management had such poor recordkeeping, we could not 
confirm the staff processed all of the informal claims alleged 
as identified in October, 2012 by VBA's own help team. We could 
not confirm the initial list and that it contained 13,184 
informal claims. However, we know VBA reported shortly after 
the documents were discovered that they reviewed these claims 
after finding them and reported that 1,155 required additional 
actions.
    In March, 2015 we received additional information that was 
not disclosed during our initial review. We identified, we 
received information that allowed for the identification of a 
partial list of documentation with 1,308 unique documents that 
were part of the original list of informal claims in the 
original allegations. Preliminary results from our statistical 
sample indicate the new information contains both formal and 
informal claims and claims that still require action. In some 
of these cases veterans' benefits were affected.
    Before I conclude I would like to inform the committee that 
we are reviewing the appropriateness of the relocation package 
offered to Ms. Rubens for her relocation from Washington, DC to 
Philadelphia PA. And we also have an ongoing OIG administrative 
investigation related to the misuse of positions by two senior 
leaders at the Philadelphia VARO. Because work is ongoing, I 
will not be able to comment on that work today.
    In conclusion, trust is fundamental to leadership, 
especially during times of change and VBA must work to 
establish a healthy environment where staff do not fear 
bringing issues to their management, and that staff and 
management work together to solve the problems and deliver the 
benefits to veterans. Given the serious nature of the issues 
identified, OIG will follow up at the appropriate times and 
assess the effectiveness and completeness of the corrective 
actions. Mr. Chairman, this concludes my statement and we would 
be happy to answer questions.

    [The prepared statement of Linda Halliday appears in the 
Appendix]

    The Chairman. Thank you, Ms. Halliday. Mr. Pummill, you are 
recognized.

 TESTIMONY OF DANNY PUMMILL, PRINCIPAL DEPUTY UNDER SECRETARY 
 FOR BENEFITS, VBA, ACCOMPANIED BY MS. DIANA RUBENS, DIRECTOR, 
PHILADELPHIA REGIONAL OFFICE, VETERANS BENEFITS ADMINISTRATION, 
    U.S. DEPARTMENT OF VETERANS AFFAIRS; MS. LUCY FILIPOV, 
  ASSISTANT DIRECTOR, PHILADELPHIA REGIONAL OFFICE, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
   MS. JULIANNA M. BOOR, DIRECTOR, OAKLAND REGIONAL OFFICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
  AFFAIRS; AND MS. MICHELE KWOK, ASSISTANT DIRECTOR, OAKLAND 
    REGIONAL OFFICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF MR. DANNY PUMMILL

    Mr. Pummill. Chairman Miller, Ranking Member Brown, and 
members of the committee. Thank you for the opportunity to 
discuss the Philadelphia and Oakland ROs. I am accompanied 
today by Ms. Diane Rubens, Director of the Philadelphia RO; Ms. 
Lucy Filipov, the Assistant Director of the Philadelphia RO; 
Ms. Julianna Boor, Director of the Oakland RO; and Ms. Michele 
Kwok, the Assistant Director of the Oakland RO The RO Directors 
and their assistants are here to answer any specific questions 
that you have today on the Philadelphia and the Oakland 
regional offices.
    First I'd like to provide you an update on our 
transformation. VBA has reduced the disability claims backlog 
by 71 percent, from the peak of 611,000 in March, 2013 to 
177,000 today. The average age of the pending claims in the 
inventory is now 131 days. That's down 151 days from its peak 
of 282 days in February of 2013. These improvements have not 
come at the expense of quality. We have increased claim based 
accuracy from 83 percent in June, 2011 to 91 percent today, and 
accuracy at the medical issue level is 96 percent.
    With support from the VSOs at the local and national level, 
county and State Departments of Veterans Affairs, and other 
stakeholders, we are still on track to eliminate the claims 
backlog by the end of 2015. This progress would not have been 
possible without our dedicated workforce and leadership 
throughout the organization. Our workforce includes over 21,000 
employees, 53 percent of whom are Veterans themselves. Our 
employees demonstrate every day that they are motivated to make 
a difference.
    VBA's leaders are responsible for developing, sustaining, 
and nurturing employees, highlighting their accomplishments, 
addressing their concerns, and giving them the training and 
tools to deliver quality benefits and services. Our Directors 
use innovative methods to facilitate direct communication, 
identify and address issues of concern, and help employees 
understand the importance of their work.
    Our leaders encourage employees to raise issues, while 
ensuring that they are no retaliation for frank discussions. 
We're committed to consistently improving processes and 
programs and to ensuring fair treatment for our valued 
employees who identify areas of improvement.
    We hold employees at all levels of the organization 
accountable for performance and we continually strive to 
fulfill our commitment to providing timely and accurate benefit 
decisions.
    The VA's Office of Inspector General began an investigation 
at the Philadelphia RO on June 19, 2014 based on allegations of 
mismanagement. The investigation began three weeks prior to the 
arrival of the new Director, Ms. Rubens. With new leadership in 
place, the RO immediately began implementing solutions and 
remedying the issues outlined by the IG.
    Upon receipt of the IG's draft report in March, 2015, we 
had already remedied many of the findings. VBA continues to 
resolve the remainder of the findings based on recommendations 
in the report. We are also conducting an Administrative 
Investigation Board to determine if further actions are 
appropriate.
    Last month, all of VA, to include Ms. Rubens and her 
leadership team, asked every employee to recommit to the 
Department ICARE values--Integrity, Commitment, Advocacy, 
Respect, and Excellence. Ms. Rubens continues to build and 
strengthen relationships with the RO employees and local 
stakeholders by expanding and improving communication and 
focusing on creating a culture that puts Veterans and their 
eligible beneficiaries first.
    The backlog of Veterans' claims in eastern Pennsylvania has 
been reduced by 60 percent since its peak in 2011. The average 
age of pending claims has been reduced by 104 days. Quality 
remains high at 91 percent at the claim level and 98 percent at 
the issue level.
    The dedicated employees at the Oakland RO share a similar 
commitment to providing the best possible service. The backlog 
of northern California Veterans' claims has been reduced by 75 
percent from its peak. The average age of pending claims has 
been reduced by 307 days. Quality remains high at 96 percent at 
the claim level, 98 percent at the issue level.
    In February, 2015 the IG issued findings from its July, 
2014 investigation of alleged mismanagement of paper documents 
at the Oakland RO VBA fully concurred with and implemented the 
IG's recommendations. The Oakland RO also implemented our 
centralized mail initiative in January, 2015, significantly 
reducing potential for delayed handling of paper documents.
    The Oakland RO's leadership team takes seriously its 
responsibility to develop and nurture employees, as well as to 
ensure they have the training and tools necessary to do the 
job. Since Ms. Boor's arrival in Oakland, she has built 
effective relationships with Congressional stakeholders, VSOs, 
and the Veteran communities.
    The progress made at both ROs could not have been 
accomplished without the dedicated leadership of the officials 
present today. They have made significant progress toward 
reaching VA's goals and shown great leadership, dedication, and 
commitment to employee engagement.
    Mr. Chairman, this concludes my statement. My colleagues 
and I are prepared to answer your questions.

    [The prepared statement of Danny Pummill appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Pummill. Thank you, 
Ms. Halliday for your testimony. Mr. Pummill, as you know this 
committee is very interested in VA's decision to pay out more 
than $300,000 to move Ms. Rubens from the D.C. metro area to 
Philadelphia. As I read in a letter that I received from Ms. 
Hickey that this was actually your recommendation, I was 
reading an Office of Personnel Management guidance. It says 
that it can be used if the agency determines that the position 
is likely to be difficult to fill in the absence of using this 
incentive. It seems to me that Philadelphia would not be one of 
those areas that would be difficult to fill. So could you very 
quickly tell me why this program was needed to be used?
    Mr. Pummill. Philadelphia is one of our largest and most 
difficult regional offices. It is tough to fill. The previous 
RO Director that we had in there, it took us almost six months 
to find somebody that was willing to go in there and do the 
job. When we realized that we were having problems at 
Philadelphia, one of the first names that came up was Ms. 
Rubens, and we knew it was going to be tough to get her to go 
into Philadelphia and try to fix the situation for us.
    The Chairman. And could you tell me what types of 
advertising or attempts did you make before the decision to 
move Ms. Rubens to that position?
    Mr. Pummill. We did not advertise for that position. We 
just went through the RO Director----
    The Chairman. Were any other employees encouraged to apply?
    Mr. Pummill. No, they were not.
    The Chairman. Okay. At what point was it clear to you that 
the AVO needed to be offered in order to fill the position?
    Mr. Pummill. The previous Director that was selected was a 
senior executive from another agency in the federal government.
    The Chairman. Did that individual get the AVO to move?
    Mr. Pummill. No, he did not.
    The Chairman. Okay.
    Mr. Pummill. We attempted to bring an executive from 
another agency to fix some of the problems there thinking that 
some outside blood would help us a little bit. We realized very 
quickly that it was just too complex, there was too much going 
on, and we needed one of our most senior people.
    The Chairman. Okay, thank you. Ms. Rubens, did you sign a 
written statement that you would not accept a transfer unless 
the relocation expenses were authorized?
    Ms. Rubens. Yes, I did.
    The Chairman. And why was that?
    Ms. Rubens. The relo package that VA has is offered in some 
instances. And because it was offered to me and I thought it 
beneficial to help me ease that transition from one office in 
one city to another in an effort to be there as quickly as 
possible.
    The Chairman. And you never intended to go to Philadelphia 
at any time in your career?
    Ms. Rubens. I would tell you that I had been in Washington 
for a number of years. If I were to leave Washington it was to 
take on an office that had a large, complex operation. 
Philadelphia fit that bill.
    The Chairman. And so that was the reason that you left, you 
went to Philadelphia because you wanted to go to a large 
complex office and that fit the bill that was in your career 
path?
    Ms. Rubens. Sir, at that time it was an option and there 
was discussion about whether or not I would be able to meet the 
needs of the regional office. And I felt like, and still feel 
like, I am capable of doing that.
    The Chairman. Are you eligible for retirement?
    Ms. Rubens. No sir, I'm not.
    The Chairman. How long before you can retire?
    Ms. Rubens. Several years.
    The Chairman. One, two, three, four? Do you know?
    How about two? Is that close?
    Ms. Rubens. I think it's a little bit more than two, but 
less than five.
    The Chairman. Okay. Do you have any family members that 
live close by?
    Ms. Rubens. I do.
    The Chairman. And who might that be?
    Ms. Rubens. My sister, my mother, nephews.
    The Chairman. How close?
    Ms. Rubens. Wilmington. I grew up in Delaware.
    The Chairman. Twenty-eight minutes. Close?
    Ms. Rubens. It depends on how you go and what time of day, 
sir.
    The Chairman. So you did not want to move unless you got a 
$300,000-plus relocation package to be close to your mother and 
your family?
    Ms. Rubens. No sir, that's not the issue.
    The Chairman. But you had to get this relocation package to 
be close to your family?
    Ms. Rubens. It was part of a benefit program that VA offers 
to ensure transition is as quick and as smooth as possible to 
an office that needed leadership.
    The Chairman. And so you would not have moved close to your 
mother had you not gotten this package?
    Ms. Rubens. I don't know that, sir.
    The Chairman. I guarantee you, I would move close to my mom 
without a $300,000 relocation package.
    Mr. Pummill. Congressman, if I could interject?
    The Chairman. No, sir. I am talking to Ms. Rubens.
    Mr. Pummill. Mr. Congressman.
    The Chairman. Thank you. Had you ever told anybody prior to 
this being decided that you had a desire to go to Philadelphia?
    Ms. Rubens. I, when the director before the director I 
replaced retired I had expressed an interest in Philadelphia.
    The Chairman. Would you have gone then without getting a 
$300,000 relocation package?
    Ms. Rubens. I can't answer that, sir. I don't know what I 
would or wouldn't have done many years ago.
    The Chairman. How many years ago was that?
    Ms. Rubens. Off the top of my head, I'm not sure. Three to, 
three to five years ago.
    The Chairman. So you did sign a written statement basically 
that, so this, was this a Diana Rubens move? Or was this a 
management directed move?
    Ms. Rubens. I don't understand the question.
    The Chairman. Either you made the decision to go to 
Philadelphia or management said you needed to go to 
Philadelphia.
    Ms. Rubens. I could not have reassigned myself to 
Philadelphia.
    The Chairman. Did the management ask you to go to 
Philadelphia or did you choose to go to Philadelphia?
    Ms. Rubens. I still don't, I'm not sure how to answer that 
question.
    The Chairman. How did you make a decision, to decide to go 
to Philadelphia? You just woke up one morning and decided to 
move to Philadelphia? Or did management say you needed to go 
fix the problems at Philadelphia?
    Ms. Rubens. There were discussions with my leadership 
about----
    The Chairman. Did management tell you it was a management 
decision or did you make the decision? It's one or the other.
    Ms. Rubens. I guess I'm just not understanding the 
question. It was not a directed reassignment.
    The Chairman. It was not a directed reassignment?
    Ms. Rubens. It was not a directed based on performance or 
anything else reassignment. There was a leadership need in 
Philadelphia. There was a discussion about whether or not I 
would go. And----
    The Chairman. And you told them you would not go unless you 
got the relocation package?
    Ms. Rubens. As part of the process for accepting a 
relocation, you have to choose one of those options on that 
document. I opted to avail myself of a program for relocation 
to ensure I could make that move as expeditiously as possible.
    The Chairman. So you couldn't have moved quickly without 
$300,000 relocation package? That is okay. Ms. Brown?
    Ms. Brown of Florida. Thank you. Mr. Chairman, I just want 
you to know I am a little uncomfortable with this line of 
questioning.
    Ms. Rubens, I want to know something about your skill sets. 
Because I understand there are a multiplicity of problems in 
Philadelphia and VA decided that they wanted you and your skill 
sets. Can you tell me something about your background as to why 
it is that VA felt that your expertise was needed in 
Philadelphia?
    Ms. Rubens. So thank you, ma'am. I've been with the 
Department of Veterans Affairs in the Veterans Benefits 
Administration nearly 28 years. I started as a claims examiner. 
I have processed claims and understand the challenges of that 
position and the often changing requirements as we ask our 
employees to take on difficult tasks.
    I progressed over the years through first line supervisory 
positions to leadership positions, both at a local level and a 
regional office, within area offices, as well as in our 
headquarters environment. And from that standpoint the ability 
to understand the multiple priorities, the challenges of all of 
the things particularly in the last three years that we've 
asked employees to do as we have completely revamped from a 
paper bound system to a paperless system, the need to ensure we 
maintain dialogue, open communication, not only with our 
veterans who are ultimately who we're there to serve, but with 
our employees and our external stakeholders. And since my 
arrival in Philadelphia I have been very actively engaged in 
understanding the challenges within that local regional office, 
reaching out to employees, our stakeholders, and our veterans 
in an effort to understand and ensure that we meet the needs of 
employees who are ultimately going to provide that world class 
service to veterans that they so deserve.
    Ms. Brown of Florida. One of the problems that we have is 
the backlog. I listened to some of the whistleblowers and they 
mentioned the fact the pressure that they are on to process so 
many and you get so many points. Did you institute that system? 
Or is there some way that we can better work? In other words 
the one young lady said that in order to stay in that system 
you have to, you don't continue in that system. You want to 
move up. And the claims process, you develop certain expertise. 
Can you address that? I am interested in how we can improve the 
system and how we can improve processing the claims so that the 
veterans can get their benefits the employee will feel that 
they are doing a service to the veteran, because 53 percent of 
the people in your office are veterans.
    Ms. Rubens. Yes, ma'am.
    Ms. Brown of Florida. Please respond to that and then I 
will go to Mr. Pummill.
    Ms. Rubens. I would tell you that the last few years in 
particular have been a period of great change in the system for 
both veterans and employees in terms of how we're processing 
claims as we have worked to improve the process to make it a 
more streamlined process, to make it more accessible. And the 
challenge often is that we know our veterans today come from a 
wide range of different eras and different understandings and 
comfort levels with new technology. And so it is about not just 
how do we modernize and move into that electronic environment, 
how do we ensure good outreach to our older veterans who are 
not as comfortable in that way? And it has changed the things 
that we've asked our employees to do. And so it's imperative 
for us to continue to provide training, to continue to look at 
what it is we're asking them to do and how they do it. And in 
fact we continue to do that today and to ensure we are 
continuing to support them as they take care of our veterans.
    Ms. Brown of Florida. Mr. Pummill, you wanted to add 
something?
    Mr. Pummill. Yes, Congresswoman. I wanted to add that we 
have done a lot in VA in the last two years. We ask a lot of 
our employees. We ask a lot of our employees----
    Ms. Brown of Florida. Is that mandatory overtime still in 
place?
    Mr. Pummill. Yes. The mandatory overtime is still in place. 
They've been in mandatory overtime for a long time.
    Ms. Brown of Florida. About five years, I understand.
    Mr. Pummill. Yes, ma'am. At the same time they are in 
mandatory overtime we also are taking the entire paper system 
and automating it, both our claims system and our mail system. 
I was shocked in 2013 when I took this my job that everything 
we did was in paper. It didn't make any sense. So imagine the 
employee out there who is on mandatory overtime, we're trying 
to increase the number of claims so we can take care of 
Veterans and their families, and we're asking them to 
completely change everything they've ever done to a new system. 
It's hard.
    We understand that the standards that we have in place 
right now are probably not the right standards. The standards 
are changing as we modify how we do our work. We now have 
automated systems so we shouldn't be using non-automated 
standards. We put together a team right now, we have members of 
the union, we have some of our best raters, we have some of our 
people that are supervising claims and management of people, 
and then we brought in some outside experts. They are in the 
process right now of looking at the standards. How should the 
standards be set under an automated system? Should we get more 
work out of people, should we get less work? Should it be a 
different type of work? Should we do away with points? How do 
we distribute it? We're looking at everything from scratch 
right now. We expect to get that done in about the next 180 
days.
    Ms. Brown of Florida. Thank you. And I yield back my time 
and I hope we have an additional round.
    The Chairman. Thank you very much. Yes, we will. Thank you, 
Ms. Brown. And members, I apologize. I forgot to ask Mr. 
Pummill one question. Is it your testimony that Ms. Rubens was 
given this package because of her expertise and need to move 
her quickly to the Philadelphia RO?
    Mr. Pummill. Yes, it is.
    The Chairman. Okay. Can you help square a statement that 
came out from VA shortly after this issue arose that said that 
the AVO is offered by VBA to all leaders accepting reassignment 
as a VBA regional director. Is that true?
    Mr. Pummill. That is not quite accurate, Congressman. In 
the last three years we've moved 20 directors in VBA----
    The Chairman. Wait, wait, no, I, you're getting ready to 
cloud it. I know what you're getting ready to say. Some didn't 
avail themselves because their house sold within the 60 day 
time period. Do they all get the opportunity to participate if 
their house does not sell?
    Mr. Pummill. No, we only offered it to 11 of those 20.
    The Chairman. Okay. So then, so the statement that VA sent 
out that AVO is offered by VBA to all leaders accepting 
reassignment as a VBA regional director is incorrect?
    Mr. Pummill. That is not the information I have.
    The Chairman. Okay. Is this a correct statement or not?
    Mr. Pummill. I don't believe that's a correct statement.
    The Chairman. Okay. Very good. Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman. Ms. Boor, I wanted 
to turn to the situation in Oakland where the regional office 
discovered more than 13,184 unprocessed claims dating back to 
the 1990s. According to VA, however, only 2,155 required 
additional review and 11,029 claims were marked no action 
necessary. Ms. Brown, one of the witnesses that was just here, 
provided written testimony in which she stated that the VA did 
not adequately review these claims. Investigators from the IG 
office were only able to audit a fraction of the documents but 
found that 21 percent were informal claims that had not been 
processed. On what basis did the VA conclude that 11,029 claims 
did not need to be reviewed further and processed?
    Ms. Boor. Thank you, Congresswoman, for the question. Back 
at the time, as Mr. Pummill mentioned, we were in a paper 
environment. When they found the documents we weren't sure what 
it was, we thought they were informal claims. Once we went 
through them we went through and checked them with the 
electronic system to see, one, if a formal claim was received, 
and if so that the date of payment was correct. There were 
instances where the, the formal claim never came in but the 
letter may have been sent. And Ms. Brown was correct, if a 
veteran or a beneficiary may have passed away during the 
interim there may not have been another action by law that we 
could have taken.
    Ms. Walorski. How long did it through to go, how long did 
it take you to go through that system?
    Ms. Boor. Admittedly too long. When we first started and we 
did the electronic review, we got through the ones that we 
could not take action on based on the electronic system, or we 
have already taken the correct action. We set those aside and 
we went to the approximately 2,100 that we still needed to look 
at a paper file to make sure we got it right. That was probably 
the one that took us a little longer. We got through the 
initial reviews pretty quickly. Once we got into the ones that 
required a paper review it took us admittedly too long.
    Ms. Walorski. How long did it take? I have no idea. I'm 
just asking you. How long did it take? Months, days, weeks?
    Ms. Boor. It took longer than that. We were through 2013 
and `14, I think, going through it. It was brought very 
gratefully to our attention that even the ones that they did 
review, Ms. Brown was correct, we didn't attach it to the 
claims folder as we should have through records management. 
Once we found that we were about I think down to I think Ms. 
Halliday mentioned 530-plus that we still had on station. So 
we, we made through, we made it through most of them. But 
sometimes it's hard to get those records, paper records from 
storage from our archives and trying to make sure they are on 
station. So we review again to make sure we did it right.
    Ms. Walorski. So you are caught up. And what would be the, 
what would be the difference today in, number one in the 
process? But is there a backlog in there today?
    Ms. Boor. The difference today is all of the claims related 
mail is scanned into an electronic digital file. So that 
instead of attaching it to a paper document or having a stack 
of paper documents, they are all scanned into their own 
electronic digital file. Which is, once anyone looks at it, 
like Ms. Brown mentioned, you can know that it was there. So 
we've already gone through that system. We started in January. 
And we are, are continuing down that path.
    Ms. Walorski. And are you caught up? Is there a backlog?
    Ms. Boor. We have approximately 7,000 pieces of mail that 
we have to sort through to make sure, in a digital environment, 
to make sure that we are either controlling it for action or 
making sure that any, any necessary action has been taken on 
those.
    Ms. Walorski. How long will that take to go through 7,000?
    Ms. Boor. We average a turn around of approximately 13 days 
right now.
    Ms. Walorski. All right. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. Thank you very much. Ms. Kuster?
    Ms. Kuster. Thank you, Mr. Chairman. And thank you to our 
panel. And I want to particularly thank Ms. Halliday and the 
folks at the IG's office for the thorough investigation that 
you are doing.
    So I want to focus on where we go from here. And I want to 
get a handle, and I think, Mr. Pummill, you might be best 
suited. I want to understand why Philadelphia and Oakland? Or 
are we just setting the stage for a series of hearings like 
this on other crises all around the country? Are these to your, 
two of your most problematic situations? And if so I want to 
understand is it just the volume of claims there? Or do we 
seriously have a toxic work environment that they are not going 
to be able to take on? Do we need more employees? Do we need a 
whole management shift? Because I understand the challenges 
that are laid down and I understand the transition from paper 
claims. When we first got here we were talking about warehouses 
with boxes and boxes of paper, and I agree that is not 
efficient. But I want to get to is this worse? It sounds like a 
nightmare. And how do we get out of it?
    Mr. Pummill. Congresswoman, I would say that Philadelphia 
is the worst. And we did have serious problems in Oakland. The 
Oakland problems were to the extent that, as another 
congressman alluded to in the earlier testimony, at one point 
we had to shut down and retrain everybody in the office. When 
we got the hotline complaint about Philadelphia, the first call 
I received was from Ms. Halliday who said, hey look, I'm down 
here, this is serious. I need your help. So I flew, took the 
train, got Diana, brought her with me. We went down to 
Philadelphia and my conversation with Ms. Halliday was these 
people are afraid to talk to you and they're afraid to talk to 
me. I'm not going to get the right information.
    We ended up going around the office to every single person 
in the office, stopping by their desk, everybody that was 
there, and me trying to explain to them this is important. We 
need you to be honest. We need you to be forthright. Nobody is 
going to hurt you. We've got to know what's going on because if 
we don't know what's going on we can't fix this.
    We had a similar problem like that in Oakland. We've 
changed out leadership in Philadelphia. We're changing out 
leadership in Oakland. We're trying to be more veteran centric, 
as the new Secretary has us doing. A lot of this is way too 
much work with not enough people at the same time you're 
implementing all of this change on them. And we have to figure 
out how to work through that in a way that we continue to serve 
the Veterans and make sure that the Veterans and their families 
are taken care of.
    The good news is that twice as many Veterans are getting 
their claims done twice as fast as they were three years ago, 
but the bad news is that this puts an incredible amount of 
pressure on our people.
    Ms. Kuster. Yes.
    Mr. Pummill. I will say that we in VA for whatever reason 
were not very good in the past at telling this committee what 
we needed to do our job. We have to do a better job at that. We 
have to look at what we need, we have to make proper 
assessments, and then we have to come forward and say, like 
when the chairman asked what do you need to do your job, we 
need to be forthright and say we need more people or we need 
more assets.
    A lot of the people that we have are new people as you 
heard that from the whistleblowers, because we did get a 
substantial number of new employees over the last three years. 
But they are new employees. And I agree with the whistleblower, 
it does take them about three years to get up to speed to be 
the high level, high performing employees that we need.
    Ms. Kuster. So I am just going to cut you off there because 
my time is limited. My colleague Mr. O'Rourke is going to get 
into the notion of the fully developed claims and being as 
efficient in the process. And he has got legislation, is there, 
if there is something that we could do, I know the VSOs work 
very hard to have the fully developed claims. It seems to me 
part of the challenge we have is that this is, it is so 
scattered. I mean, I know my husband took a year trying to get 
my father-in-law into the veterans' home. And everybody's 
intention is to be veteran centric, but we have documents and 
records all over.
    So I want to ask you a real specific question before I 
close here. What are other regions doing that could be best 
practices that would help us get over the hump with 
Philadelphia? And we probably will not have time for it. But 
just is there something that we could do about redefining the 
regions, that their load could be lightened?
    Mr. Pummill. One of the things that I think is going to 
help us a lot is our national work queue that we're putting 
together. The system that we have right now in VBA, or we had 
in VBA, was 57 offices, all over the country and outside the 
United States that had paper and had different mailroom styles, 
different ways of handling mail, different ways of processing, 
and things like that. With automation we're going to be able to 
standardize.
    I've heard the story since I got here that, people are able 
to cherry pick claims. They can give easy claims to their 
friends and they can save hard claims for other people, as the 
whistleblowers alluded to. The national work queue will, not 
allow anybody to do that. The work will be distributed equally 
around the country and the work should go to the next available 
claims person who has the expertise to do that claim. So if it 
is a military sexual trauma claim, it goes to the military 
sexual trauma team. If it's an easy claim it goes to a new 
employee.
    But we're just now in the initial phases of that. That will 
be a brand new event for us here in VBA.
    Ms. Kuster. Sounds like a critical development. And thank 
you. Sorry, Mr. Chair, for going over.
    The Chairman. Thank you. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. You know, I just, my 
question to all of you that sitting here today are in this, in 
the thick of all this, is do many of you have experiences from 
claims processing in the private sector of any types of claims?
    Mr. Pummill. I have no experience. My entire career was 
with the Department of the Army and then over into VBA.
    Dr. Wenstrup. This kind of goes to some of the same 
problems we see with hospital care and hospital administration, 
if you will, compared to the private sector. Where the customer 
service is, is so important that they are going to make sure 
that they get things done right because they are competing for 
business.
    Mr. Pummill. Congressman, I will tell you that, one of the 
things we're doing, and it is showing promise, well first of 
all we are talking to civilian agencies. We are talking to some 
of the largest claims affiliated organizations for profit in 
the country. You know; How do you do it? How do you have such 
high customer satisfaction? How are you able to get your claims 
through quickly? We are even working a couple of pilots where 
we're having contractors work a portion of our claim that is 
not inherently governmental that allows us to speed it up to 
see how that works. It looks like a combination of that is, is 
probably going to be the future of the VA.
    Dr. Wenstrup. Well, I hope so. And I would maybe do more 
than talk to them, maybe hire some of them to implement the 
processes. And you know, I do not think, it is kind of 
surprising to me that, you know, what you are talking about 
today, to have specialists on certain types of claims like this 
is a big lightbulb going off. I can pretty much promise you in 
the private sector, this is what people do. So you know, again, 
it kind of comes down to the same thing, where your doors are 
open no matter what. So let's just, we will do it the way we 
want. Well it is time we look at other places. But I appreciate 
your honesty in recognizing that there is this kind of lack of 
input, or has been.
    Mr. Pummill. And I agree with you, Congressman.
    Dr. Wenstrup. And I yield back.
    The Chairman. Mr. O'Rourke, you are recognized.
    Mr. O'Rourke. Thank you, Mr. Chairman. To Mr. Pummill, I 
wanted to better understand what the consequences were for 
those responsible for the decisions that led to conditions that 
you encountered in, in Philadelphia where you had, you know, 
folks hiding mail, you had poor performance, you had 
intimidation. You said employees were so fearful they would not 
talk to you, they would not talk to the Office of the Inspector 
General. We have had issues in Oakland that have been 
highlighted today. What were the consequences for those 
responsible?
    Mr. Pummill. When we first heard about it and I got back to 
Washington, DC the recommendation from my boss Allison Hickey 
was let's do an investigation immediately. But after 
consultation with the Inspector General, the Inspector General 
asked us to please hold until we finish the IG investigation. 
We can't have two competing investigations, it confuses 
everything. Let us finish the IG investigation.
    One of the recommendations in the IG investigation was that 
we proceed with an AIB, which is an Administrative 
Investigation Board. That is under way right now and the people 
that are on the board are someone that is completely outside of 
the claims process, a retired military colonel that works in 
our Office of Economic Opportunity, and we got somebody, a 
senior person from the National Cemetery Administration so we 
wouldn't have anybody in the claims process, in the RO process, 
or from the OFO involved in it. They are supposed to have a 
report to Under Secretary Hickey by the end of June. And she 
has told me to assure this committee that at that time she will 
take appropriate action based on that investigation.
    Mr. O'Rourke. And I certainly can appreciate the, the need 
to approach this with due diligence and ensure that everyone 
has their due process. But just given some of the anecdotes 
that we heard earlier, things hanging out from 1996 untouched 
by any employee, this OIG anecdote of one employee had four 
bins of unprocessed mail. I mean, some of these seem so cut and 
dried that, and, and this, this committee has had the benefit 
of hearing mind boggling issues on the VHA side as well where, 
where it's just, I just don't understand whether you are 
missing the necessary authority to hold people accountable. And 
when Ms. Halliday talks about cultural aspects and dynamics of 
this, you know, if we want to create a culture of 
accountability there has to be some accountability and there is 
no accountability.
    And I understand you are working on that but it would have 
been wonderful to come to this hearing with, with some of that 
in hand only because, you know, your testimony following the 
whistleblowers, following Ms. Halliday, introduced some 
cognitive dissonance at least in my head. That, you know, there 
is a culture of no fear, we want people to not fear frank 
conversations, et cetera. And yet all of this is happening.
    And so I have no reason to question your commitment to 
this. I just wish that I could see that there is in fact, there 
are in fact some consequences and there is a change in culture 
beyond the investigations and the committees.
    Ms. Halliday, you talked about your job being primarily to 
identify conditions and causes, and, and you described the 
conditions really well. In, in terms of the causes, would you 
like to comment on my line of questioning in terms of 
accountability and the culture that has existed in those two 
ROs, or maybe more largely at the VBA?
    Ms. Halliday. Yes, I would. Thank you. Let's separate 
Philadelphia from Oakland. Philadelphia is clearly the most 
problematic VARO. In Philadelphia they need a culture change. 
There is such fear of reprisal and fear from the employees, who 
I believe are trying to do a good job. But they are scared to 
bring issues forward and when they do, they see them ignored. I 
think you need more management changes than what we've already 
seen. I thought that bringing a new director in was a start. It 
has to go deeper. We talked as a team, we were concerned about 
the span of control at Philadelphia. It's so large for a 
director that it probably should be reviewed. I think that 
there is a compelling need to invest in the management, 
specialty training the mid-level management at the VARO. 
Training in how to lead and emotional intelligence, which by 
the way they did take that action. This has to happen so that 
people understand that they will be treated fairly and they 
start to work together to resolve the issues.
    I definitely believe and it's come out that the performance 
metrics need to be reviewed. Clearly they are driving 
production but it's not focusing on how well veterans are being 
served. That's been a point of contention between OIG and VBA 
for a while, but I see them coming along. There is one 
recommendation in the Philadelphia report to look at the 
performance standards at the call centers since we heard from 
the staff there they couldn't provide good service under the 
time allotted for each call. The standard needs fixing because 
if a veteran can't get the information in the first call 
they're just going to go to other parts of the system for the 
information they need.
    And, and lastly I think there really has to be a look at is 
there any followup to the quality reviews being done? VBA does 
site visit reviews by the Compensation and Fiduciary Program. 
Many of the issues were brought up then. So the IG should not 
have to come in and address issues that should be fixed at the 
point you've invested those resources in that internal 
oversight. That same issue spills over into Oakland.
    Mr. O'Rourke. Thank you. Thank you, Mr. Chair.
    The Chairman. Thank you. Members, we do have I think a 
series of two votes coming up. What I'll do is we will watch 
the clock, let everybody know, then we'll take a 15-minute 
recess to give everybody an opportunity to go vote on both, and 
then come--there are five votes? Okay, I am sorry. Well, let us 
keep going. Dr. Abraham.
    Mr. Abraham. Okay. Mr. Pummill, I will make this quick. It 
is my understanding from the structural level, and we are just 
talking structure, that since Ms. Rubens has come aboard that 
the only structural change that has been made is Gary Hodge has 
been promoted. And let's go back to Ms. Kuster's, let me 
dovetail on her questioning. She asked about what plans were 
being made to change. I guess my question is, give me some 
specific examples of what is going to be changed to make this 
process better?
    Mr. Pummill. We have lots of things in the works for change 
right now.
    Mr. Abraham. Give me, give me three.
    Mr. Pummill. Of specific change, first of all is bringing a 
team together to look at the standards to determine----
    Mr. Abraham. But has a team been formed?
    Mr. Pummill [continuing]. It is formed, it is in place. 
They have already met several times.
    Mr. Abraham. Okay.
    Mr. Pummill. We also have a team that we put together which 
brought outside people from industry, civilian industry, to 
look at quality and how we measure quality and how we're doing 
quality. We're doing that same thing.
    Mr. Abraham. When are they going to report back to you?
    Mr. Pummill. I believe that they are 30 days out. I can get 
the exact date for you.
    Mr. Abraham. I would appreciate it.
    Mr. Pummill. They are meeting right now. Since the new 
Secretary has been in place, Bob McDonald and his team, it's 
holding people accountable, the accountability of personnel. We 
still have issues inside the federal government on, you know, 
due process, what you can do and you can't do to people. Back 
in the Army it was so much easier with the Uniform Code of 
Military Justice; it was cut and dried. Certain things that 
people do don't carry over to work if it's done in an off duty 
situation. But when the AIB gets back, I've had face to face 
conversations with Under Secretary Hickey. Her intent is to 
take the harshest action that she can take against people based 
on what they did or didn't do. She won't overly punish anybody, 
she'll follow due process, but she's, we're not going to let it 
stand.
    Mr. Abraham. And will we get a report on those punishments?
    Mr. Pummill. The report should be back by June and then we 
will ensure that this committee gets a copy of what we do with 
that report from the AIB.
    Mr. Abraham. Okay. Thank you. Ms. Halliday, you said that 
there were 13 reviews by your group, seven were reported to the 
OIG. Is that a correct statement?
    Ms. Halliday. Yes, it is.
    Mr. Abraham. When, when did those reviews start? When was 
the first review begun?
    Ms. Halliday. I'm going to say post-June, 2014.
    Mr. Abraham. And I guess that leads to my question. We have 
known and according to testimony that we have heard today, and 
certainly in other testimony, that these problems, these 
systemic problems go back years, sometimes decades. Why now are 
the reviews just now starting?
    Ms. Halliday. I think it comes on the heels of our review 
at the Phoenix Medical Center and all the issues that came out 
there with data manipulation. We knew the minute the news was 
covering that issue that chances are we were going to get 
allegations from the VBA side. New coverage raises people's 
awareness of these issues. They look at what's happening in 
their environment. They see the same types of things, maybe 
different from a claims processing to a medical center, but you 
know we had expected that we would get that.
    I will tell you for the 13 allegations we have, there's a 
great variety between which ones involve substantial claims or 
documentation that's not processed to some where the 
inappropriate actions are very small in number but egregious. 
Houston is one of those examples. VBA asked us to come in. They 
had looked at it. We looked at it. We see two instances in 
Houston where someone inappropriately cleared end products. 
They were removed. They are no longer employed with VA.
    Mr. Abraham. Were they fired?
    Ms. Halliday. Pardon me?
    Mr. Abraham. Were they fired?
    Ms. Halliday. They resigned, as far as I know.
    Mr. Pummill. That's correct. They resigned.
    Mr. Abraham. Okay.
    Ms. Halliday. But there's a great variety and I have 
instances within this 13 where there is no audit trail to tell 
how frequently data has been manipulated or how many claims 
have been touched. The issue up in Boston and that spilled over 
into Togus is one of those issues.
    Mr. Abraham. Okay. Thank you. Mr. Chairman, I yield back.
    The Chairman. We will go to one more member, Mr. McNerney. 
And then we will break until votes are over. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. Ms. Halliday, in 
your testimony you state that the Under Secretary of Benefits 
testified that none of the informal claims found required any 
additional action. However, your investigation found that seven 
out of 34 documents in your sample were informal claims that 
had not been processed. Is there a way to explain that? Is 
there a legitimate way to explain that?
    Ms. Halliday. We would disagree with the Under Secretary 
for Benefits here based on our thorough review. I don't know 
what information came up the chain of command to her and I 
can't comment on that. But our look at those claims shows us 
they need action. I'd like to ask Mr. Arronte who did the work 
out in Oakland to speak to it a little bit.
    Mr. Arronte. Yes, sir. First of all it was difficult for us 
to identify 14,000 anything. There was no paper trail. We 
couldn't prove a negative. Since then a whistleblower has come 
forward and provided us a list of about 1,308 additional 
claims; we have looked at 60 of those. They are not duplicate 
claims. They consist of formal claims and informal claims, and 
several required action. So for, for the statement to be made 
that none of these cases required action, I don't know their 
definition of action. I can give you one example if you'd like?
    Mr. McNerney. No, that's fine.
    Mr. Arronte. Okay.
    Mr. McNerney. I only have five minutes. So there's clearly 
some sort of a contradiction here?
    Mr. Arronte. Absolutely.
    Mr. McNerney. You know, I am going to address this to you 
and Ms. Boor. What can we do to improve the situation at the 
Oakland office? I will, I will ask, start with Ms. Boor.
    Ms. Boor. Thank you, Congressman. And, and I appreciate the 
question. I think we're already doing it. Part of it was having 
someone brave enough to raise their hand in a paper environment 
and say, hey, I found these, I'm not sure what they are. And to 
be comfortable to do so. Looking back on it we weren't the best 
of recordkeepers in documenting and logging in each and every 
13,184 documents that were found. We continue to look back. We 
want to make sure that every possible action that we could take 
was taken. We're now in an electronic format so that everything 
that comes in via paper is scanned into electronic digital 
format and, and less likely to have to----
    Mr. McNerney. Okay, you know, it is, it is kind of 
startling that you would say we are glad that a whistleblower 
came forward within your own organization. I mean, that is kind 
of an odd thing to hear.
    Ms. Boor [continuing]. Well----
    Mr. McNerney. And I am glad that you think that is a good 
thing. It should be something that you can detect without 
having to have a whistleblower, but----
    Ms. Boor [continuing]. I would say, one, the whistleblowers 
are important because we have gone through so much change in 
making sure that we're, we're looking at things that we, we 
need to. I would also say that it was a VA employee that 
brought that to our attention from one of the special help 
teams back then. The 1,308 that we found was based on another 
employee that came forward. I did provide that to, to the OIG 
as soon as we had it. A fresh set of eyes never hurts to make 
sure we get it right because that's the bottom line, to do 
what's right for the veteran.
    Mr. McNerney [continuing]. Well you know, I am not quite 
ready to believe that there is nefarious conduct. But some of 
the testimony, for example Kristen Ruell's in the first panel, 
gave me an indication of what could be happening. There is 
just--not a cognitive dissonance, but a dissonance between the 
way employees are treated and that there needs to be some sort 
of an overhaul in terms of how we can clean that up so that 
employees feel empowered to move forward so that they are 
empowered to bring problems forward so they feel like they want 
to stay and have high morale. I mean, those, that is probably 
the most important thing we do. Training by itself has, has not 
been effective as far as I can tell. So we need a plan from the 
Oakland RO and the, and the Philadelphia RO and the, and the VA 
in general that is going to achieve those goals. And I have not 
heard that yet but I want to hear it. Mr. Pummill, can you 
address that?
    Mr. Pummill. Fundamentally, we realize that as we're 
changing, as we're modernizing, and we're changing everything 
we do, that we have to have better communication, a better 
working arrangement with the employees out there. The IG 
investigations that are going on right now, the only one that 
was direct to the IG was the Philadelphia one. The rest of them 
were ones that we got from whistleblowers that came to us, and 
we contacted the IG and said could you please look at these and 
help us get through these so we that can work it out and make 
it better for Veterans? We know we have to provide better 
service to veterans. We know that we have to have better 
contact and relations with Veterans. But somehow we've got to 
complete the trifecta and take care of our own people at the 
same time.
    Mr. McNerney. Well, I am running out of time. Mr. Chairman, 
let us work together to put some sort of a requirement out 
there to get the VA to put a plan that we can have confidence 
in that will change things.
    The Chairman. I am all for that. Members, we will stand in 
recess until immediately following the last vote in this 
series.
    [Recess.]
    The Chairman. This hearing is reconvened.
    Thank you, Ms. Titus. We will ask that you serve as the 
ranking member until such time as Ms. Brown returns.
    Mr. Costello, you are recognized.
    Mr. Costello. Thank you, Mr. Chairman.
    In looking back over some things that both Mr. Pummill and 
Ms. Halliday said, I have a couple questions. First, Mr. 
Pummill, I believe you indicated that Ms. Hickey indicated that 
with respect to the AIB findings, when they are issued, that 
Ms. Hickey indicated that they would take the harshest action 
that can be taken; is that an accurate statement?
    Mr. Pummill. ``The harshest,'' those are my words.
    Mr. Costello. Okay. Fair enough.
    Mr. Pummill. Yes.
    Mr. Costello. Can you expound upon that. I just want to 
make sure that I heard that correctly.
    Mr. Pummill. Yes. When the under secretary read the IG 
report as the IG investigation was ongoing, we were getting 
interim reports from Ms. Halliday and her team and she was 
seeing the problems were there. It was, we have to do something 
here. There has to be some major change. We need to know what's 
going on and we have to set examples so that people know that 
they can't do the things that were happening. But we have to 
know to what the details are; that's what the AIB is for right 
now.
    Mr. Costello. And so--I am very interested in this 
interrelationship between the IG and the AIB, or at least that 
point in time where they are separated--but I would like to 
know, Ms. Halliday, what information can you provide that is 
not contained in your report, but has been provided to the AIB 
and is maybe contained in the charging letter? I am mindful 
that you indicated that it is a department program function for 
the--it is not a department program function for the IG to 
identify individuals.
    Question is, were individuals identified that you have then 
forwarded on to the IAB for their further investigation?
    Ms. Halliday. At this point, we expect VBA to come in and 
ask us to review the evidence. My teams will have all 
workpapers that will explain where we said 52 quality reviews 
were changed by a person, and then they can expand on that and 
determine the facts and determine exactly what happened, and 
under what guidance it occurred, so that the individual and the 
systemic deficiencies can be identified and effectively 
corrected. And from that point, they will be able to see who's 
accountable.
    Mr. Costello. So, do you have the information, through your 
investigation, that would yield the individuals who may be 
found culpable?
    Ms. Halliday. In some instances, yes.
    Mr. Costello. You just have not----
    Ms. Halliday. I mean I state in my report that someone 
changed quality reviews----
    Mr. Costello. Yes.
    Ms. Halliday [continuing]. Then we have the evidence, and I 
can put a number with it.
    Mr. Costello. Okay.
    Ms. Halliday. The big issue at Philadelphia is the 
management, and the management oversight and why the 
supervisory controls broke so badly.
    Mr. Costello. And that would seem to me to be able to be 
identified easier than an individual employee who has a 
supervisor in terms of where culpability lies; is that correct?
    Ms. Halliday. Yes.
    Mr. Costello. Next question, the charging letter, as I 
understand the term is used for charging the AIB with 
investigating a certain scope, did you participate in the 
substance of the charging letter?
    Ms. Halliday. No.
    Mr. Costello. Who does that fall on?
    Ms. Halliday. We made the recommendation to the under 
secretary for benefits.
    Mr. Costello. Okay.
    Ms. Halliday. And she would--she would put this 
administrative investigation in place based on VA directive 
0700, which talks about the administrative investigations.
    Mr. Costello. Okay. I think I know the answer to this 
question. Is manipulation of data, if purposefully done, a 
criminal act? You had indicated that you criminal--you had a 
whole team of people involved in your investigation. Is it a 
criminal act?
    Ms. Halliday. I think each and every instance needs to be 
looked at, because with criminal, you have to look at the 
intent.
    Mr. Costello. Yes, the mens rea.
    Ms. Halliday. So I think you have to look at these 
instances on their own merits.
    Mr. Costello. You have indicated that the Fast Letter 13-10 
was misapplied----
    Ms. Halliday. Yes.
    Mr. Costello [continuing]. Or there was a 
misinterpretation. Is that in any way an absolute defense to 
manipulation? I am a little concerned that that term is sort of 
being used as a way to immunize a further examination of 
whether the Fast Letter 13-10 was actually purposefully 
misapplied so that you will never be able to determine how much 
manipulation occurred. Can you expound--can you agree with 
that? Disagree with that? Expound on that?
    Ms. Halliday. Certainly, we would question why Fast Letter 
13-10 guidance was not appropriately applied. It seemed very 
clear that there was a requirement for each and every date of 
claim that was changed under that guidance to be reported to 
VACO. Philadelphia did not do that. The intent to which they 
didn't do that might be hard to assess.
    Mr. Costello. And did you find--last quick question--did 
you find their explanation for how it was misinterpreted to be 
at all credible? In other words, is there--you said it was, I 
believe you used the word s``unambiguous'' or ``clear''--can a 
reasonably intelligent person with experience in processing 
claims have come to misinterpret it the way that it was 
misinterpreted.
    Ms. Halliday. We don't think so. We just think it was 
blatant disregard for the policy. We did a review of similar 
allegations at the Little Rock VARO. We found they kept 
meticulous records because they did not like the fact that 
veterans were being told they really only waited a short period 
of time for their claim to be processed versus a lengthy period 
of time. They kept very good records for us. And our report in 
Little Rock illustrates two examples of how data can be 
manipulated and how the times veterans waited for these claims 
to be processed was inaccurate.
    I'd like Nora to expound on that, if she could.
    Ms. Stokes. Thank you. So in Little Rock, because they did 
keep good records, we were able to look at the impact as VBA 
had intended. So had the folks in Philadelphia used the 
electronic indicators and provided the notification to 
Compensation Services, then you may have had an audit trail. 
But in the Philadelphia regional office, they did not do that.
    In Little Rock they did, and we were able to look at 48 
claim, where they had applied the guidance in the Fast Letter. 
Forty-three of those claims involved rating compensation 
claims; those are basically disability determinations. On 
average one year and eight months had elapsed between the time 
VA had actually received the claims to the date that it had 
been adjusted.
    One of the most egregious examples was--one of the cases 
was 20 years old, but by adjusting the date of claim, it was 
made to look as if it were 14 days old.
    In another instance, because adjusting the dates of claims 
didn't just apply to rating-related cases, it also applied to 
the non-rating workload. We did observe five cases that Little 
Rock had kept records on, and we found that the average time, 
from the time they actually received it to the adjusted date of 
claim was five years and nine months. And one of those cases 
was 16 years old and it had been adjusted to be six days old.
    Mr. Costello. Thank you.
    The Chairman. Ms. Titus.
    Ms. Titus. Thank you, Chairman.
    Well, as you all know, I remain concerned about--excuse 
me--the Reno office and that it is still a problem. We know 
that the average length of time a veteran waits is 300 days. I 
don't know how in the world you are going to get to 125 days by 
the end of the year. The reduction in time is due primarily to 
brokering out of cases, so the problem, obviously, still exists 
there.
    Now, one of the problems, the fact that you had a director 
who, obviously, didn't have very good management skills; he was 
put on leave. We have had two interim directors and now we have 
a third. So I hope that that gets better, but I am going to 
keep asking you about it every time.
    But this problem of the interim director is kind of what 
brings me to the question which is relevant to what is going on 
here today. There seems to be a real pattern of just moving 
people from one office to the other instead of getting rid of 
them when they have a problem. And I was at home in the 
district this week and a person wrote a letter to the editor, a 
very nice letter thanking Congresswoman Titus for the work 
she's done with veterans--appreciate it.
    But I have to disagree. Mr. Russell should have been fired, 
and I am inclined to agree with the person who wrote the 
letter. Mr. Russell has been on leave for I don't know how many 
months and now a new job has been created for him, a new job in 
Washington, so he has come now to be in Washington. Then we 
have to get another new director, after we have already had two 
interim directors, and you are sending us Rashida Smith, who 
was a coach at the Oakland office where all of these problems 
occurred that we are talking about today in Oakland. So now 
Reno has gotten rid of one guy who has a new job and we have 
got a new person who was a problem in Oakland.
    Do you not see this as part of the leadership challenge 
that you all might be facing?
    Mr. Pummill. Yes, Congresswoman, we do see this as part of 
our leadership problem. We couldn't put a permanent director in 
Reno while we still had a permanent director there. Now that 
Mr. Russell is no longer in that position, we can find the 
right person for that station.
    The coach who is there right now did come from Oakland, but 
she was one of the coaches that helped us find the problem and 
work through the initial problem there.
    I mean, do you know anything more about her, the coach?
    Ms. Halliday. Just that she was one of the supervisors that 
did come forward and--and help with the project and make sure 
that the review was being done. She was working under division 
leadership at that point.
    Ms. Titus. She came after the fact. She wasn't one of the 
whistleblowers?
    Mr. Pummill. No. She was one of the ones who helped us 
resolve the problem.
    Ms. Titus. Oh, I hope so.
    Mr. Pummill. Yes, she's one of our solid performers. 
Probably won't be the permanent person there, but I can assure 
you we're going to put a strong person into Reno, to help her 
out in that position.
    Ms. Titus. You might have an easier chance of recruiting 
somebody if the leadership went to the Las Vegas office, 
instead of the Reno office.
    Mr. Pummill. Yes, ma'am.
    Ms. Titus. That is why we have had to have all of this 
turnover.
    Mr. Pummill. Yes, Congresswoman.
    Ms. Titus. Okay. Thank you, Mr. Chairman.
    The Chairman. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Ms. Boor, last year around last June, we came down, made 
our two-and-a-half-hour drive down to Oakland to come in and 
meet with you and start fresh, you know, we maybe hadn't had 
the greatest relationship with the previous director there. And 
I asked you about the reports of the almost 14,000 informal 
claims, and you and Mr. Willy Clark, who had come up from 
Arizona, had told me they never existed and were part of a 
rumor by disgruntled staff--which if I was that staff, I would 
be disgruntled as well.
    I then found out that you were working in Oakland--you 
hadn't told me that when we met--previously, at the time that 
Ms. Rubens determined the claims were actionable. You were 
working there, I think, on maternity leave for Ms. Kwok at the 
time. You didn't disclose that you had actually worked there 
before when we were getting to know each other. So at that 
time, I guess you either didn't know as the number two person 
in Oakland, that these claims had come forward that Ms. Rubens 
had disclosed and also disclosed in committee here last summer. 
You also put out a recent memo to staff that refers to those as 
``ancient history'' and all were duplicate copies.
    Today in this committee, they are not duplicates, so I am 
having trouble with the credibility and believing the whole 
story, because we have heard that they don't exist, they are 
duplicate copies, or, maybe in here today, that they are 
actionable, which turns out that Ms. Rustyann Brown was right.
    So, are there still pending unprocessed, informal claims 
piled up in your office?
    Ms. Boor. Congressman, thank you for asking the question 
and allowing me an opportunity to address your concerns.
    Mr. LaMalfa. Well, you are welcome.
    Ms. Boor. I do remember meeting you. I think I was fairly 
new on the job at the time, a couple weeks in.
    Mr. LaMalfa. Yes.
    Ms. Boor. I believe we had a conversation a little bit 
about our history, my history.
    Mr. LaMalfa. Unfortunately, my clock doesn't give me a lot 
of time, so we have got to get to the point. Thank you.
    Ms. Boor. So I thought what I communicated to you, sir, if 
I remember correctly at the time, is that we had most of them 
completed in the review process. That the ones that we did have 
were--the majority of them----
    Mr. LaMalfa. Well, again, we had the three stories, they 
didn't exist, or they were duplicate copies, and now today they 
are actionable items. So which story am I supposed to go with? 
So I guess the question I come back to, though, was, are there, 
right now, today, pending unprocessed, informal claims piled up 
in your office?
    Ms. Boor. I don't believe so, sir. That's now my 
understanding. We did a quality review of----
    Mr. LaMalfa. You don't believe there are any informal 
claims left?
    Ms. Boor. First of all, the informal claims were a process 
that we had, prior to our conversion into standardized forms, 
so we would not. The second piece is that the ones being 
reviewed now, there is a quality review of the reports being 
done.
    Mr. LaMalfa. Well, then, what is this? What is this here? 
This is on the 17th floor. It was sent to us a week or two ago.
    Ms. Boor. Correct. Those are a quality review.
    Mr. LaMalfa. Quality review of informal claims?
    Ms. Boor. Quality review of the review that we were in 
discussion of last June.
    Mr. LaMalfa. So is Oakland--why are they doing another one-
hundred percent review of these claims if they already reviewed 
them twice? What has hastened that effort?
    Ms. Boor. Because we want to make sure that we got it 
right, Congressman, as--as you do. I appreciate the fact that--
--
    Mr. LaMalfa. Why does Oakland know where those claims are, 
but the Inspector General does not?
    Ms. Boor. I can tell you that we weren't the best of 
recordkeepers. We didn't keep track----
    Mr. LaMalfa. Yes, I have heard that a couple of times.
    Ms. Boor. The--everything that we have, the Office of 
Inspector General has, we work collaboratively with them.
    Mr. LaMalfa. So are we to believe, then, as asserted 
earlier by Ms. Hickey in a previous hearing, that of those 
13,184 claims, that none of those veterans had to wait for a 
decision, that all of that has been properly handled in the 
past?
    Ms. Boor. I would say the majority of those, sir, were 
copies and have been handled appropriately. We did find some 
corrections that had to be made. They were made.
    Mr. LaMalfa. So they were copies or they were today 
actionable claims? We have all these numbers 537; 2,215. It is 
really hard for me to keep up here, so I had to write it down. 
Why do some of these, also--some of these claims are shifted 
into what is known as a 930 administrative claim or a 400-
series correspondence?
    Now, when I was a kid if I didn't like eating my peas, I 
just kind of spread them around on my plate real thin and make 
it look like I was eating my peas, you know. This kind of looks 
like that to me because you put these in these different files 
or they might get sent off to a zero percent claim or get sent 
to review back here by the appeals board or maybe get shipped 
to Sacramento or maybe some get brokered out as Ms. Rubens 
mentioned last year. So I am not buying, really, that the 
numbers are down that much and I would like to get a phone call 
from Mr. Pummill on New Year's Eve as they get through all of 
them. But, Ms. Boor, please address some of that.
    Mr. Pummill. Congressman----
    Mr. LaMalfa. No, no sir. Ms. Boor.
    Ms. Boor. There's a lot in that statement, sir. I'll try to 
address each point. As far as how the numbers went, we started 
out with what we believed to be approximately 13,000 documents. 
When we got through a match of the systems, we realized that 
many of them we couldn't tell through the systems, so we needed 
to pull the actual claims folders, which you have a picture of 
right there.
    Mr. LaMalfa. Yes.
    Ms. Boor. Unfortunately, we were not the best of record----
    Mr. LaMalfa. That is the same number as an Army division, 
by the way, you know, 13,000, so----
    Ms. Boor [continuing]. So--I'm sorry, sir, I am trying to 
respond, but I didn't want to talk over you.
    Mr. LaMalfa [continuing]. Go ahead.
    Ms. Boor. So when we got down to the approximately 2,100, 
the OIG mentioned that--required a claims folder to make sure 
that even if we couldn't see it in the system, that we made 
sure that if there was a formal claim--again, this is kind of 
like a--an informal claim is more like if someone is shopping 
on Amazon.com and they want to make a purchase--you mentioned 
peas, I thought I'd use an analogy as well--if you want to make 
a purchase, you would put the item into the shopping cart, but 
until you push the button, you don't make the order.
    So the informal claim is similar to that. It's putting us--
it's correspondence, it's phone calls letting us know, hey, 
we're looking to file a claim, we just may not have done it 
yet. Our responsibility was to make sure we notified----
    Mr. LaMalfa. Our 13,000 veterans, I would wager that they 
haven't all had their claim finished. And I guess on the heels 
of all this, you know, Ms. Rustyann Brown just told me in the 
hall that when you were telling Mr. McNerney how you welcome 
whistleblowers, she didn't feel welcomed at all. She actually 
begged you to look at the 13,000 more closely at the time and 
also to handle some of the other issues she was dealing with on 
an employee issue. She wanted to keep her job, yet she retired 
15 years to the day because she couldn't handle it anymore.
    Mr. Chairman, I hope I have a chance to follow up here a 
little bit more. Thank you.
    The Chairman. Thank you very much.
    Mr. Walz yields, and Mr. Meehan, you are recognized for 
five minutes.
    Mr. Meehan.  Thank you, Mr. Chairman.
    Mr. Pummill, I thank you for being here, but the IG did a 
service doing this report and you have identified Philadelphia 
as being particularly problematic. The standard procedure for 
five days to respond to inquiries, 31,000 inquiries, an average 
of 312 days for a response.
    What do you tell those veterans and their families?
    Mr. Pummill. There's nothing we can say to those veterans. 
It's wrong. It shouldn't have happened. We, as an organization, 
have to do better, and we have to figure out how things like 
that don't happen. I--there is no response you give to a 
veteran that would be a legitimate response.
    Mr. Meehan.  All right. Well, in order for us to do 
better--Ms. Rubens, these are not my words, these are the words 
of the Inspector General--the IG found serious mistrust and 
fear of reprisal and they found conditions and culture that 
was--that the confidence in management was greatly questioned, 
but this is the words of the IG saying this.
    How does a culture get changed when this is what is 
believed of the management that is currently in place?
    Ms. Rubens. Thank you, Congressman Meehan.
    And I would tell you from the time I arrived at the 
regional office, I worked to make a connection with the 
employees, not just with managers, not just with supervisors, 
but out on the floor talking to employees. Invited everybody 
who was employed by the regional office at that time to come in 
and meet with me. I held over 40 meetings----
    Mr. Meehan.  You didn't invite everybody to the town hall 
that occurred when your supervisor came in, though. When Ms. 
Hickey was there, not everybody was invited to a town hall, why 
not?
    Ms. Rubens [continuing]. Sir, her time that day was very 
limited. We----
    Mr. Meehan.  Why did she have a town hall with the 
employees if the people weren't free to speak what they--what 
they wanted?
    Ms. Rubens. She, actually, that day, met with service 
officers as her endeavor to reach out. She asked no supervisors 
or managers to be in the room and gathered input from our 
stakeholders that day.
    Mr. Meehan.  May I ask, the report was scathing in a number 
of areas, among them, that there was a quality review team 
manipulation. There was an inappropriately altered document by 
individual quality reviews. When did you become aware of that?
    Ms. Rubens. Actually, when I read the draft of the report, 
sir.
    Mr. Meehan.  You were not aware prior to that----
    Ms. Rubens. I was not.
    Mr. Meehan. K [continuing]. Until you read the draft of 
this report?
    Ms. Rubens. I was not.
    Mr. Meehan.  Ms. Rubens, it says that management was aware 
that these actions were occurring, but no action was taken to 
stop the pattern.
    Ms. Rubens. In my----
    Mr. Meehan.  You had been there eleven months by the time 
that report--are you saying this went on--and this was known 
that somebody manipulated data, management knew about it, other 
people stood and looked aside. Some people--the complaint--
members of the VSC management--all of the results of individual 
quality reviews for some employees, but not for others, and you 
are trying to tell me this much information was known and you 
first heard about it when it became published in the IG's 
report?
    Ms. Rubens [continuing]. Sir, I am anxiously awaiting the 
report from the AIB so that we can----
    Mr. Meehan.  What do you need from the report from the AIB. 
You just heard the testimony. What are you doing about 
accountability? Who is the individual? And if you say you are 
out on the floor, why did it take you 11 months to find out 
that somebody altered documents that protected some employees 
and put other employees in a negative situation?
    Ms. Rubens [continuing]. Sir, I have been at the regional 
office just over nine months and I would tell you that I have 
worked to uncover as many things as I can. There are still days 
when I find things that I was unaware of, and I think that that 
will go on, and I think that's important for me to keep asking 
the questions. And, ultimately, if there's appropriate action 
that needs to be taken, we need to take it so that folks do 
have a sense of security and continue to come forward as we ask 
employees to do a tremendous amount of work.
    Mr. Meehan.  I am holding in my hand a photograph, right 
here, which is the evidence of a time stamp machine, a date 
stamp machine which is open and accessible, again, identified 
in the Inspector General's report. When did you first become 
aware that these time and date stamp machines were capable of 
being accessed by people, other than directed by you?
    Ms. Rubens. In fact, when the IG was still on station and 
raised that issue, we took quick action to remove IG--excuse 
me--date stamp----
    Mr. Meehan.  When was that? You had been there for nine 
months. When did that occur?
    Ms. Rubens. I believe that first came up when the IG first 
came in, before I actually arrived on station. It was one of 
the issues raised as part of their management advisory, if I 
recall properly.
    Mr. Meehan.  What time frame do you think that was?
    Ms. Rubens. June 19th of 2014.
    Mr. Meehan.  So you did know right from the beginning. Why 
didn't you tell me June 19th, then?
    Ms. Rubens. Because it is my--I needed just a minute to 
think about whether it was after I had arrived on station 
whether that was one of the issues raised as part of the 
management advisory. I have now read the entire IG report with 
35 recommendations, as well.
    Mr. Meehan.  Ms. Rubens, I know that there are many good 
people at the VA who want to do a good job. I know you have 
people in management that want to do a good job, but I have 
never seen a report as scathing and I have never seen distrust 
as high, and you asked for an assignment to go to a facility. 
What is needed and what is being asked, Mr. Pummill and Ms. 
Rubens, is when is there going to be accountability? If you 
knew somebody altered quality review documents that implicated 
the performance of some and released the performance of others, 
that is fraud. That is potentially criminal behavior. Who is 
being held accountable and when is it going to be done?
    Mr. Pummill. Congressman, we're going to hold everybody and 
anybody that was responsible for the actions in this IG report 
that's confirmed by the AIB responsible.
    And I do agree with Ms. Halliday's statement to the 
Congressman before, most of our regional offices got this 
guidance right, so I don't believe that in the case of 
Philadelphia, where it was gotten so wrong, that it could have 
been a mistake. You are going to have to prove really, really 
hard to me that this was an absolute mistake when so many 
people got it right.
    Mr. Meehan.  Thank you, Mr. Chairman, and thank you for 
your testimony.
    The Chairman. Thank you very much.
    Ms. Rubens, as a follow-up to our previous back and forth, 
I asked whether you were directed by management to go to 
Philadelphia or whether it was your decision. I want to ask it 
a different way: Were you given a choice by management to 
remain in your former position here in Washington as the deputy 
under secretary of field operations or become the new RO in 
Philadelphia?
    Ms. Rubens. Sir, it was not an either/or conversation.
    The Chairman. Okay. When did you first learn of my requests 
for all of the MSPB and EEO files at the Philadelphia RO dating 
back to 2008?
    Ms. Rubens. Sir, your staff was visiting our regional 
office the week before Christmas in December of 2014.
    The Chairman. And what did you do in response to their 
requests?
    Ms. Rubens. I began to try to organize my staff around that 
request. I also reached out to headquarters to let them know 
that we had gotten that request from your staff.
    The Chairman. And when were the files assembled and boxed?
    Ms. Rubens. Sir, we worked to assemble and box various 
parts of that information over the course of the next two 
months.
    The Chairman. Did you contact my office at any point, you 
or somebody in your office, contact staff and tell them that 
the material was ready to be picked up?
    Ms. Rubens. I don't recall having reached out to your 
office. Ms. Tripplaar from your staff was back at our regional 
office as part of The American Legion visit to Philadelphia and 
we had some conversation about the materials.
    The Chairman. She advises me that they were told while they 
were there, that it would take a couple of days, and that they 
would be able to pick it up at that point. Does that ring a 
bell?
    Ms. Rubens. I believe I told her that we were continuing to 
work with our members of general counsel to make sure that we 
were providing information. There are a number of steps, as I 
understand it, that have occurred, and that VA is currently in 
the midst of providing you a rolling production of the 
information that you had requested.
    The Chairman. Yes, but my question is when you found out. 
So what direction did you receive from central office regarding 
the request and who, specifically, advised you or directed your 
response?
    Ms. Rubens. I'm not clear on what information you're 
looking for, sir.
    The Chairman. You said you contacted general counsel, and 
referenced my request. I believe you said that you needed a 
Chairman's letter in order to release those files, which you 
got within moments of the request, and so I am trying to find 
out what kind of direction the central office gave you 
regarding the response.
    Ms. Rubens. So in December when I called to talk about the 
fact that we had had that request from Ms. Tripplaar, the 
response was we don't have a Chairman's letter, as a request. 
We were interested--we--the Department was interested in 
ensuring they had an understanding of what information you were 
looking for.
    The Chairman. All, A-L-L, all EEO files and MSPB files----
    Ms. Rubens. Yes.
    The Chairman [continuing]. Which we still, by the way, 
don't have. When did you receive word to finally transfer all 
of the files to the central office? Because, see, I was told 
that everything was hung up at general counsel and then we 
found out that they never had been transferred to the General 
Counsel's Office.
    Ms. Rubens. Of course. I had several conversations, 
beginning after the holidays, with both our congressional 
liaison as well as general counsel about what information they 
wanted me to provide to them for their review to ensure if 
there was the need for any privacy concerns for anything else 
in those records that they would have a chance to review that.
    The Chairman. Are you aware that Congress is not bound by 
the HIPAA laws and privacy requirements, that any information 
that you provide to us is protected information?
    Ms. Rubens. Congressman, I worked closely with 
congressional affairs and general counsel and worked to provide 
them the information that they asked me to send up. I cannot 
tell you whether or not they are doing something that is or 
isn't within, if you will, the guidelines as you've outlined 
them.
    The Chairman. Can you confirm that all files, all EEO 
files, complete files, all MSPB files have been transferred 
now?
    Ms. Rubens. I have nothing in my office left to provide. 
Part of the ongoing conversation is not only the fact that 
there are office files, which we've provided to headquarters, 
but that our office resolution management and MSPB may have 
other or more complete files. If something has happened with 
that issue subsequent to it leaving, if you will, the regional 
office.
    The Chairman. And you did allude to the fact that there's a 
rolling supply of information. We have not gotten the files 
yet, we are still waiting on the files, we have gotten discs of 
partial files, and again if we don't receive it by Friday, and 
anything you can do to help move it along--you, Mr. Pummill, as 
well--would be greatly appreciated.
    Ms. Filipov, would you step forward for just a moment to a 
microphone? You can do it right there by Ms. Rubens. I want to 
discuss, if you would, the lack of trust between RO employees 
and management staff. And I understand from a whistleblower, 
and it was confirmed, at least that the rumor was out there 
that there was a party hosted at your house June of 2014, at 
least some of the guests were PMC employees and my question is, 
is it true at this party that employees were asked to pay Gary 
Hodge's wife to act as a medium and speak with their deceased 
loved ones?
    Ms. Filipov. Chairman Miller, that's, as Ms. Halliday has 
testified, that's part of an ongoing IG investigation and I 
have been instructed by the IG not to discuss that 
investigation until it's complete. Once it is complete----
    The Chairman. Wait, wait, wait. The IG has told you not to 
discuss?
    Ms. Filipov. That's correct.
    The Chairman. Are you--you're under oath, so if I asked the 
IG that question, they're going to say they've instructed you 
not to respond?
    Ms. Filipov. I was instructed by an IG investigator not to 
discuss until the investigation is complete. I would be 
available to answer questions when that investigation is 
complete.
    The Chairman. Ms. Halliday, would that be an appropriate 
direction from the Inspector General's office?
    Ms. Halliday. That may be appropriate at this point. This 
was done by a different office, and I would like to be able to 
go back and take that for the record. We have an office that 
does administrative investigations within our office of 
investigations, I handle the audit side.
    The Chairman. And so once it's complete, we will have you 
back, Ms. Filipov, to talk about the party that apparently was 
held at your house. And the question that I will ask you, and 
it will give you time to think about it a little bit, did you 
voice any concerns at the time that your guests were asked to 
pay Ms. Hodge for her services, knowing that many of them were 
in Mr. Hodge's direct or indirect chain of command? That will 
be an easy question for you to answer when you return. Thank 
you.
    Ms. Filipov. I understand, sir.
    The Chairman. Ms. Brown, questions?
    Ms. Brown of Florida. Yes, Mr. Chairman, I have a question 
for Ms. Halliday. My question pertains to the appraisal value 
office. You explain the relocation program? Is that just a 
program in the VA or a program for all federal agencies? For 
example, let's say my house, if VA purchased it, let's say they 
spent $200,000 for my house, who owns that property and can VA 
resell--will they sell that property, what's the status of the 
property? I mean, explain to me because I am very confused.
    Ms. Halliday. In my oral statement I said that I didn't 
want to comment to that at this time. It an ongoing 
administrative investigation.
    Ms. Brown of Florida. Is that under investigation too?
    Ms. Halliday. Yes, it is.
    Ms. Brown of Florida. Okay, all right. All right then.
    Ms. Halliday. We will provide all the details as we do a 
due diligence review of this.
    Ms. Brown of Florida. Okay, thank you.
    Mr. Arronte. Congresswomen, we can----
    Ms. Brown of Florida. Yes.
    Mr. Pummill [continuing]. Tell you that the AVL program is 
a contract that's on the GSA schedule. It's available to all 
government agencies in the Federal government. Anyone who uses 
the contract has to pay the rate that's set in the GSA 
schedule. There's several contractors on there. The one that 
the VA uses is the lowest rate that's available on the GSA 
schedule.
    Ms. Brown of Florida. Well, thank you. I am sure we will 
get additional clarity.
    Ms. Rubens, you said you have been involved with the VA for 
over, what, 28 years?
    Ms. Rubens. Ma'am, yes, I've been with VA just about 28 
years.
    Ms. Brown of Florida. I understand that you probably have a 
lot of expertise, the reason why VA wanted you to go to 
Philadelphia because this--I understand it's a multiplicity 
office, it encompass--tell us what.
    Ms. Rubens. Yes, ma'am. Thank you. The Philadelphia 
regional office actually has a number of missions. Similar to 
most offices, we have called them, the two that seem to be 
everywhere are Veterans Service Center which is the disability 
claims compensation as well as Vocational Rehabilitation and 
Employment.
    But we also have one of only three pension management 
centers in the nation, as well as two call centers. One that is 
one of a series of eight national call centers that take 
veterans' calls from across the nation. But we also have the 
only national pension call center where veterans, stakeholders, 
anybody who's got an interest in a claim will call and have 
access to us by phone for that as well.
    Ms. Brown of Florida. Some of the employees have indicated 
it's a morale problem there and, of course, ``dash,'' 
leadership. Whose responsibility it is to work on the morale of 
the employees and try to get the problems resolved?
    Ms. Rubens. Ma'am, I think that's my responsibility to work 
with them and help. I would tell you I think it's the entire 
leadership team, but I think also every individual as they come 
to work. We've got to--we've got to be engaged to that end.
    I have held a series--when I first got there identified 
everybody who worked at the regional office and invited 100 
percent of those folks to sit with me, just me, nobody else 
from the leadership team, to talk about things that they saw in 
the office. I've continue that process through what I'm now 
calling ``listening posts,'' where I've got representatives 
from across the regional office coming in.
    I'm out on the floor regularly talking to folks, checking 
in on how things are going. VA does an all employee survey. We 
didn't have great participation as much as I was out front 
encouraging folks, if you haven't done your all employees' 
survey, do that, 'cause we need that feedback from you to 
understand what's going on.
    We've taken that. I've got a work group that's largely 
employees who have done a review of those results and identify 
three areas for us to begin to work on to ensure employees feel 
as though we're hearing them. I've worked closely with our 
first line supervisors to provide some training, and that's 
ongoing. I don't think you can do a ``one and done.'' To help 
them understand how do we do a better job of having those 
crucial conversations and providing feedback. Those loops have 
to continue to stay open.
    The other thing that I think has been very successful is 
reaching out to our stakeholders. Whether that's our service 
officers, or whether that's veterans themselves through our 
town hall meetings. And engaging employees in those efforts too 
so that they can have a better understanding of what our 
veterans deserve and what they're looking for from us as we 
work to provide best service.
    Ms. Brown of Florida. Many of the employments are at entry 
level, seven or something like that, what kind of incentives 
can be offered? I understand it takes, two or three years to 
get a new employee operational. What kind of positive 
apportions can VA do to keep the expertise at that location so 
that an employee can, process those claims?
    Ms. Rubens. Yes, ma'am, I've got two things that are 
particularly important right now in that vein. One is actually 
one of the recommendations from the all employee survey team to 
talk about, how do we ensure they feel more valued. But two, 
understand how to best position themselves for opportunities 
within the regional office.
    The other thing is, and Mr. Malizia and I have had several 
conversations about, I'll say the quality, the training cadre 
that we've got. We're engaged now and have reached out--or 
reached back, if you will, to headquarters and our employee 
development team here to come down and help 40 of our key 
trainers--and we've got more folks than that that do training--
to ensure we've got the right investment in them, so that as 
they're given that investment to our employees to improve their 
skills and position themselves for opportunity.
    And so I think that--those are just a couple, and I'll 
continue to work with the team, and employees, to figure out 
what else can we do to build on that.
    Ms. Brown of Florida. We started out with a backlog of 600 
plus thousand and now we're down to 188,000, what are your 
recommendations? Should we outsource part of that? I know--I am 
not one that believes in outsourcing, but I am saying it. What 
do you think?
    Because one of the pressures that VA is under is that you 
want to make sure that those veterans' claims get taken care 
of. That's the bottom line. If a veteran is not in the system, 
VA can't take care of you.
    Ms. Rubens. Yes, ma'am. And I would tell you that some of 
the things that we're doing in Philadelphia involve engaging 
employees and what else can we do to ensure we're more 
efficient. We've reduced the backlog from our peak by nearly 
56% and continue to stay focused on how do we continue to 
ensure to do that.
    As I've held meetings with employees, sometimes the topic 
is really about morale but I would tell you the employees are 
also great sources of ideas about policy, process, and 
procedure. And I would tell you that I am quick to respond with 
sending those things up the line to headquarters because those 
are some areas where we've got some great ideas they continue 
to gather them, we've got to keep working to ensure veterans 
are getting the best service.
    Ms. Brown of Florida. You, bet.
    The Chairman. Thank you, and I'm going to yield to Mr. 
Costello in just a minute, but part of the relocation package, 
and it is throughout the federal government not just to VA, but 
there's a 28 percent management fee on top of the house 
purchase price.
    So in this instance, Ms. Rubens, I believe her house was 
appraised somewhere in the $770,000 range, they ended up 
selling her house for $692,000 and then Stone Financing appears 
to have received $134,000 in profit because of that management 
fee. Twenty-eight percent, again, which is not just at the VA, 
it's federal wide. Ms. Ruben, have you ever availed yourself of 
that before, in that program?
    Ms. Rubens. Chairman, as I have moved throughout my career, 
this was the first time that I did not sell my house on my own 
in 60 days.
    The Chairman. Okay, thank you.
    Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman. Ms. Halliday, I am 
going to read a couple sentences and then ask you to respond. 
This is on Page 3 of your written testimony, second paragraph.
    ``We identified serious issues involving mismanagement and 
distrust of VARO management impeding the effectiveness of its 
operations and services to veterans. Further, the extent to 
which management oversight has been determined to be an 
ineffective and/or lacking requires VBA's oversight in action. 
Moving forward, VBA and VARO leadership must work to restore 
the trust of employees and promote open communication at the 
VARO.''
    My question is, do you have concerns about whether that's 
even possible? And that's not a disparagement of any particular 
leader, but culturally, it has just been so scathing that--is 
there a sort of--and a related question is, IG involvement now 
and moving forward with respect to implementation, can you 
describe that in connection with any concerns you might have?
    Ms. Halliday. We certainly have concerns with Philadelphia 
because we have never seen such a dysfunctional or toxic 
environment. My two directors here today have conducted over 90 
benefits inspections, So they have a very good perspective of 
what they saw in there.
    To change the culture, I highly encourage VBA to change 
more of its management team. In getting a new set of eyes and a 
new perspective on this, it'll be easier for them to build 
trust. In the military, they would call it a loss of trust in 
the command and they would change the entire team.
    Mr. Costello. Are you at all troubled that that hasn't 
happened yet? Or is there a piece of this IG report where it 
needed to happen before that can occur?
    Ms. Halliday. I believe that the administrative 
investigation has to occur, I think when all the evidence is 
viewed, Ms. Rubens and Mr. Pummill will be in the position to 
hold certain managers accountable.
    The one point I want to make here is, I believe the 
accountability is at the management level and the leadership 
level. Not so much the employee level where all these employees 
are so fearful for their job.
    This is a process that's pushed and driven by people, there 
will be errors. The issue that I'm taking exception to in 
Philadelphia is, fixing errors. When you know about the 
problems, start to correct those problems. Use your quality 
reviews to help you always implement continuous improvement.
    Mr. Costello. So ``fix it.'' The term outsourcing was used 
a little earlier in a different capacity, but we are leading it 
to management to fix it. Do you think from a credibility 
perspective and restoring a sense of competence in the 825,000 
veterans that are served there that having an independent set 
of eyes outside confirming that the right personnel changes are 
being made is appropriate? Or do you just need that----
    Ms. Halliday. That's a pretty broad question. I believe 
there needs to be changes in the management team at 
Philadelphia. I think that there are probably good people 
throughout VBA that can come in, and put a new set of eyes on 
this, and do it right.
    Mr. Costello. Okay. Ms. Ruell stated her testimony that she 
stopped sending emails to the ACO because she was informed that 
her and other employees' emails were being rerouted to the RO 
and were in the hands of the people that were reported. Do you 
know whether or not that was accurate or not? Was there that 
sort of mischief?
    Ms. Halliday. We can't put context with that.
    Mr. Costello. Okay. Final question, the number of EEO 
complaints, it's been stated that the volume of complaints at 
Philadelphia was inordinately high. Can you comment on whether 
that's accurate?
    Ms. Halliday. No, I don't have the number on that. What I 
did when we received this unprecedented number of allegations 
is we focused on looking at all the major processing activities 
within the VARO to understand was it an efficiently run VARO, 
or was it a mess.
    Mr. Costello. Ms. Rubens--excuse me, AIB, the three folks--
it's a board of three, correct?
    Ms. Rubens. Sir, actually I think the AIB is larger.
    Mr. Costello. Okay. How many folks were appointed?
    Ms. Rubens. We've got an external VBA member, we've got 
leader from headquarters, and I believe three others.
    Mr. Costello. Have you had any previous professional 
dealings, or relationships, with any of those who are--that 
comprise the AIB investigating Philadelphia?
    Ms. Rubens. I don't--four of the five I have had some 
familiarity on one level or another with, yes.
    Mr. Costello. Could you detail--could you provide a little 
bit more detail to that?
    Ms. Rubens. So, the member from outside VBA, honestly I'm 
not sure who that is. The leader is Program Director here in 
headquarters, I'm going to say relatively new to VA and VBA as 
in the last, I don't know, three to five years. There is 
another man that is in HR arena, works out in the West. There 
is a service center manager from Lincoln, and a member of the 
Systematic Technical Accuracy Review (STAR) team from 
Compensation Service. I've had varying degrees of interaction 
with the last two over the years.
    Mr. Costello. Thank you, my time is expired. Mr. Chairman, 
thank you.
    The Chairman. Ms. Brown.
    Ms. Brown of Florida. Thank you. I have a couple of final 
questions. First, Ms. Halliday, I indicated that I would like 
for you to come to my office because I have some follow-up 
questions and I'm looking forward to that.
    I had extensive conversations with Representative Barbara 
Lee, Congress people from Oakland, and Representative Chaka 
Fattah from Philadelphia. The Secretary is in Oatland today as 
we are having this hearing. There have been ongoing problems. 
For years in the making in Oakland. In fact, I had discussions 
with him when I arranged a meeting with the Secretary and 
members of the Congressional Black Caucus, and Oakland was on 
the list. So where are we as far as Oakland is concerned?
    Ms. Halliday. Our look into Oakland was to look at whether 
there were 14,000 claims that were not processed. And I think 
we've come to an accounting of that information to the extent 
that physical evidence exists. There's now new evidence that 
there's 1,308 claims information or documentation, and we've 
looked at that. We have not looked at the full number of that, 
that takes some resources to do.
    But what we did was we looked at a sample to start and, we 
saw that it included both informal claims and formal claims.
    Ms. Brown of Florida. Would you give us the difference 
between an informal and a formal?
    Ms. Halliday. Now, I'm going to have Mr. Arronte, he's the 
specialist in that area.
    Ms. Brown of Florida. Yes.
    Mr. Arronte. An informal claim is an attempt by the 
veteran, or a surviving spouse, or a beneficiary to apply for 
benefits through the Department. The Department has certain 
criteria that they must meet for this to be a formal claim.
    So, for example, if a veteran writes in and says, I served 
during the Persian Gulf and I want to file a claim. That's 
considered an informal claim because there's no way they can 
verify service, they don't know what the disabilities the 
veteran is claiming. So that's the difference, it's just 
specificity in what the veteran is claiming.
    Ms. Brown of Florida. Let me ask the question to, my 
understanding we are working with a lot of our stakeholders to 
make sure that when they turn that claim in it's complete?
    Mr. Arronte. That's true if the veteran or the surviving 
spouse has a service organization that represents them, but 
there are plenty of veterans that do not have that, so they 
test the waters without that assistance. And, typically, there 
are times when they do that the claims are informal because it 
doesn't contain all the information required to formalize the 
process.
    Ms. Brown of Florida. One of the problems that often come 
up is that, the veteran I don't have all of his or her 
paperwork. As far as the system, DoD and VA, is that system 
being improved so that veteran can have all the necessary 
paperwork? It makes no sense that they don't have the 
paperwork.
    Mr. Arronte. I think that's probably a question better 
answered by VBA.
    Ms. Brown of Florida. Okay.
    Mr. Arronte.
    Mr. Pummill. Yes, Congresswoman, we still get claims from 
veterans that don't have all the information every day. One of 
the things that's going to help us a lot with the informal 
claims is the new standard form rule that we have which allows 
veterans to fill out a form and provide us the information we 
need so we have formal claims on everybody just like every 
other agency in the Federal government.
    The veterans that are getting out of the service right now, 
we have a very good handle on getting their records. We have 
this thing called a gold standard where when they leave the 
military we get an electronic copy of their medical record, 
their dental record, their service record, and that system is 
working. It's a little slow in some cases, but it's working.
    The ones we still have a problem with are the Vietnam era 
veterans, the Korea War Veterans, sometimes World War II 
veterans that are still living, that submit a claim that have 
nothing with it and it's our responsibility to go out and get 
the information still a claim, it's still a formal claim 
because they've claimed it, they've claimed a specific issue, 
medical issue, we have to do everything we can to help them. We 
use the VSOs to help us to try to gather that information. 
That's still tough.
    Ms. Brown of Florida. I recently met a veteran who is 
currently rated at 10 percent, and clearly he should have been 
at 90 percent. He's been out for 2 years and he can't get his 
paperwork. So there's still a problem between DoD and VA.
    Mr. Pummill. Congresswoman, if he would have got out two 
years ago it would have been a problem. The----
    Ms. Brown of Florida. Okay.
    Mr. Pummill [continuing]. The law that you all passed, the 
VOW VEI Act where everybody has to go through transition and 
the records, those laws have really helped a lot and we've seen 
less and less of that. But I would say two years ago, 
absolutely he probably had a problem getting his record.
    Ms. Brown of Florida. Is there any additional information 
that you want to give us before we adjourn?
    Mr. Pummill. Congresswomen, I would just say that, I've 
been with VBA for almost four years now. Listening to the 
whistleblowers here, kind of broke my heart hearing what they 
said and the issues that they had in the organization: that's 
wrong. We can't treat employees like that, and we have a huge 
push to take care of veterans and sometimes we, as a management 
organization go overboard, and we have got to take care of 
veterans, we got to take care of them now, we have got to get 
them what they deserve, they served our country.
    As you know we're in mandatory overtime, we're changing 
everything, we're automating things. How our agency got to 2013 
without automation in the United States of America, I have no 
idea. But what we've done and how far we've come in the last 
two years, we have pushed our employees really, really hard.
    Now we have to figure out, how do we take care of veterans 
and at the same time get our employees more involved and do 
some of things that Diane's trying to do in Philadelphia so 
that we can make this a team and do the right thing. And we 
have to be more forthcoming when we come to this committee on 
the things that we need to help veterans.
    Ms. Brown of Florida. Well, I want to thank all of you for 
your service and all of the whistleblowers, for the feedback we 
have received. I like the Army motto, ``one team, one fight,'' 
and we are all fighting for the veterans. I yield back the 
balance of my time.
    The Chairman. Thank you.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you again, Mr. Chairman. Ms. Halliday, 
Mr. Arronte, again thank you for, you know, hearing us in the 
committee last summer on this and engaging Oakland in your 
reviews and investigations, and so, I appreciate that and the 
interaction.
    I just would ask that, couple things, that in the I think 
16 days you spent there reviewing, there is still a lot to be 
mined from that information. I know the report was pretty 
succinct on that, not so much critical it's just there is still 
a lot to go. Not just on, you know, numbers or, you know, piles 
of files but some actions in there by personnel that I think 
were highly inappropriate and disrespectful to the process. I 
would ask you to keep mining that as you go along, and 
particularly with this file of 13,184 claims.
    We happen to know that there's two individuals that have, 
or are holding, I believe Excel files of those. Ms. Rashida, 
Lusterschmidt, and Rachel Pennington, I am told have these 
files somewhere and I am asking you to get hold of that list 
and keep it so it's safe. And then let's work through the 
confirmation process of seeing that those 13,000 actually all 
those veterans have their requests, their plea, heard. Not just 
the first phase and say processed check the box, but actually 
have those veterans receive the full benefit they should be 
eligible for. I ask you of that, would you please get those--
get that Excel file?
    Voice. (Indiscernible).
    Mr. LaMalfa. Thank you.
    And then, you know, obviously I think more review. Some of 
the testimony you have on hand from last year is going to be 
very appropriate. Some really stern recommendations on that. 
You mentioned that there's a--there needs to be a culture 
change on management, whether it's middle level, upper, and 
some other areas I think Oakland should also have that kind of 
review looked at.
    Ms. Boor, back to you. As we know, you are starting your 
second year or so, Director Bragg retired prematurely. Bottom 
line, have you fired any of these middle managers that have 
treated people and made it such a hostile environment in 
Oakland for employees?
    Ms. Boor. I can tell you that I have personally not fired 
any managers, we do have a new staff. We have a new service 
center manager on board, we have a new vocational 
rehabilitation officer on board, we've beefed up our first line 
supervisors to make sure that we're able to not only provide 
oversight that's necessary but also address concerns a little 
bit better than maybe we have in the past. I----
    Mr. LaMalfa. But none of the people that have made the 
environment for Ms. Rustyann Brown or one of our other people 
that have spoken to us, Tony Sevara [phonetic] have not--have 
not been let go?
    Ms. Boor. Sir, like I mentioned, I have not terminated or 
fired anyone at this point.
    Mr. LaMalfa. Because we have had some good people that 
really have been taking care of the veterans and have left not 
voluntarily but because of the atmosphere. And Mr. Severa, Ms. 
Rustyann Brown, and all the others I cannot think of right now. 
So I am--you mentioned a while ago Mr. McNerney, I mentioned 
whistleblowers that you embraced, that you welcome that.
    Ms. Boor. Yes, sir.
    Mr. LaMalfa. May I ask of you today, will you protect the 
whistleblowers that have already emerged, or will be emerging, 
in your office and so that when we hear about it we will hear 
that Julianna Boor was helpful, and listened to them, and 
wanted to get to the bottom of that?
    Ms. Boor. Absolutely, sir. It's not only encouraged by me, 
it's expected. I tell my employees either through written 
communication or as I walk around and talk to them that, you 
know, if you see something say something. We can't get better, 
we can't provide excellent customer service to veterans if we 
don't talk to one another, if we're not--if the trust isn't 
there.
    So, sir, I know that trust isn't given it's earned, and I--
and I hope to earn not only the trust of the veterans of the 
Northern California but the Northern California delegation here 
in Congress.
    Mr. LaMalfa. Well, I had hoped we would start out that way 
last June and when I hear again a lot of different stories on 
these files here and they don't hold water, then I want--I 
would like to have that trust built back with my office `cause 
we will not go away on this issue and we will be back here 
again if we have to be, but I would like this to be positive. 
So----
    Ms. Boor. Sir, you are welcome at our office at any point. 
I know your time is limited so I won't take it here, but I'd 
love to have further discussions to make sure that your 
concerns are met and make sure that, more importantly, that the 
veterans are taken care of.
    I hope that there is a list of 13,000, I would love to go 
back and make sure that we did everything humanly possible.
    Mr. LaMalfa. Every single one----
    Ms. Boor. Every single one.
    Mr. Lamalfa [continuing]. Having been met. Whether they are 
deceased----
    Ms. Boor. Yes, sir.
    Mr. Lamalfa [continuing]. There is a widow involved, what 
have you. And so we have this issue and then we will have to 
tackle the actual medical services they received too because 
NORCAL has some issues on that. So, Mr. Chairman, I really 
appreciate the time. Thank you, I yield back.
    The Chairman. Thank you, Mr. LaMalfa. One final question, 
Ms. Rubens, I also ask for a complete VA file on Bradley Stone. 
And my question is, have you provided everything that's in the 
RO to the central office?
    Ms. Rubens. Yes, sir, I have.
    The Chairman. Okay. Thank you very much. I would ask that 
all Members would have five legislative days with which to 
revise and extend their remarks, or add any extraneous 
materials. Without objection, so ordered.
    With that, thank you everybody for being here. This hearing 
is adjourned.
    [Whereupon, at 3:39 p.m., the committee was adjourned.]

                                 <F-dash>

               Prepared statement of Chairman Jeff Miller

    Good morning.
    Welcome to our witnesses, especially the brave whistleblowers who 
will appear on our first panel.
    The title of this hearing is ``Philadelphia and Oakland: Systemic 
Failures and Mismanagement.''
    Based on the IG's reports describing the serious problems 
processing claims in both Philadelphia and Oakland, I think that the 
phrase: ``systemic failures and mismanagement'' might be a gross 
understatement.
    The witnesses from the VA will have an impossible task today--they 
will have to try to explain the inexcusable: a pattern of malfeasance, 
abuse and incompetence by VA officials that has led to waste of 
taxpayer funds, a serious failure to correctly process veterans' 
claims.
    And--in Philadelphia--a workplace environment so corrosive, so 
toxic, so abusive, that according to whistleblowers, workers have been 
driven to attempt suicide.
    In one tragic case, as one witness will testify, a worker may have 
actually succeeded in taking his own life after being bullied by VA 
management.
    I also have serious questions about the costs incurred by VA 
regarding the transfer of Philadelphia RO director, Diana Rubens, from 
the VA central office in Washington to the Philadelphia RO.
    The VA incurred over three hundred thousand dollars [$300,000] in 
relocation expenses last summer to move Ms. Rubens, one of the highest 
paid employees at the VA.
    Let me repeat that: at a time when VA was telling Congress and the 
American public that it needed more money for claims processors, it 
authorized more than three hundred thousand dollars [$300,000] in order 
to move a federal employee less than one hundred forty [140] miles from 
Washington to Philadelphia.
    In fact, of the total sum of the relocation expenses, $84,643.70 
was paid directly to Ms. Rubens for expenses such as subsistence and 
temporary expenses, real estate expenses, relocation income tax 
allowances, permanent duty travel, permanent change of station meals, 
shipment of household goods and personal effects, and storage of 
household goods for the first 30 days.
    While such an expenditure may have been totally legal, it does not 
pass the smell test.
    Paying such an exorbitant amount on behalf of a federal employee to 
move three hours down the road is an outrageous abuse of taxpayer funds 
in this fiscal climate, or any fiscal climate for that matter.
    In this situation, everyone wins except the American taxpayer.
    I would also note that a comparison of relocation expenses for our 
service members with those available to VA employees shows a 
significant advantage to civilian employees.
    I have asked the Office of Inspector General to investigate not 
only the payments for Ms. Rubens' transfer, but also whether there is a 
more systemic problem with VA's use of relocation expenses.
    Relocation expenses are intended to entice employees to take hard-
to-fill positions.
    From what I've learned, VA makes these benefits available to every 
RO director who relocates.
    That is hardly the kind of scrutiny such a large expenditure of 
taxpayer funds deserves.
    But VA's problems are more than just an abuse of the relocation 
program.
    VA asserts that it is making progress in resolving its backlog, but 
the IG's finding that Philadelphia staff deliberately manipulated claim 
dates in order to conceal the true size of its backlog seriously 
undermines the VA's credibility, at least where the Philadelphia RO is 
concerned.
    Although the mismanagement and data manipulation detailed in the 
IG's report on Philadelphia is as bad as I have seen in a long time, we 
cannot ignore the serious problems discovered at the Oakland RO.
    It is absolutely inexcusable that the Oakland RO ignored more than 
thirteen thousand [13,000] informal claims, some dating from the mid-
1990s.
    This committee will continue its oversight to ensure that the VA 
actually holds the Philadelphia and Oakland management staff 
accountable for the abuses and mismanagement outlined in these reports.
    VA's actions--not words--in these two cases will demonstrate 
whether the department is serious about cleaning up this mess.
    Merely requiring staff to attend training sessions is not enough, 
and shuffling poor performing managers to other stations--as was done 
with Mr. Gary Hodge, the manager of the pension management center, who 
was transferred to the VA central office literally hours after the 
release of the IG Report--is simply the old VA way of papering over 
problems.
    Further, VA's response to my request for all Equal Employment 
Opportunity and Merit Systems Protection Board files from the 
Philadelphia RO is another example of VA's lack of transparency and 
seeming attempt to hide the truth about working conditions in 
Philadelphia.
    I asked for these files on December 19, 2014--more than four (4) 
months ago.
    I also requested this information when I met with Secretary 
McDonald on February 25, 2014.
    In addition, I specifically asked VA's general counsel for these 
files during a committee hearing on March 16th.
    And my staff has repeatedly followed up on my requests with the VA 
over the last four months.
    Finally, after months of delay, on April 14th, we received some 
documents, including a disposition log of MSPB cases that the VA 
claimed was complete but, in actuality, is incomplete.
    Since Friday evening of last week, the VA has since turned over 
some additional files but has failed to deliver all the requested 
files.
    For example, the committee has received seven (7) of twenty-two 
(22) files for MSPB claimants, although there are believed to be more 
than twenty-two (22) individual employees who have filed MSPB claims 
since 2008.
    To date, VA has failed to deliver any EEO files.
    These continued delays are unacceptable and inexcusable.
    If all requested records are not provided by week's end, I will ask 
my colleagues to join me in subpoenaing the documents.

           Prepared Statement of Ranking Member Corrine Brown

    Thank you, Mr. Chairman, for holding this hearing today. I look 
forward to working with you and all the other members to help our 
nation's veterans.
    I'd like to recognize and thank Representative Barbara Lee and 
Representative Mike Thompson and Representative Jackie Speier for all 
the work they've done in keeping tabs on the Oakland Regional Office 
and Representative Chaka Fattah for the Philadelphia Regional Office. 
I'd also like to recognize a veteran Mr. O. Bobby Brown who is 
currently serviced by the Philadelphia Regional Office sitting in 
today's hearing. Thank you Mr. Brown for your service.
    We all agree that providing veterans timely, and accurate benefits 
is an important focus of this Committee. I for one, am very concerned 
with the facts before us today.
    Today we will hear from the Department of Veterans Affairs Office 
of the Inspector General and numerous whistleblowers that will 
highlight two broken regional offices. Individual employees, and some 
supervisors, who have alleged to have engaged in shameful activities, 
which at the end of the day hurt veterans. I know that I and VA 
leadership will not tolerate such actions.
    Today, I hope to hear VA's plan to fix these offices, and ensure 
accountability for management, and mid-level management. I also hope to 
hear from our witnesses on what needs to be done to resolve the 
problem. Our job is not only to find problems, it is to offer 
solutions.
    The Office of Inspector General highlighted in its report ``serious 
issues involving mismanagement, and distrust of Veterans Affairs 
Regional Office management impeding the effectiveness of its operations 
and services to veterans.''
    To me, these sound like local, cultural issues, and it sounds like 
the Philadelphia and Oakland offices are due for a leadership shake-up 
at all levels if these allegations are proven to be true.
    I also hope to hear from VA on how you are coming along with the 38 
Department of Veterans Affairs Office of the Inspector General 
recommendations between these two regional offices.
    With that said, I think it is important that we keep today's 
hearing in context. We are focused on two broken VA Regional offices, 
while VA as a whole has dramatically increased their timeliness and 
quality of adjudicating claims. VA seems to still be on track to 
eliminate the backlog by the end of this year. In fact VA has reduced 
the backlog from a high of 611,000 claims in March 2013 to 
approximately 188,000 today.
    We are not there yet, but I believe we are on the right track. I 
don't want a few bad actors taking away the progress that has been made 
across the country for our veterans.
    I ask that Representatives Lee and Fattah stay on top of the 
concerns of veterans who are supported by the Oakland and Philadelphia 
Regional Offices.
    Thank you Mr. Chairman and I yield back my time.

                                 <F-dash>

             Prepared Statement of Hon. Ralph Abraham, M.D.

    Thank you to Chairman Miller for holding this hearing today.
    First of all, I want to be clear that whistleblowers should never 
face retribution, senior VA officials need to be held accountable, and 
any type of claim manipulation by the VA is unacceptable. It is 
whistleblowers who bring to light the flaws in organizations which must 
be fixed.
    For far too long there has been systemic mismanagement at the VA. I 
suggest we look at mistakes made and find a way to look forward to 
ensure these mistakes are not made again.
    I thank the men and women who are here today, and look forward to 
hearing your testimony. I yield back.

               Prepared Statement of Hon. Raul Ruiz, M.D.

    I thank the Chairman and Ranking Member for including my bill, H.R. 
732, the Veterans Access to Speedy Review Act in this hearing, and I 
appreciate the Chairman's support as a cosponsor of this bill. This 
simple, bipartisan legislation will provide the Department of Veterans 
Affairs (VA) the flexibility they need--and have requested before this 
committee--to expand the use of video teleconferencing (VTC) for 
hearings before the Board of Veterans Appeals. This authority will 
expand VA's capacity to adjudicate appeals, thereby expediting results 
for waiting veterans. My bill will also eliminate substantial travel 
costs to the veteran and the administration.
    Under current law, veterans may involuntarily encounter an extended 
wait period for a judge to visit the veteran's region or for the 
veteran to travel to Washington, DC. Additionally, veterans are 
required to pay all travel expenses to and from an in-person hearing, 
even if they would prefer a video teleconference. My bill would center 
the appeals process on the veteran's needs and save money for all 
parties involved. Importantly, veterans will retain the right to an in-
person hearing, and under my bill the VA must honor the veteran's 
preference for hearing type--whether in-person or via VTC.
    In 2012, the VA Board of Veterans Appeals submitted a report to 
Congress highlighting recent activities which include four policy 
recommendations that seek to expedite or streamline the claims process 
for our nation's veterans. Video teleconferencing by default was 
included in these recommendations. In last year's committee report on 
the amended Veterans Access to Speedy Review Act, the VA committee 
noted that the Board has historically been able to schedule video 
conference hearings more quickly than in-person hearings, saving 
valuable time in the appeals process. As the VA testified before this 
subcommittee, in FY 2014, on average, video conference hearings were 
held 124 days sooner than in-person hearings.
    This bipartisan solution will get many veterans their appeal 
results sooner, at no cost, which is why each Veterans Service 
Organization that testified at this legislative hearing supported my 
bill, as did the VA. This overwhelming support from both parties, the 
Administration, and veterans is why this bill passed the VA Committee 
by voice vote last Congress.
    I urge the members of this subcommittee to come together again to 
advance this essential measure out of committee, and to advocate for 
the Speaker to bring it to the floor. It is understandable to delay 
controversial and contentious policy proposals until an agreement is 
reached, but denying veterans relief when a consensus has been reached 
is unacceptable.

                                 <F-dash>

                       Statement of Kristen Ruell

    My name is Kristen Ruell. I am an authorization quality review 
specialist at the Philadelphia Regional Office. My primary job duty 
includes performing quality reviews on the accuracy of benefit payments 
paid out from the VA to its beneficiaries. This August will mark my 8th 
year of employment with the Philadelphia Regional Office at the United 
States Department of Veterans Affairs. The agency has potential to be 
the greatest place to work in the entire country. The feeling of being 
able to give back to the American citizens that served our country is 
truly satisfying.
    Earlier this month, the OIG's report on the Philadelphia Regional 
Office was released. The report confirms what whistleblowers have 
alleged for years, that the managers at the Philadelphia Regional 
Office lack the ability to appropriately govern and oversee the wide-
range of benefits and services for which it is responsible. To date, 
the VA has failed to hold any management official accountable for the 
many deficiencies cited in the report. The VA has stated that 95% of 
the problems cited in the report have been fixed. I strongly disagree 
for the following reasons:
    1) The Philadelphia RO has a large number of EEO complaints against 
various members of management. A large amount of taxpayer monies have 
been spent on administrative costs, attorney fees, and settlements. For 
every case settled, a new one is filed. Without removing the officials 
making the bad decisions, the number of claims filed will not decline. 
When the evidence clearly indicates that the same decision makers are 
not making the right decisions, they should no longer be in decision 
making positions.
    2) I have personally reported erroneous and duplicate payments 
since 2010. In 2012, I reported the erroneous payments to the IRS, 
Department of Justice, OIG, OSC, and the VA Secretary. The duplicate 
payment problem has never been fixed. Unless the computer is programmed 
to prevent a duplicate payment, they will continue to occur. The VA has 
stated that they have no way to identify and prevent duplicate 
payments, aside from a duplicate payment report, which Philadelphia RO 
employees admitted they were unaware the reports existed. Stopping an 
award that is paying twice is not correcting the underlying problem, 
which is wasting millions of taxpayer dollars. The VA also did not keep 
a list of people that were paid duplicate awards, and many were sent 
letters in which the erroneous award was stopped without processing and 
noting the overpayment. Creating a ledger of the overpayments at this 
point would be virtually impossible due to the lack of recordkeeping 
regarding these payments.
    3) Although fast letter 13-10 was rescinded, there is evidence that 
data manipulation continues. The data manipulation will continue until 
the performance standards are amended. The current standards are 
unreasonable and cause an employee to do things to save their job that 
in turn can harm the Veteran. It is not fair to place an employee in 
that situation. It is even less fair to the Veteran whose claim may be 
effected.
    4) An Administrative Investigative Board, has been charged with 
making a determination on certain issues regarding the misapplication 
of Fast letter 13-10, which pertains to dates assigned to claims filed 
by veterans and their survivors. The Administrative Investigative Board 
consists of VA employees who determine whether there is intentional 
wrongdoing. The OIG just finished their investigation on this issue. It 
is confusing to me why the OIG suggested an AIB rather than an outside 
investigation. An outside agency should be assigned to eliminate bias. 
Philadelphia RO Director Diana Rubens used to be in charge of 57 field 
offices and most likely knows most management officials chosen to 
investigate on behalf of her Regional Office. The VA should not be 
trusted to investigate itself until it proves it is complying with the 
VA Core Values.
    5) Employees are expecting management to be accountable for the 
deficiencies cited in the recent OIG report regarding the Philadelphia 
Regional Office. The typical VA solution for most every problem is 
training, committees, and meetings, which do not fix managers who lack 
morals and integrity.
    The Philadelphia Regional Office needs new leadership. Employees 
have lost trust in their managers and do not trust the broken chain of 
command. I have lost trust in VA management at all levels. I stopped 
sending emails to the VACO because I was informed that my and other 
employee's emails were being rerouted to the RO and were in the hands 
of the people we reported. The only way to rebuild trust at the 
Philadelphia Regional Office is to hold those accountable that were 
responsible for the many issues cited in the OIG report. Congress and 
the American people need whistleblowers so they are informed as to what 
happens inside the walls of the Federal Agencies. Without 
accountability, in my office and at the VA, there will be far fewer 
whistleblowers, if any.
    Thank you for the invitation to be part of this hearing today. I 
will be happy to answer any questions you may have regarding my 
experiences in the Philadelphia Regional Office.

                                 <F-dash>

                Prepared Statement of Joseph F. Malizia

    Thank you, Mr. Chairman, and Members of the Committee for allowing 
me to address the continuing problems at the Philadelphia Regional 
Office, only some of which were identified in the recent Office of 
Inspector General's Report dated April 15, 2015, titled Review of 
Alleged Data Manipulation and Mismanagement at the VA Philadelphia 
Regional Office Philadelphia, Pennsylvania.
    First I want to explain who I am and my role in the VA. I am a 37 
year employee of the VA all at which is referred to as the Philadelphia 
Regional Office. I have been the local Union President of AFGE Local 
940 for the past 16 years and was Vice-President for 10 years prior to 
that. I have served on many joint national VA Labor/Management 
Committees including the Mid-Term Bargaining Committee and am still a 
member of the National Quality Council and am a certified Trainer for 
AFGE-Master Agreement. I have been a VA Carey Quality Program Examiner 
and I am a member of the Unified Union Partners for VISN 4 which is a 
VHA group. I have interacted with numerous Regional Office Directors, 
Area Directors, VBA Central Office Staff, including Ms. Rubens in her 
capacity as Chief of the Office of Field Operations, as well as the 
past five or six Under Secretaries for Benefits.
    I also believe it is important to explain the uniqueness of what is 
referred to as the Philadelphia Regional Office. This is a misnomer. 
The Philadelphia facility encompass the Regional Office, the Insurance 
Center (the only one in the nation) with its own Director, the 
Philadelphia Information Technology Center (one of three major Data 
Centers) which is an OI&T function with its own Director and 
leadership, and the Philadelphia Insurance Products Development Staff 
which is a separate OI&T function (one of approximately six) with its 
own Director and leadership. The Philadelphia Regional Office and AFGE 
Local 940 also cover the Wilmington, Delaware Regional Office. All 
combined, these VA entities compromise the largest identified VBA 
facility. It is my hope that by explaining the separateness and 
distinctness of each individual entity in Philadelphia you can better 
appreciate the confusion that occurs by simply referring to the 
Philadelphia facility as the Philadelphia Regional Office.
    Why is this important? Because the cloud that is hanging over the 
Philadelphia is only based on the actions of the Regional Office 
Management yet, the whole facility is feeling the negative effects of 
something that they are not a part of.
    Employees in the Philadelphia Regional Office are very demoralized. 
A negative cloud has been hanging over them for more than nine months 
now. It has been hard for them to function under the combined 
management of Director Diana Rubens, Assistant Director Lucy Filipov, 
Pension Management Center (PMC) Manager Gary Hodge, Veteran Service 
Center Manager Jeanne Paul, and Human Resources Chief Lina Giampa. By 
their actions, these Management Officials both individually and 
collectively have created a hostile work environment in the Regional 
Office.
    With regards to the OIG Report and other problems at the 
Philadelphia RO, I want to highlight some examples and will be glad to 
expound on them later if you have any questions.
    While it is true that Director Rubens is new to the Philadelphia RO 
as of June 2014, she is not new to VA. As Chief of the VBA Office of 
Field Operations, Ms. Rubens was well aware or should have been well 
aware of the problems in Philadelphia RO. She was responsible for the 
creation, implementation and enforcement of most if not all of VBA's 
policies and procedures many of which are the source of the problems in 
Philadelphia and other RO s.
    It was with great hope that I was looking forward to working with 
Ms. Rubens. When the rumor was spreading that Ms. Rubens was coming to 
Philadelphia RO , several management officials were disgruntled because 
they feared her reputation and because of her extensive background and 
intimate knowledge of VBA protocols. I believe that they were worried 
that she might actually hold them accountable for doing their jobs the 
right way. Regrettably for the employees of the Regional Office, this 
did not happen. In fact, I believe things actually got worse. I will 
address in more detail later.
    One example is the manner in which Director Rubens handled a 
complaint the Union raised about a hostile work environment in the PMC 
Training Class. Similar problems had occurred in past training classes, 
so it appeared there was a systemic problem with how PMC Management 
approached training. One of VA stated goals is to be an ``employer of 
choice'' and champion the hiring of Veterans. We do this. Many of the 
newly hired employees are Veterans, including Veterans with service-
connected disabilities. Many of these disabilities involve some form of 
Post-Traumatic Stress Disorder (PTSD). In the most recent PMC Training 
Class, there were a number of new hires who fit this profile. One 
employee in particular felt he was being bullied by the Training 
Instructors and they created a hostile work environment for him. His 
attempts to address and resolve the situation with the Training and 
Quality Team Coach were summarily dismissed without consideration. When 
this employee did not show up at his family's house for Christmas 
holidays, they were concerned. They call his friends in the PMC 
Training Class, who were equally concerned. When they went to his 
house, they found him dead. Needless to say, they were very distraught. 
Let me be clear, it is unknown to me if this was a suicide or not. I 
have not and am not stating that this employee's death was directly 
caused by his treatment at the Philadelphia RO. My complaint to 
Director Rubens was that this situation is another example illustrating 
that there is definitely is a pattern of problems in the Philadelphia 
PMC that needs to be stopped.
    Director Rubens told me she would authorize an investigation 
outside the control of PMC and possibly outside of the RO. However, 
what she actually did was authorize two untrained PMC Coaches to 
conduct the investigation. These Coaches were investigating the actions 
of their friends and fellow Coaches and their boss, the PMC Manager. I 
objected that this was a conflict of interest, but Director Rubens 
dismissed my concerns. I was appalled by Director Rubens reneging on 
her word and at her apparent lack of regard for the employees.
    What is interesting to note is that the PMC Training and Quality 
Team Coach is the sister of the Chief of Human Resources. This familiar 
relationship has been called into question as an inherent conflict of 
interest many times because of the various disciplinary actions 
initiated by the PMC Training and Quality Team Coach and processing of 
any grievances against her. Director Rubens was made aware of this 
conflict of interest but continues to allow it.
    When I never received an investigative report on my complaint, I 
asked Director Rubens for it. She told me there were no findings of 
inappropriate actions therefore there is no report. Once again, 
Director Rubens was reneging on her word. It was becoming apparent to 
me that her management philosophy was to deny, cover up and repeat. I 
believe this is a pattern that Congress is familiar with from prior 
dealing with Ms. Rubens. I sent an initial e-mail to Secretary McDonald 
explaining all of this to which he replied stating he would have Ms. 
Gina Farrissee, Assistant Secretary for Human Resources and 
Administration look into it. I have since sent a follow-up e-mail and 
am waiting for a reply.
    Given all the scrutiny of the Philadelphia RO, the OIG 
investigations, two Congressional Hearings, negative publicity about 
the disrespectful and unprofessional comments about the Congressional 
Staff and about Veterans ``Oscar the Grouch'', I would have thought 
that Director Rubens would have changed her behavior. But, 
unfortunately none of these events seem to indicate that her behavior 
has been corrected or improved. With regard to the Oscar the Grouch 
analogy, Director Rubens stated that she was not equating Veterans with 
Oscar the Grouch but rather she was equating employees with Oscar the 
Grouch. I ask you: Do you think Ms. Rubens' clarification is any 
better? Her actions once again are indicative of a deny, cover up and 
repeat management philosophy.
    Knowing employees' morale was low because of the lingering negative 
effects of the pending OIG Report and negative publicity about them, 
Directors Rubens stated in employee group meetings that morale is their 
(the employees') responsibility, not Management's. Her position shocked 
the employees. As stated previously, employees have been under a cloud 
since all the violations were reported and investigated. Regrettably, 
the employees are becoming increasingly numb to statements like this. I 
want to piggy-back on testimony provided to Congress last week by VA 
doctor Maryann Hooker. She presented information on Psychological 
Safety and Workplace Bullying. The negative aspects of these practices 
are the fundamental tenet of VA Management in the Philadelphia RO and 
throughout VBA. These represent some of the ways Management covertly 
retaliates against employees who have the nerve to speak up about 
injustices or any potential problem.
    Philadelphia RO Management constantly holds employees to a higher 
standard of performance and behavior than they do themselves. It is a 
classic double standard, do as I say not as I do. Management would 
never accept an explanation from an employee that they simply 
misinterpreted an order or regulation. Deny--cover up--repeat.
    Another serious problem in Philadelphia RO is the manner in which 
Reasonable Accommodation requests from employees with disabilities and 
Equal Employee Opportunity (EEO) complaints are handled. Many of these 
cases involve Veteran employees who have a Service Connected 
Disability. Many times PTSD is one of these conditions. When the 
Reasonable Accommodation Committee approves an accommodation, many 
times the Division Chief will refuse to implement it. This refusal to 
implement has caused internal friction between the Reasonable 
Accommodation Committee and the Management Staff including HR. This 
then forces the employee to have to file an EEO Complaint. Then the 
same pattern occurs for processing EEO cases. These stalling tactics 
cause unnecessary stress on employees who are already in a stressful 
state. It aggravates their existing physical conditions and causes 
additional emotional damage. In addition, it also costs the VA to waste 
hundreds of thousands of dollars in lost production, settlements and 
judgments.
    Some of these cases were as simple as changing an employee's desk/
seat from under an air vent or approving Telework for medical reasons. 
The actions to deny or delay these resolutions seem punitive and 
retaliatory. Again, deny--cover up--repeat. Not only are the specific 
employees affected by this practice, but it also has a chilling effect 
on other employees as well. There are several pending EEO cases fitting 
this pattern that are scheduled for EEOC Hearings, which could have 
easily been resolved at earlier stages of the process. Now, VA will 
incur added expenses and lost productivity regardless of the outcome. 
Should the employees prevail, then the costs to VA will skyrocket to 
include damages as well as attorney's fees.
    With regards to the issue of Ms. Rubens' reimbursement for 
relocation and other expenses, many employees feel this is just another 
example of the perception that she is above the law and afforded 
special treatment by Senior VACO Management. Several years ago, it was 
common knowledge throughout VBA that when knowledge that former 
Philadelphia RO Director Thomas Lastowka was going to retire that Ms. 
Rubens wanted to take his place. Given the practice in VBA that once 
Senior Leaders and Director had paid their dues by accepting 
assignments across the country, and they were getting close to 
retirement, they could be relocated to a place of their choosing. 
Perhaps this was back to or close to their hometown or to a more 
favorable retirement area. Ms. Rubens fit this description. She had 
paid her dues around the country and in VACO, so she could have her 
pick of where to go. Philadelphia was close to home for her. By all 
accounts Ms. Rubens was going to be the next Director in Philadelphia. 
However, VBA Undersecretary Hickey asked Ms. Rubens to stay in VACO and 
help her for at least two more years. Speculation was that since she 
stayed, she would be guaranteed the Directorship in Philadelphia.
    Consequently, the Philadelphia RO Director position was opened for 
competition. It was filled by Mr. Robert McKenrick, a complete outsider 
to VA. Since he was not familiar with any of the VA processing, 
protocols or history, Mr. McKenrick was dependent on the senior 
Management Staff already in place in Philadelphia RO. In my opinion, 
this was all a set-up to secure Ms. Rubens' relocation to Philadelphia. 
Why? Because in my opinion, I believe the senior Management Staff in 
Philadelphia and then Eastern Area Director, who were all friends of 
Ms. Rubens, sabotaged Mr. McKenrick by not providing him sound 
guidance. Consequently, he couldn't properly handle all the problems 
surfacing in Philadelphia RO. Therefore, this established sufficient 
reasons to have to transfer Mr. McKenrick out of Philadelphia, creating 
an opening for a new Director. Guess who?
    I do not believe the Philadelphia RO Directorship was a problem to 
fill. I believe there were or would have been many qualified candidates 
for the position. And, yes, Diana Rubens would have been one of them. 
But, there was no need for a special bonus to fill this position. Does 
the fact that Ms. Rubens has many friends throughout VA/VBA give the 
appearance of favoritism? Does this fact give the appearance she is 
being protected? With regard to the questions and explanations about 
the relocation expenses, it seems once again the philosophy of deny--
cover up--repeat is being used with regards to Ms. Rubens' relocation.
    It is my hope that justice will be served. Please don't allow the 
deny-cover up-repeat practice to be rewarded or to continue. Drastic 
action needs to be taken to break these practices. Congress has passed 
new laws to give VA Secretary the authority to do this. In my opinion 
and that of many employees and Veterans, the only way VA can restore 
its integrity is to remove the Management Staff in Philadelphia RO. 
Given all that has occurred, we do not think the current management 
staff will be able to fix or otherwise effectuate the changes necessary 
to change the practices and culture at the Philadelphia Regional 
Office.
    Thank you again for affording me this opportunity to testify today.
    Respectfully,
    Joe Malizia, President, AFGE Local 940

                                 <F-dash>

                  Prepared Statement of Diana Blender

    I want to express my gratitude to you for the opportunity to be 
heard today regarding the Philadelphia Regional Office and I am here to 
testify to the events as they happened to me. I am grateful for this 
opportunity to do the right thing for our Veterans. I am going to 
address an outline of events that brought me to the point of filing an 
EEO.
    My name is Diana Blender. My story is one of harassment, 
belittlement and discrimination that occurred to me when I attempted to 
blow the whistle. Sadly for me, when I unearthed the true happenings of 
this department and their gross unjust manipulations of others, I was 
sent on a journey of daily abuse, mental cruelty, emotional torture and 
undeserved corrective job actions.
    When I first came to triage I had great hopes and large amounts of 
pride that I was working with the Department of Veterans Affairs and my 
first supervisor was very pleased with my work ethic and was impressed 
with my dedication to become proficient and effective at my job for the 
betterment of our department.
    Our department was run by a highly proficient supervisor who was 
unceremoniously replaced at whim with an inexperienced, unskilled 
supervisor who had no experience in what the inner workings of our 
department also lacking in any historical knowledge of our operations. 
This new supervisor was totally ineffective in the daily management of 
our department and allowed staff members to realign the direction of 
the department in a highly negative and abusive manner.
    These employees took this opportunity to redirect the most 
difficult work to others, mostly older people. They were harassed and 
verbally abused, all under the watchful eye of an ineffective assistant 
supervisor who allowed this abuse to continue and eventually escalate.
    It was being done to benefit some, but much more importantly to the 
detriment of others, my self-included. We all knew this activity 
existed, had existed for almost three years and management looked the 
other way. At various times, changes were made in the way the mail was 
distributed, to make it fair but these changes were never lasting and 
reverted almost immediately. When I was brave enough to address this 
ongoing situation with my superior's daily abuse to me in the workplace 
became my norm, and this behavior was encouraged my management.
    Most of the targeted victims were older women and men who became 
aware of this abusive situation and addressed it with upper management.
    Upon reporting it to my supervisor the retaliation was abusive, 
offensive and unbearable.

History of Events

        <bullet> This chronology starts in mid-2008, with doing my job 
        and picking up speed as required at my level. I was enjoying 
        the work and proud of my accomplishments. My coach was very 
        supportive and pleased with my progress and success.
        <bullet> The work day started by picking up bundles of random 
        mail (25 pieces each) that had been stamped and bundled the 
        previous day. The work was difficult but manageable. As time 
        went on, I noticed that some of my co-workers were way 
        outperforming and doing exceptional amounts of work, they were 
        coming in extra early to get their mail and removing difficult 
        cases from their bundle and returning them to the stacks for 
        others to complete.
        <bullet> One day when I came in earlier than usual and went to 
        get the mail, I noticed that two of my co-workers who were 
        Claims Assistants, as I was, were separating the mail in to 
        different piles and selecting out the easier work from the 
        harder claims. They then bundled the easier work into the 
        requisite bundles of twenty five and distributed those easier 
        claims to themselves and other friends. The other mail bundles 
        of 25 pieces was left in each Claim Reps mail bin waiting to be 
        picked up for processing and therefore was void of easy mail, 
        which normally formed a part of the average used to determine 
        processing amounts to be done. All of this was easy to discern 
        this since the easier claims were yellow sheeted and much 
        thinner than the normal claims. A stack of 25 easy claims is 
        substantially lower than of 25 regular claims that took more 
        time to process. I noticed that on some people's desks the pile 
        of mail that they were to process was indeed much lower than 
        normal. Those desks were the ones of those consistently 
        preforming way above normal. All of the time-consuming claims 
        had been sorted out of their mail. That evidently was not 
        happenstance.
        <bullet> When I questioned them as to what they were doing, to 
        placate me they let me into their scheme. The next day I 
        reported this activity to my direct supervisor, who I later 
        found out was one of those benefiting from this unfair 
        activity.
        <bullet> Suddenly, I began to receiving a majority of very 
        difficult claims to be processed. The action taken by my 
        immediate supervisor was to start picking apart my daily work 
        and returning pieces for correction of errors. The quality of 
        my work prior to event was never in question. The upshot of my 
        reporting this to him was that I was given only the most 
        difficult claims and being forced to do them at the same rate 
        as the easy ones. Hence, my evaluation was poorer and I was 
        denied a much deserved promotion.
        <bullet> I noticed that no one else, other than myself, were 
        having their claims reviewed and being returned for corrections 
        and it was obvious that I was being discriminated against for 
        reporting the unfair activity in distributing the mail.
        <bullet> Those who were coming in early had no real authority 
        to do so, but it seemed to management to be adventitious since 
        it relieved everyone else from the responsibility of sorting 
        the mail. Indeed management seemed to take the attitude that 
        the discrepancy of work was no concern to them.
        <bullet> It became apparent that those that benefited from the 
        allocation of the easier mail were mostly men in a close knit 
        clique. It was easy to notice the discrimination that was 
        occurring against women in general, and also to older 
        employees, was due to the fact that this particular male clique 
        was now being put in charge. The result of the above mentioned 
        selection of work was used to get rid of co-workers that were 
        either women or people above a certain age.
        <bullet> When I brought my concerns about gender discrimination 
        to upper level management, the response was that there was no 
        gender discrimination because our supervisor in charge was a 
        woman.
        <bullet> After my complaint there was an attempt to correct 
        these issues. Then each person doing processing was given 
        numbers corresponding to the last two digits of the Social 
        Security number on a claim and they were to get only those 
        claims; this was a mixture of the easy and the more time 
        consuming ones. It seemed like an equitable way of dividing up 
        the work, and indeed, it was fair. Unfortunately, this fair 
        distribution of work did not continue for very long.
        <bullet> When the time came for our office to begin to receive 
        work from other Regional Offices, our work seemed to increase 
        10 fold. There was no way we could process the amount of work 
        we were receiving on a daily basis. At one point we had 28,000 
        pieces of mail in shopping carts that we could not process. 
        These pieces of incoming mail sat unopened for months. We also 
        had thousands of pieces of returned mail from claimants that 
        never got addressed and were left unopened. A majority of this 
        mail was a part of EVR's (Eligibility Verification Requests). 
        These eligibility reports were sent out by the VA to claimants 
        to determine if their income and net worth still made them 
        eligible for VA benefits. This was time sensitive material and 
        therefor if it remained unprocessed the individual was cut off 
        from receiving benefits.
        <bullet> Due to the fact that I was an exceptional worker, I 
        was selected to process Congressional Claims. There was a 
        special team in place to process these particular claims. I 
        began that particular work under to tutelage of the 
        Congressional Expert. I felt that handling the Congressional 
        claims were critical. Processing of Congressional mail is also 
        time sensitive. Because of our inability to keep up with our 
        incoming mail, more and more claimants were seeking help from 
        their congressman. At this time, I asked my supervisor on more 
        than one occasion, for permission to go through the 28,000 
        pieces of mail and look specifically for Congressional 
        envelopes. I was told this was not allowed. Management decided 
        to distribute this mail throughout the building on a day when I 
        was not at work. As soon as I returned to work the next day, I 
        began to receive phone calls from other employees throughout 
        the building, asking why they were getting Congressionals. I 
        asked them to send them to me (ASAP) and I would process them.
        <bullet> I emailed my supervisor about the fact that 
        Congressionals were being misdirected and I asked how this 
        happened. She replied to me that the 28,000 pieces of mail were 
        distributed for processing throughout the building. I asked why 
        the Congressionals were not separated since they were done by a 
        special team and should not be done in the same manner as most 
        claims. I asked her if we could email supervisors throughout 
        the building to separate Congressionals and send them back to 
        our office. This was not done.
        <bullet> At this time I made it very clear to her that I felt I 
        was responsible for Congressionals and that what she had done 
        would reflect on me. She replied, ``Don't worry about it.''
        <bullet> Not long after this incident, instead of me retrieving 
        the Congressionals as I recommended, the responsibility of 
        handling the Congressionals was taken away from me and I became 
        management's scapegoat.
        <bullet> After the Congressionals incident, I was once again 
        given an inordinate number of difficult claims. It seems that 
        the old method of being able to rig the mail in favor of the 
        chosen few was back into full force. At this time it was common 
        knowledge that I filed an EEO complaint. So once again, I 
        became a target.
        <bullet> Not only was I being given difficult work, but actual 
        harassment had started to occur. These are just some examples 
        of the bullying I endured on a daily basis.
        <bullet> I was in deep concentration doing work on my computer; 
        there was a loud thump in back of me. I jumped up in fright 
        because everything up until that point in time was calm and 
        quiet and I was completely involved in my work. This loud thump 
        was very unexpected. Tears came to my eyes as I spun around and 
        noticed a co-worker, had quietly snuck up behind me and thumped 
        a load of files on my desk. He walked away holding back his 
        smirks and laughs.
        <bullet> On the morning of April 12, 2011 there was a pile of 
        mail on my desk waiting to be stamped. In accordance with the 
        previous email from my supervisor, we were responsible for one 
        hour of stamping, so I proceeded to stamp mail that was given 
        to me. Suddenly, my male co-worker loomed over me and began 
        abruptly taking my mail away with no explanation. I grabbed the 
        mail back and asked, ``What are you doing?'' He said that he 
        needed mail to stamp and so he was taking mine--ignoring that 
        there were piles and piles of mail on the desks all around 
        waiting for those that had not yet come to work. Clearly, I was 
        his target. He then went away, but soon returned a few minutes 
        later, bending over and shouldering me aside and then scooped 
        up the mail that I was assigned to stamp. Again, when I asked 
        him what he was doing, he replied that our supervisor told him 
        that he should take my mail. When I approached my supervisor 
        about this situation, she said that he approached her and told 
        her that I was not doing my stamping. I then told my supervisor 
        that this was not true and I had been working for some time. 
        Her response was, ``Well I guess he lied.''

    I then approached my co-worker and asked him why he lied, he would 
not answer, but then after a minute he said very loudly (in means to 
humiliate me, so that all could hear), ``I need to get the stamping 
done and you don't even have the right date on it.'' This was false, I 
had just adjusted the date on my stamping machine earlier that day and 
it was obvious on the mail that I had already stamped. The harassment 
was not over. Later that day, he appeared in our desk area where he had 
no business to be. His desk was in the front of the office and mine was 
in the back. Clearly, he had an agenda. He then spoke to my neighboring 
workers (the men) in a loud voice, so that all would hear, ``Us guys 
are working hard because the men get the job done in this place.'' He 
appeared in our area again later that same afternoon, repeating the 
same remarks. He clearly wanted a confrontation with me, but did not 
get one.

        <bullet> The above mentioned incidents were just a fraction of 
        the injustices and harassment I witnessed and endured while 
        working in triage for three years. A woman who sat behind me 
        was fired because she would not sign a document falsely 
        accusing me of something I had not done. Because of this and 
        other hostile actions, I filed an EEO claim and attempted to 
        transfer to another department. For a long time my requests for 
        a transfer went unanswered. I then became a target of their 
        malice.
        <bullet> Once again, I want to express my gratitude to you for 
        the opportunity to be heard. I am grateful for this chance to 
        do the right thing for our Veterans.

                                 <F-dash>

                  Prepared Statement of Rustyann Brown

    Good morning committee members and guests. My name is Rustyann 
Brown. I am a retired federal employee who served 10 years in the Navy 
as a Hospital Corpsman and then years later continued my federal 
service at the Veterans Benefits Administration Regional Office, 
Oakland, CA. I was hired by the VA on September 15, 2009 as a Claims 
Assistant and considered this a wonderful opportunity to continue 
serving my Veteran community.
    I quickly realized that we were being instructed to do things that 
were not in the best interest of the Veteran, but instead, good for the 
employee and management numbers. It started with returned mail piling 
up in huge tubs and no one assigned to research and locate current 
addresses.
    Letters regarding claims issues that we sent to Veterans always 
included the 1-800 # and not our own direct line. This type of 
communication was discouraged as they did not want us bogged down with 
calls. Elderly and terminal Veterans claims would not be moved or acted 
upon; just no sense of urgency for them.
    I began, very quickly, to voice my opinion to my supervisors and 
other employees because we were not doing the right thing. This was a 
regular visit to my supervisor's office. Sometimes as I approached, I 
could see him roll his eyes at me and then dismiss me with, ``Just do 
want you are told to do''. Then one day this supervisor brought me into 
his office and told me that per the director I could no longer do 
volunteer work with the Oakland Vet Center. I had been volunteering to 
help Veterans understand the forms and which ones were needed for their 
situation. When I asked why I was being restricted, I was simply told 
that the director believed that it was a conflict of interest.
    In July 2012 I was promoted to Veterans Service Representative and 
sent to San Diego for what should have been 8 weeks of training. 
Instead after only 3 weeks, my training group of five was brought back 
and placed on a special informal project. We were never given an answer 
as to why we were doing this work that was part of our previous role 
and why we were not allowed to fulfill the remainder of our training 
requirements.
    This project consisted of processing 13,184 informal claims which 
had never been reviewed. We realized that a substantial portion of 
these veterans were now dead and their claims had never been answered; 
nothing had been done to help them.
    If we determined that they were dead or had never filed a formal 
claim, we were instructed to mark them ``NAN'', No Action Necessary, 
our initials, the date and set aside. We began to ask management why 
nothing was being done to take care of these claims as required by 
policy. And also why their criteria for screening these claims was not 
the normal screening practices.
    I would go home on a daily basis telling my husband of the heart 
wrenching letters I had read that day and how so many of these veterans 
and dependents were now dead before anyone had even looked at their 
claim. Even among the ones still living, it had been years, sometimes 
more than 10 or 12 years since they had made the request.
    After several months of screening these claims we were taken off 
the project and relocated to a different team. Our team continued to do 
other special projects for our previous department, IPC and we were 
also finally given claims to begin developing in our new position. This 
was new work for us for which the San Diego training was supposed to 
prepare us.
    I began to see Military Sexual Trauma claims show up in my work 
assignments. These claims are supposed to be developed by the Special 
OPS Team because of the sensitive nature of the claim. But, when I 
would take the claim to my mentor or supervisor and tell them what I 
had and that it needed to be moved to the Special OPS Team, I was told 
to just do the next action and move it on. This was a huge problem for 
me as I am a survivor of military sexual trauma and service connected 
for PTSD due to this. For me, simply reading the statements would bring 
back all the memories I had tried for years to forget. I would spend 
time in the restroom crying or hiding in a stair well so I could be 
alone and not have anyone see the physical reaction I would have to 
these claims.
    A Reasonable Accommodation Request was initiated in May 2013 to 
remove MST and certain other PTSD claims from the claim files I 
reviewed, those that provoked my PTSD symptoms. Under the VA's rules, I 
should have received a response within 30 days. Yet, I did not even 
receive a request for additional medical documentation for over 60 
days, and did not receive a final determination for five months. During 
this time, I continued to review files, and my own PTSD reactions 
intensified in part because of fears that I would have to review the 
files which exacerbated my symptoms. I took FMLA in September to remove 
myself from the situation. While I was on leave on Oct 30, 2013 5 
months after the request was initiated, I received a letter from the 
regional office denying my request without good justification. During 
this entire time, no one at the agency had engaged in the required 
interactive process with me as a disabled employee; no one asked me 
about the details of which files I could not review, and what would 
remedy the situation. Thus, they never learned that it was a smaller 
group of files than they believed, with a simple accommodation which 
would allow me to continue as a Veterans Service Representative. With 
my accommodation denied, and in order to maintain my employment and 
protect my retirement, I agreed to take a downgrade in pay and status 
and was sent back to IPC as a Claims Assistant.
    Then in April 2014, a cart showed up in my work area and when I 
looked at what was on the cart, it was some of those informal claims 
from Nov. 2012.
    I saw my initials on the very first page. I didn't understand why 
they were still hanging around. I took a picture of the cart (shown 
above) and forwarded it to Congressman LaMalfa. 2 other employees and 
I, hand carried approximately 120-140 claims to the OIG office in the 
building, per Congressman LaMalfa's instructions, all of which required 
actions. OIG came in for 16 days to do an investigation in June-July, 
2014.
    After months of being referred to as ``snitch'' or ``NARC' by other 
employees and being isolated with my department, I put in for early 
retirement. I could no longer continue to work under these conditions 
so I retired Sept 15, 2014.
    From that day I have fought to get the word out regarding these 
claims and the Veterans who were ignored. So many of these Veterans had 
letters or personal notes attached begging for help, and we, the VBA 
Oakland, did nothing.
    I do not have General or CEO on my resume', but, I know what was 
done to these veterans was not right. I will carry those memories of 
the letters for the rest of my life. I ask this committee to do 
everything in their power to do the right thing for these veterans, 
their families and the employees that truly want to do the right thing 
without fear of retaliation. Thank you.

                Prepared Statement of Linda A. Halliday

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to discuss the results of the Office of Inspector General's 
(OIG) recently published reports where we substantiated allegations of 
mismanagement and data manipulation at the VA Regional Office (VARO) 
Philadelphia, Pennsylvania and allegations of claims mismanagement at 
the Oakland, California, VARO.\1\ I am accompanied today by Ms. Nora 
Stokes, Director, OIG Bay Pines Benefits Inspection Division and Mr. 
Brent Arronte, Director, OIG San Diego Benefits Inspection Division.
---------------------------------------------------------------------------
    \1\ Review of Alleged Data Manipulation and Mismanagement at the VA 
Regional Office, Philadelphia, Pennsylvania (April 15, 2015); Review of 
Alleged Mismanagement of Informal Claims Processing at VA Regional 
Office, Oakland, California (February 18, 2015).

---------------------------------------------------------------------------
Background

    The number of substantiated allegations and non-compliance with 
Veterans Benefits Administration (VBA) policy at the Philadelphia VARO 
and the inability to maintain records relating to approximately 14,000 
pieces of mail at the Oakland VARO were indicators of leadership 
failures, weaknesses in competencies, or a disregard of existing VBA 
policy. Given the lack of oversight and the significant findings at 
these two offices, we have serious concerns regarding the lapses of 
management at these VAROs to appropriately direct and oversee the wide-
range of benefits and services for which they are responsible. In May 
and June 2014, VBA appointed new directors to these two VAROs.
    Since we first began the OIG independent benefits inspection 
program of VAROs in April 2009 to the present, we have consistently 
reported the need for enhanced policy guidance, oversight, workload 
management, training, and supervisory review to improve the accuracy 
and timeliness of disability claims processing and VARO operations. Our 
benefits inspections also include special reviews of VBA programs and 
initiatives. Since we began our review at the Philadelphia VARO in June 
2014, the OIG initiated 13 additional reviews at 11 other VAROs.\2\ For 
seven of these reviews, VA leadership requested OIG assistance; the 
remaining six were initiated as a result of allegations received from 
anonymous sources. OIG substantiated six of the seven allegations 
received from VA leadership, which included significant volumes of 
unprocessed paper mail and VBA staff and supervisors manipulating 
electronic records by deleting electronic controls needed to manage 
claims processing actions, amending dates of claims, and cancelling 
pending claims. Several of the reviews identified individuals engaging 
in inappropriate activities that eventually resulted in administrative 
sanctions against some employees by VA management, including 
termination. While these allegations have been addressed, we are 
concerned these actions are potential indicators of a systemic trend, 
motivated by a need to enhance reported performance metrics.
---------------------------------------------------------------------------
    \2\ VA Regional Offices: Baltimore, Maryland; Boston, 
Massachusetts; Denver, Colorado, Honolulu, Hawaii; Houston, Texas; 
Little Rock, Arkansas; Los Angeles, California; New York, New York; 
Oakland, California; San Diego, California; St. Paul, Minnesota 
(denotes two separate reviews).
---------------------------------------------------------------------------
    Since the onset of VBA's multiple initiatives to reduce the claims 
backlog, VBA has struggled with maintaining data integrity. In our July 
2014 report on VBA's Special Initiative to review claims pending over 2 
years, we found VBA incorrectly removed all provisionally rated claims 
from its pending inventory.\3\ This process misrepresented VBA's actual 
workload of pending claims and its progress toward eliminating the 
overall claims backlog. We estimated 7,823 provisionally-rated claims 
had been removed from the inventory though they still awaited final 
decisions.
---------------------------------------------------------------------------
    \3\ Review of the Special Initiative To Process Rating Claims 
Pending Over 2 Years (July 14, 2014).

---------------------------------------------------------------------------
Philadelphia VARO

    The Philadelphia VARO is responsible for administering a range of 
benefits and services that total approximately $4.1 billion annually. 
Of VA's 56 VAROs, the Philadelphia VARO also includes one of VA's three 
Pension Management Centers (PMCs) responsible for processing claims for 
pension and survivor benefits. Jurisdiction of the Philadelphia PMC 
includes over 19 Eastern States, Puerto Rico, and some foreign 
countries.\4\ The PMC also processes cases identified through 10 
computer-match programs used to assess the integrity of information 
provided by pension recipients. The VARO also operates two National 
Call Centers.
---------------------------------------------------------------------------
    \4\ The Philadelphia PMC jurisdiction does not include Central and 
South American countries.
---------------------------------------------------------------------------
    In late May 2014, we received numerous allegations on the OIG's 
Hotline from different sources pointing to serious concerns within the 
Philadelphia VARO. Many of these allegations were indicative of serious 
mistrust between VARO staff and management. Allegations and concerns we 
identified affected claims processing activities to include VARO 
management, and the management of the Veteran Service Center (VSC), 
PMC, two call centers, and an Insurance Center.
    Due to the multitude and broad range of allegations, we assembled a 
multidisciplinary team comprised of OIG benefits inspectors, auditors, 
and administrative and criminal investigators. Our work included 
interviewing VARO staff from all operational areas to include clerical, 
technical, and managerial staff. We also conducted a complete physical 
inspection of all VARO workspace, including offsite locations that 
house the Philadelphia National and Pension Call Centers. During the 
course of our review, we issued two management advisory memorandums to 
the Under Secretary for Benefits (USB) on the need to take immediate 
corrective action regarding misapplication of Fast Letter 13-10, 
``Guidance on Date of Claim Issues,'' and on working conditions at an 
annex facility on June 20, 2014, and July 23, 2014, respectively.\5\ 
Overall, we conducted over 100 interviews with VARO management and 
staff to assess the merits of more than 100 allegations and complaints 
as well as other areas of non-compliance OIG staff observed. 
Allegations of wrongdoing at the Philadelphia VARO included issues such 
as ``cooking the books,'' referring to data manipulation and taking 
actions that inappropriately reduced workload backlogs, mail 
mismanagement, and the potential processing of duplicate payments. 
Mismanagement of VA resources resulted in compromised data integrity, 
lack of financial stewardship, and lack of confidence in management's 
ability to effectively manage workload and to protect documents 
containing personally identifiable information.
---------------------------------------------------------------------------
    \5\  These management advisory memorandums are included in the 
OIG's report, Review of Alleged Data Manipulation and Mismanagement at 
VA Regional Office Philadelphia, PA (April 15, 2015).
---------------------------------------------------------------------------
    There is an immediate need to improve the operation and management 
of the Philadelphia VARO and to take actions to ensure a more effective 
work environment. We identified serious issues involving mismanagement 
and distrust of VARO management impeding the effectiveness of its 
operations and services to veterans. Further, the extent to which 
management oversight has been determined to be ineffective and/or 
lacking requires VBA's oversight and action. Moving forward, VBA and 
VARO leadership must work to restore the trust of employees and promote 
open communication at the Philadelphia VARO. The VARO can be successful 
by working transparently and engaging the staff to work together to 
deliver vital services and benefits to veterans and their families as 
it oversees the administration of approximately $4.1 billion in annual 
eligibility payments.
    Overall, we made 35 recommendations for improvement encompassing 
operational activities relating to data integrity, public contact, 
financial stewardship, mail mismanagement, and other areas of concern. 
The USB agreed with 32 of the 35 recommendations that included target 
completion dates for corrective actions that extend through December 
2015. The USB deferred concurrence on three recommendations pending the 
outcome of a VBA Administrative Investigation Board, which was convened 
as a result of Recommendation 1 in our report. (The OIG's review did 
not identify specific individuals responsible for the mismanagement 
outlined in this report because this responsibility is a Department 
program function outside the scope of the role of the Office of Audits 
and Evaluations, which is to identify conditions and causes adversely 
affecting organizational performance.) Given the serious nature of the 
issues identified, the OIG plans to follow up at the appropriate time 
and assess the effectiveness of the corrective actions. Noteworthy, 
while VA took actions to fix problems in the VARO, we recently received 
additional information that some of the problems identified in this 
report continue to negatively impact some areas of claims processing 
performance.

Data Integrity

    Misapplication of Fast Letter 13-10, ``Guidance on Date of Claim 
Issues,'' resulted in incorrect dates of claims being entered in VBA's 
electronic system of record, alteration of quality reviews by 
supervisory staff, and delays in entering appealed claims in VBA's 
appeals tracking system. We substantiated an allegation that VARO staff 
misapplied the guidance in Fast Letter 13-10. We observed and 
determined VARO staff used the guidance to manage mail backlogs within 
the PMC and to adjust dates of claims for claims that were 125 days and 
older in the VSC. Thus, mismanagement of previously unadjudicated 
claims was considered prevalent in the PMC and the VSC.
    We also determined the Fast Letter guidance created opportunities 
for negative consequences when VARO staff did not use the required 
electronic designators or provide required notification to VBA's 
Compensation Services when adjusted claims were completed. Because this 
guidance was not followed, the expected audit trail was removed. 
Without an audit trail, the Philadelphia VARO cannot identify the 
claims with adjusted dates, nor can they determine the frequency in 
which VARO staff misused the guidance to adjust dates or the impact the 
adjusted dates have on claims processing timeliness.
    Overall, we concluded the guidance in the Fast Letter was flawed 
because it required claims processing staff to apply current dates to 
older claims that had been previously overlooked. This practice is not 
in line with VA core values of integrity. Additionally, by adjusting 
the dates of older claims to reflect current dates, the aging claims 
may not have received expedited processing actions--ultimately delaying 
decisions and benefits delivery to veterans and their dependents. 
Further, the practice of applying a current date to aging claims calls 
into question the reliability of VBA performance measures related to 
timeliness.
    We also substantiated that a supervisor altered the results for 52 
of the 86 individual quality reviews (60 percent) we examined. VARO 
staff had completed the quality reviews between May 8, 2014, and July 
30, 2014. We also determined VSC management was complicit in these 
actions because it was aware of the supervisor's actions but did not 
take actions to stop the practice. VSC management excused the 
supervisor's actions, explaining that some claims processing staff were 
unaware that they were required to update certain VBA systems. 
According to VBA policy, individual quality reviews are intended as a 
performance measure to ascertain the quality element in that 
individual's performance standard. Altering the review results by a 
third party renders the resources invested in those reviews meaningless 
and does nothing to promote quality and consistency among decision 
makers in VAROs. Moreover, these actions may have compromised the 
accuracy of claims processed at the Philadelphia VARO. Further, because 
individual quality review results were altered for some staff, we 
consider the accuracy rates for claims processing staff at the 
Philadelphia VARO to be unreliable.
    We did not substantiate the allegation that VARO staff processed 
less complicated appealed claims by ``cherry picking'' easy cases out 
of docket order. The Philadelphia VARO does not have control over 
appealed claims under the jurisdiction of the Board of Veterans 
Appeals. As such, VARO staff could not influence how the Board of 
Veterans Appeals controlled or managed its workload. However, while 
assessing the merits of this allegation, we determined VARO staff did 
not enter Notices of Disagreements (NOD) in the Veterans Appeals 
Control and Locator System (VACOLS) within 7 days as required in VBA 
policy. An NOD is a written communication from a claimant expressing 
disagreement with a decision and desiring to contest the decision; it 
is the first step in the appeals process. VARO staff use VACOLS to 
control and track veterans' appeals and manage the appeals workload. 
The effectiveness of VACOLS is dependent upon the quality of 
information entered. As of June 30, 2014, VARO staff working in the VSC 
exceeded the 7-day standard by more than 4 months on average. Delays in 
recording NODs affect the integrity of VACOLS data and misrepresent 
performance metrics related to the number of appealed claims pending 
and the time it takes VARO staff to complete them. In addition, 
National Call Centers rely on accurate and timely entries in VACOLS to 
respond to inquiries from callers.
    Further, in our report, Audit of VA Regional Offices' Appeals 
Management Processes, we observed VARO staff did not record 145 appeals 
in VACOLS, which delayed processing for an average of 444 days.\6\ 
Consequently, we recommended and the USB agreed to develop and 
implement a plan to provide adequate oversight to ensure staff record 
NODs into VACOLS. However, based on our review of the Philadelphia VARO 
and our prior audit results, we are concerned that entering NODs into 
VACOLS continues to be a systemic issue affecting timely processing 
actions for appealed claims as well as data integrity relating to the 
number of appealed claims pending in VBA's inventory.
---------------------------------------------------------------------------
    \6\ Audit of VA Regional Offices' Appeals Management Processes (May 
30, 2012).

---------------------------------------------------------------------------
Public Contact

    We substantiated an allegation that the PMC had not provided 
responses to more than 31,000 inquiries received through VA's Inquiry 
Routing and Information System. On average, the inquiries had been 
pending for 312 days--significantly exceeding the VBA's standard that 
90 percent of these inquiries should be responded to within 5 business 
days. We determined the mismanagement at the Philadelphia VARO and the 
Eastern Area Office, which has management oversight responsibility for 
the Philadelphia VARO, failed to ensure adequate staffing and 
prioritization of this workload. Consequently, inquiries from veterans, 
widows, and potential beneficiaries were unanswered. Additionally, we 
identified 2 instances from our 30 sample cases where family members 
notified VA of the deaths of widows who were receiving death pension 
benefits. However, PMC staff did not take timely action to review the 
inquiries so the monthly pension benefits payments continued to be 
paid. Despite notifications of deaths in these two cases, the estates 
of the deceased beneficiaries received improper payments totaling 
$10,056 over a period of 3 months and 5 months respectively.

Financial Stewardship

    VBA has a fundamental responsibility to be effective stewards of 
taxpayer resources and to safeguard those resources against improper 
payments. Broadly defined, an improper payment is any payment that 
should not have been made or that was made in an incorrect amount under 
statutory, contractual, administrative, or other legally applicable 
requirements.
    We substantiated the allegation that VARO staff did not prioritize 
the merging of duplicate records, which ultimately resulted in improper 
benefits payments totaling about $2.2 million to 56 beneficiaries. We 
also found that VBA's national duplicate payment report for fiscal year 
(FY) 2012 to FY 2014 only identified 7 (13 percent) of the 56 
beneficiaries we found receiving improper payments. Further, once 
improper payments were identified, VARO staff did not take, or delayed 
taking timely actions to terminate and recoup the improper payments. We 
shared this information with VARO management early in our process on 
October 2, 2014, so it could take corrective actions. However, as 
recently as April 6, 2015, we received an allegation and a listing of 
duplicate records that allegedly had been identified in 2012, but had 
not been corrected. We reviewed the listing the complainant provided 
and confirmed that the duplicate records had not been consolidated. We 
also confirmed that no improper benefits payments were being made.

Mail Mismanagement

    As early as December 2013, OIG criminal investigators received an 
allegation that a VARO employee hid mail in a file room. The allegation 
was substantiated but criminal prosecution did not occur because there 
was no evidence that the documents had been destroyed, the employee no 
longer worked for VA, and VARO management had the mail in its 
possession and had implemented a plan to process the mail. Because we 
continued to receive complaints and allegations about VARO staff hiding 
or inappropriately destroying mail during our current review, we 
conducted a physical review of the VARO's workspace. During our 
physical inspections of the workspace, we observed several areas of 
mail management that required further review by OIG staff.
    We are aware of VBA's transition to electronic mail processing 
versus paper-based mail processing. Reportedly, all 56 VAROs are 
processing mail under VBA's Centralized Mail Initiative as of January 
2015. Under this initiative, paper mail is routed directly to scanning 
sites where it is scanned directly to the electronic folders. The OIG 
has not yet assessed the effectiveness of the Centralized Mail 
Initiative. However, during the transition from a paper to electronic 
process, VBA must continue to ensure claims processing staff continue 
to process paper mail accurately and timely. Our review of mail 
management practices at the Philadelphia VARO revealed weakness on two 
levels. At the VARO level, management did not prioritize or provide 
adequate resources to ensure mail was processed timely. We also 
determined VBA's internal reviews of the Philadelphia PMC, conducted by 
the Pension and Fiduciary Service, were ineffective because it did not 
always follow up on prior recommendations for improvement or open 
action items.
    VARO mail consists of various categories with multiple subclasses 
of mail. For example, incoming mail pertains to claims or inquiries and 
includes subclasses such as drop or file mail. Effective mail 
management is crucial to the success and control of workflow within the 
VARO. VBA policy emphasizes the importance of mail management by 
requiring staff to open and date stamp claims-related mail in the 
mailroom and route it to the appropriate location within 6 hours of 
receipt.

Incoming Mail

    Contrary to VBA policy, VARO management designated responsibility 
for opening and date stamping incoming mail to locations outside the 
mailroom. Consequently, mail was not always opened and date-stamped 
within 6 hours of receipt. Because mail was not always date stamped on 
the date it was received at the VARO , staff routinely adjusted date 
stamps to reflect an earlier date. To document the date VARO staff 
actually received mail, staff annotated the date mail was received on a 
piece of paper on top of a bin of mail. Claims-related mail that is not 
properly date stamped can affect benefits payments and misrepresent 
claims processing timeliness measures reported to stakeholders.

Access and Control of Date Stamping Equipment

    Typically, VA staff use electronic date stamps to annotate the date 
a claim is received at a VA facility; generally, this date is also the 
date used to begin paying benefits, if awarded. We confirmed VARO 
management did not ensure staff minimized the use of date stamps or 
that access and use of the equipment was limited to authorized staff. 
Inadequate security of date stamping equipment and uncontrolled access 
to the keys needed to adjust the date mechanism in the machines puts 
VAROs at increased risk for abuse. For example, as indicated in another 
report, Review of Alleged Data Manipulation of Veteran Claim Dates, 
Boston VA Regional Office, we substantiated lapses in oversight at the 
Boston VARO provided the opportunity for a Veterans Service Officer 
(VSO) to manipulate dates of claims prior to submitting them to the 
VARO for processing.\7\ Because Boston VARO management did not ensure 
only authorized staff accessed and used date stamping equipment, the 
VSO was able to date stamp documents unassisted by VARO staff. He was 
then able to slip blank sheets of paper in between claims documents and 
then later affix those dates to claims documents that he had not 
submitted timely.
---------------------------------------------------------------------------
    \7\ Review of Alleged Data Manipulation of Veteran Claim Dates, 
Boston VA Regional Office, MA (April 15, 2015).

---------------------------------------------------------------------------
Unscanned Mail

    VARO staff working at the PMC did not prioritize or provide 
adequate resources to ensure staff timely scanned documents to Virtual 
VA (VVA)--VBA's electronic repository. On June 19, 2014, we observed 68 
boxes of mail, which VARO management described as a backlog of 
completed claims waiting for VARO staff to scan to VVA. When we 
returned on June 23, 2014, 48 boxes were remaining. Management 
explained that staff had scanned 20 boxes to VVA over the weekend. We 
estimated the remaining 48 boxes contained approximately 16,600 
documents relating to claims VARO staff had completed. We sampled 160 
of the documents that VARO staff had completed but had not been scanned 
to VVA and noted the documents contained VARO date stamps ranging from 
September 2009 through June 2011. VBA policy requires decision makers 
to consider all relevant documents before deciding claims. The 
relevancy of documents sitting in bins cannot be determined and as 
such, creates unnecessary risk that may affect the accuracy of benefits 
and entitlement decisions.

Returned Mail

    We also confirmed that VARO management did not ensure PMC staff 
processed returned mail timely. We observed 98 boxes of mail containing 
an estimated 22,400 pieces of mail that had been returned as 
undeliverable by the United States Postal Service. We sampled 96 pieces 
of mail and observed the returned mail had been received at the 
Philadelphia VARO between August 2010 and February 2013, and 3 of the 
documents sampled had the potential to affect benefits. For example, on 
November 30, 2011, VA sent a letter notifying a veteran's designated 
beneficiary for Government life insurance benefits of that veteran's 
death. The letter also included documentation needed to claim the life 
insurance benefit. Because VARO staff did not initiate any action to 
identify a correct address, the beneficiary of the life insurance 
benefits may be unaware of entitlement to the life insurance benefits. 
Additionally, VBA's Pension and Fiduciary Service site review teams 
also noted weaknesses related to processing returned mail on two prior 
site review visits, yet, these conditions were never addressed.

Military File Mail

    We substantiated the allegation PMC staff mishandled military file 
mail. We projected about 6,416 documents categorized as unidentifiable 
could be identified using VBA systems. We found PMC management 
oversight lacking because it did not conduct reviews to ensure staff 
performed comprehensive searches using all VBA systems or attempted to 
contact the correspondent when telephone numbers and addresses were 
provided on the unidentified mail. Had management conducted periodic 
reviews, it would have realized some of the military file mail 
categorized as unidentifiable could be identified. Additionally, in 
August 2014, during a return visit to the Philadelphia VARO, we 
judgmentally sampled 26 documents pending a final review before 
management approved them for destruction and found 11 of the 26 
documents could be identified using VBA systems. We could not identify 
the remaining 15 documents; however, 14 contained telephone numbers 
and/or a return mailing address. We did not find any instance where 
staff destroyed military file mail prematurely; however, lapses in 
management oversight and the lack of accountability for screening 
military file mail prior to destruction increased the risk of this 
occurring.

Drop Mail

    The Philadelphia VARO stored approximately 14,675 pieces of 
veterans' paper mail instead of shipping this claim-related mail to one 
of VBA's contracted scanning facilities for conversion into the 
electronic processing environment. Our random sample of this mail 
identified nine pieces of mail affected or had the potential to affect 
benefits. For example, a veteran submitted an informal claim that was 
not associated with the veteran's electronic record and therefore not 
available to VARO staff when the disability claim was decided. Because 
the mail was not available, VARO staff did not know the veteran's claim 
for benefits was received earlier which resulted in assigning an 
incorrect date for benefits payments to begin.

Personally Identifiable Information

    We discovered VA-related documents containing Personally 
Identifiable Information (PII) inappropriately stored in an area 
accessible to VA and non-VA employees. The documents containing PII 
belonged to veterans and VARO employees. The documents containing PII 
consisted of VA claim and insurance numbers, employee personnel action 
forms, and 83 signature cards belonging to credit union members dated 
from 1961 through 1998. The signature cards contained names, bank 
account numbers, birth dates, Social Security numbers, home addresses, 
and employment information. Forty of the credit union signature cards 
listed the Philadelphia VARO as their employer. Management did not 
routinely conduct physical inspections of all space accessible to VARO 
staff and were unaware documents containing PII for veterans and 
employees were inappropriately stored in the interior office of a 
kitchen.

Documents Retained Beyond Records Control Schedule

    We could not substantiate the allegation that VARO management hid 
two pallets containing boxes of potentially old claims from the view of 
visiting Members of Congress because OIG teams were not physically 
present at the time of the visit on July 28, 2014. However, our review 
of the contents of 32 boxes on the 2 pallets revealed Insurance Center 
managers were non-compliant with VBA's record control schedule. The 
personnel-related documents for Insurance Center employees had been 
inappropriately retained from FY 2006 through FY 2012. Housing and 
maintaining unnecessary and outdated personnel-related records covering 
6 fiscal years resulted in ineffective use of VA space and equipment.

Working Conditions and Morale of VARO Staff

    We received numerous complaints about working conditions at a 
geographically separated annexed worksite of the VARO and based on our 
own observations, we alerted the USB of conditions violating 
Occupational Safety and Health directives. We are also concerned about 
the reasonableness of new performance standards requiring staff to 
complete calls, on average in less than 8 minutes. The timeliness 
standards may result in compromised customer service to many callers, 
such as the elderly, those with hearing impairments, and in responding 
to tearful or irate callers.

Oakland VARO

    The Oakland VARO and its satellite office in Sacramento is 
responsible for compensation claims, public contact, vocational 
rehabilitation and employment. Combined, these programs annually total 
approximately $1.9 billion.
    On July 10, 2014, the OIG received a request for assistance from 
the USB to review allegations that the Oakland VARO had not processed 
nearly 14,000 informal requests for benefits dating back to the mid-
1990s. In addition, Congressman Doug LaMalfa also requested the OIG 
review these allegations. A complainant also alleged that those 
``informal claims'' were being improperly stored.
    VA considers an informal claim to be any type of communication or 
action indicating intent to apply for one or more benefits under the 
laws administered by VA. Upon receipt of an informal claim, and when no 
formal claim is on record, VA will forward an application form to the 
claimant for completion. If a formal claim is received within 1 year of 
the date VA sends the application form to the claimant, VA considers 
the date of receipt of the informal claim as the effective date of 
claim. As such, an informal claim is not tracked in VBA's performance 
metrics. Further, an informal claim does not impact data integrity. 
However, informal claims that staff do not process accurately, could 
lead to delays in veterans receiving timely benefits.
    In July 2014, we conducted an unannounced onsite review at the 
Oakland VARO and its Sacramento satellite office to assess the merits 
of the allegations. Our work included interviewing VARO staff from the 
VSC to include technical and managerial staff. We conducted a complete 
physical inspection of all VARO workspace, including an offsite 
location in Sacramento.
    We substantiated the allegation that Oakland VARO staff had not 
processed a significant number of informal requests for benefits dating 
back many years and improperly stored formal claims. We could not 
confirm that VARO staff processed all of the informal claims found in 
October 2012, nor could we confirm the initial list contained 13,184 
informal claims because of management's poor recordkeeping practices. 
Further, we substantiated Oakland VARO staff did not properly store 537 
informal claims because these claims were not discovered until the 
office was undergoing a construction project. Some of these informal 
claims dated back to July 2002. The 537 informal claims, documented by 
VARO management in June 2014, appear to be part of the original list 
found by VBA's special review team in October 2012; however, poor 
recordkeeping practices limit our ability to confirm this fact.
    VARO staff did not perform an adequate review or take actions 
needed on all of the unprocessed informal claims found by staff when 
the office was undergoing a construction project. The USB testified 
that none of the documents required any action. However, we found that 
7 of the 34 documents in our sample (21 percent) were informal claims 
that had not been processed. Further, Oakland VARO staff had repeatedly 
reviewed these seven informal claims from December 2012 through June 
2014 without taking additional action as required.
    We issued a report on February 18, 2015. The Oakland VARO Director 
concurred with our three recommendations. However, in March 2015, a 
complainant, who had kept a list on a work computer of names from the 
initial alleged list of approximately 14,000, came forward with 
additional information regarding the issue of poor recordkeeping. This 
complainant provided additional details that were not disclosed during 
our initial review. Subsequently, the VARO Director informed the OIG a 
partial list containing 1,308 unique documents was discovered. Both the 
Oakland VARO and the OIG now have a copy of that list. The OIG has 
selected a statistically random sample from that list and is currently 
reviewing the documents. The preliminary results of that small sample 
indicate that both formal and informal claims are included in the 
partial list that was recently obtained.

Conclusion

    Our findings at these two VARO s raise serious concerns about VARO 
management's ability to appropriately direct and oversee the wide range 
of benefits and services for which they are responsible. It is clear 
that VBA needs to take immediate action to improve the operation and 
management at these facilities and to re-examine the effectiveness of 
its internal processes to ensure the accuracy and delivery of benefits 
and services to veterans and their families. The OIG will continue to 
provide oversight of VBA operations and monitor implementation of our 
recommendations.
    Mr. Chairman, this concludes my statement and we would be happy to 
answer any questions that you or Members of Committee may have.

                                 <F-dash>

                Prepared Statement of Mr. Danny Pummill

    Chairman Miller, Ranking Member Brown, and Distinguished Members of 
the Committee, thank you for the opportunity to discuss the Veterans 
Benefits Administration's (VBA) operations and progress made at the 
Philadelphia and Oakland Regional Offices (RO). I am accompanied today 
by Ms. Diana Rubens, Director of the Philadelphia RO; Ms. Lucy Filipov, 
Assistant Director of the Philadelphia RO; Ms. Julianna Boor, Director 
of the Oakland RO; and Ms. Michele Kwok, Assistant Director of the 
Oakland RO.

Progress and Results

    First, I would like to provide an update on the tremendous progress 
we have made in transforming the claims process at the national level. 
VBA has reduced the disability claims backlog by almost 70 percent, 
from the peak of 611,000 in March 2013 to approximately 188,000 today. 
Last year, VBA completed a record 1.32 million disability rating 
claims, and we are on track to meet or beat that record this fiscal 
year. Approximately 95 percent of the claims in our inventory are now 
being processed electronically in our new digital environment, the 
Veterans Benefits Management System (VBMS). The average age of the 
pending claims in the inventory is now 132 days, down 150 days from the 
peak of 282 days in February 2013. Similarly, the average time to 
decide a claim has improved by 176 days, from a peak of 348 days to 172 
days. The reduction in the disability rating claims backlog and our 
increased production have not come at the expense of quality, which has 
also improved significantly. We have increased our claim-based accuracy 
from 86 percent in 2011 to 91 percent today. When we measure accuracy 
at the issue level within each claim, our accuracy level is 96 percent. 
At the same time, we remain focused on all of the other workload 
components of the wide range of benefit programs we are privileged to 
administer.
    VBA has the incredibly important mission of effectively delivering 
the benefits our Nation's Veterans and their families have earned and 
deserve. In carrying out its mission, VBA employees have adopted and 
embraced the Department's core values of Integrity, Commitment, 
Advocacy, Respect, and Excellence--appropriately captured in the phrase 
``I CARE.'' Our workforce includes over 21,000 employees, 53 percent of 
whom are Veterans themselves. VBA's progress in reducing the claims 
backlog would not be possible without our dedicated workforce and 
leadership throughout the organization.

Employee Engagement

    VBA needs the talents of each and every one of our employees to 
succeed in reaching our goals. Our employees demonstrate every day that 
they are motivated to make a difference in the organizations where they 
work and in the lives of those they serve. They are dedicated to our 
unique mission of service to America's Veterans, their families, and 
Survivors.
    We recognize our responsibility for developing, sustaining, and 
nurturing our employees--highlighting their accomplishments, addressing 
their concerns, and giving them the training and tools they need to 
deliver quality benefits and services. Our Directors use a number of 
innovative methods to facilitate communication, identify and address 
issues of concern, and help employees understand the importance of the 
work that they do. Many Directors have invited Veterans to their RO to 
meet and speak with employees so they gain a better understanding of 
the daily challenges disabled Veterans face. Town hall meetings are 
held to improve communication with management, and many managers also 
hold recurring team meetings. VBA established Change Management Agents 
at every RO to plan for and oversee the implementation of VBA's 
transformation initiatives at their local facility and facilitate 
communications between employees and managers. The Agents create 
awareness and understanding of VBA's Transformation goals and plans, 
offer training, seek employees' input, and listen to their feedback on 
our Transformation efforts.
    VBA also utilizes the Under Secretary for Benefits (USB) pulse 
checks to engage employees. Pulse checks provide an open dialogue 
between front-line employees--supervisory employees are directly 
precluded from participating--and the USB. This open, honest, and 
transparent dialogue allows employees to directly communicate concerns, 
issues, and suggestions to the USB on topics ranging from VBMS, to 
mandatory overtime and new performance standards. The purpose of these 
events is to improve communication and encourage employees to raise all 
issues to VBA leadership, while ensuring no retaliation for frank 
assessments of initiatives.
    VBA encourages all employees to participate in the annual All 
Employee Survey, the results of which are carefully assessed and 
analyzed to focus on areas needing improvement to promote a healthy and 
motivated workforce. RO Directors are required to select and seek 
improvement in two measures where they have influence. These measures 
are evaluated by their Area Director at the end of the performance 
period.

Whistleblower Protection

    The Department of Veterans Affairs (VA) is committed to 
consistently improving processes and programs and to ensuring fair 
treatment for whistleblowers who identify areas for improvement. 
Secretary McDonald talks frequently about his vision of ``sustainable 
accountability,'' which he describes as a workplace culture in which VA 
leaders provide the guidance and resources employees need to 
successfully serve Veterans, and employees freely and safely inform 
leaders when challenges hinder their ability to succeed. We need a work 
environment in which all participants--from front-line staff through 
lower-level supervisors to senior managers and top VA officials--feel 
safe sharing information and observations for the benefit of Veterans 
and as good stewards of the taxpayers' money.
    In recent months, VA has taken several important steps to improve 
the way we address opportunities for operational improvement and to 
ensure that those who identify those areas are protected from 
retaliation. Last summer, the Secretary established the Office of 
Accountability Review, or OAR, to ensure leadership accountability for 
whistleblower retaliation and other serious misconduct. VA has also 
improved its collaboration with the Office of Special Counsel (OSC), 
which is the independent office responsible for overseeing 
whistleblower disclosures and investigating whistleblower retaliation 
across the Federal Government. VA has negotiated with OSC an expedited 
process to speed corrective action for employees who have been subject 
to retaliation. That process is working well, and we are now beginning 
a collaborative effort with OSC's Director of Training and Outreach to 
create a robust new training program to ensure all VA supervisors 
understand their roles and responsibilities in protecting 
whistleblowers.

Leadership Accountability and Coordination

    VBA holds employees at all levels of the organization accountable 
for performance as we continuously strive to fulfill our commitment to 
providing timely and accurate benefit decisions. Objective measures and 
performance standards are used to make basic determinations that our 
managers and employees are meeting or exceeding their job requirements. 
Procedures are in place to reward our best performers and to work with 
employees who need additional training to improve performance.
    All VBA senior managers of ROs are held accountable for effective 
workload management and the resulting performance of their offices. 
Performance is evaluated against national and RO-specific targets that 
are based on our strategic goals. The targets are established at the 
beginning of each fiscal year and account for a variety of measures, 
including timeliness, production, and inventory. Performance 
expectations are established based on the previous year's performance, 
giving consideration to current staffing and anticipated receipts at 
each RO. There are several layers of oversight including VBA's Office 
of Field Operations and the Area Offices that routinely review the 
performance of ROs and their leadership teams. The performance is 
measured against established targets, workload, and staff turnover.
    VBA aggressively monitors RO workload trends and performance, and 
as negative trends develop, Area Directors establish and monitor 
performance improvement plans for RO Directors to ensure appropriate 
attention is given to problem areas. Performance improvement plans 
identify areas for improvement such as production capacity, quality, or 
timeliness. Often, a challenged RO will engage a high-performing 
station to share best practices.
    VBA's Stat Reviews are a performance technique and tool using 
statistical data and visual displays of those data to monitor progress 
and improve performance. This monthly process involves in-depth 
performance metric reviews with the USB and other top VA leaders, as 
well as VBA's Office of Field Operations and other members of the VBA 
leadership team, to analyze and manage performance more effectively. 
Every RO participates in the Stat Reviews to ensure alignment across 
ROs on transformation initiatives and that best practices and lessons 
learned are shared quickly across leadership teams.
    VBA's Stat Reviews are based on highly successful performance 
management programs conducted Government-wide. The USB sits with RO 
Directors in the half-day meeting to discuss challenges and successes, 
using extensive data-driven performance measures for accountability. 
This allows VBA leadership to more easily identify what improvements 
are needed to produce desired performance results. Stat Reviews also 
help VBA leadership understand what is or is not working, while 
motivating RO managers and employees to focus their energy and 
creativity on achieving specific results. The Stat Review process 
encourages focus on accountability to achieve workload performance 
metrics and sharing of best practices throughout VBA.

Improvements at the Philadelphia RO

    The dedicated employees of the Philadelphia RO have demonstrated 
commitment to improving the delivery of benefits to Veterans and their 
families. The Philadelphia RO asked every employee to recommit to the I 
CARE values last month, putting Veterans and their needs first. The 
employees of the Philadelphia RO take this commitment to heart, and 
many of our employees in Philadelphia are Veterans themselves.

Overview of the Philadelphia RO

    In July 2014, Ms. Diana Rubens was appointed as the Director of the 
Philadelphia RO. As the Director, Ms. Rubens is responsible for 
administering a range of VA benefits to over 1 million Veterans and 
their families living in eastern Pennsylvania, southern New Jersey, and 
Delaware. These services include administration of compensation and 
pension benefits, national call center services, and vocational 
rehabilitation and employment benefits, which total approximately $4.1 
billion in annual payments.
    Upon her arrival in Philadelphia, Ms. Rubens immediately began 
building and strengthening working relationships with RO employees and 
local stakeholders by expanding and improving communication and 
focusing on creating a culture that puts Veterans and their eligible 
beneficiaries first. A number of initiatives were launched in her first 
several months at the RO and continue now, including:

<bullet> Expanding avenues for communication with employees, to discuss 
issues, ideas, and ways to improve the RO;
<bullet> Conducting training for all supervisors to increase 
communication and provide tools for supervisors to build trust and 
improve interactions with employees;
<bullet> Improving the physical appearance of RO space, including the 
public contact area, to enhance the environment for both Veterans and 
employees; and
<bullet> Improving communication and relationships with external-VBA 
stakeholders.

    Our transformation efforts have improved performance at the 
Philadelphia RO. The backlog of Veterans' claims in eastern 
Pennsylvania has been reduced from its peak of 13,000 claims in 
December 2011 to 5,400 claims today, an improvement of 58 percent. 
Veterans there are also waiting less time for decisions. The average 
number of days pending has been reduced from a peak of 264 days in 
April 2013 to 159 days today. The progress is not at the expense of 
quality, which remains high at 91 percent at the claim level and 98 
percent at the issue level.
    The Philadelphia Pension Management Center (PMC) has also made 
tremendous strides in improving performance. The PMC oversees Veterans 
pension and all Survivors' claims for the Eastern United States, Puerto 
Rico, and most foreign countries. The PMC's backlog was reduced by 94 
percent, from its peak of 13,300 claims in July 2013 to 763 claims 
today. Timeliness has also improved from a peak of 196 days in November 
2012 to approximately 60 days today. Accuracy is currently at 100 
percent. While there is more work to do, improvements have been 
initiated or achieved amidst various challenges since Ms. Rubens' 
arrival in July 2014.

Leadership and Employee Morale

    First, let me assure you that since Ms. Rubens assumed her new 
duties as the Director of the Philadelphia RO in July 2014, she is 
committed to fostering an environment and culture where employees feel 
safe to raise issues. Protecting whistleblowers from retaliation is a 
key component of carrying out VA's core mission in accordance with its 
institutional I CARE values. Veterans expect VA leadership to cultivate 
an environment that empowers employees and demands accountability in 
service to our Veterans. The RO is making progress by participating in 
mandatory whistleblower training to ensure every supervisor at the RO 
understands retaliation is not tolerated and adheres to the I CARE 
values. Ms. Rubens is working to ensure every employee feels safe in 
raising concerns and is protected from any retaliation.
    In addition to these efforts, the Philadelphia RO's management team 
has taken a multitude of steps to engage employees, such as:

<bullet> Inviting all employees to meet with Ms. Rubens in one of the 
40 town hall meetings that she had held/led since August 2014 so she 
can directly hear their concerns, respond, and take action on issues 
raised;
<bullet> Reenergizing the RO's Collaborations Strategies Group 
comprised of employees who have volunteered to lead committees to help 
improve the Philadelphia RO;
<bullet> Establishing monthly Listening Post sessions in November 2014 
for employees to brainstorm ideas and develop ways to improve 
processes;
<bullet> Placing suggestion boxes in the Veterans Service Center (VSC) 
in January 2015 to obtain feedback from employees; and
<bullet> Creating a workgroup in November 2014 to analyze the VA All 
Employee Survey 2014 results for the Philadelphia RO and develop action 
plans to address areas for immediate improvement.

    Ms. Rubens continues to strengthen her leadership team, creating a 
more inclusive environment for the entire workforce. The Philadelphia 
RO conducted training for all supervisors to improve communications and 
develop ways for supervisors to build trust and improve interactions 
with employees. A 2-day team building and emotional intelligence 
training was held in December 2014. The training focused on developing 
skills through which supervisors can lead with a Veteran-centric focus. 
An additional training session was provided by VBA's Office of Employee 
Development and Training on February 5, 2015. This has improved 
communications between RO leadership and all employees with more clear 
and consistent messages, feedback, and team outcomes.
    Ms. Rubens and her management team are enhancing relationships with 
stakeholders through Veteran town halls and claims clinics, semiannual 
Congressional seminars, quarterly meetings with Veterans Service 
Organizations (VSO), and weekly meetings with our local American 
Federation of Government Employees president. They implemented a VSC 
advocacy team in December 2014 to better manage Congressional 
inquiries, and they are instituting a new way to track and monitor 
inquiries regarding pending appeals and non-rating claims. Local media 
have been invited to all Veteran town halls. In addition, the 
Philadelphia RO has supported the Veterans Health Administration at all 
of its local Veteran town halls at VA medical centers. In March, the RO 
supported the American Legion Veteran town hall and local Veteran 
engagement events. Although there is more work to do, the Philadelphia 
RO is committed to improving operations and communications to better 
serve its Veterans.

Issues Raised by OIG

    Leadership within VBA and management at the Philadelphia RO take 
recommendations from VA's Office of Inspector General (OIG) very 
seriously. The RO actively and quickly worked to address issues that 
were raised and implemented action plans to ensure these issues do not 
occur again.

OIG Report Published April 15, 2015

    VA's OIG began an investigation at the Philadelphia RO on June 19, 
2014, based on allegations of mismanagement made through the VA OIG 
hotline. The investigation began 3 weeks prior to Ms. Rubens' arrival 
on July 10, 2014. Upon her arrival, she engaged with management and 
immediately began implementing solutions to issues raised by OIG while 
they were on-site. VBA had already remedied many of the findings when 
the final report was published on April 15, 2015. VBA continues to work 
to resolve the remainder of the findings based on the recommendations 
in the report. VBA is also conducting an Administrative Investigation 
Board to determine if further actions are appropriate.

OIG Management Advisory

    On June 20, 2014, OIG issued a Management Advisory. Four 
recommendations were included in this advisory. The first 
recommendation was related to the allegation that staff at the 
Philadelphia RO misapplied VBA Fast Letter (FL) 13-10, Guidance on Date 
of Claim Issues. OIG found instances in which the Philadelphia RO did 
not enter the correct date of claim in some Veterans' records and 
recommended that VBA discontinue use of FL 13-10. On June 27, 2014, VBA 
suspended FL 13-10, pending a thorough review of its implementation. 
The Philadelphia RO complied immediately with VBA's discontinuation of 
Fast Letter 13-10. Ms. Rubens charged the leadership of the VSC and PMC 
to ensure the earliest date of receipt of claim was consistently used 
to establish claims. Employees were immediately engaged and informed to 
comply with this direction.
    The second recommendation was related to scanning completed pension 
claims. OIG found 68 mail bins containing completed pension claims and 
associated evidence that had not been scanned into VA's electronic 
records. These claims were completed in 2011, and it is important to 
note that no Veterans were waiting for the resolution of these pension 
claims. In addition, the most relevant information related to these 
claims was available within VBA's electronic systems. Should the 
original documents be needed for processing subsequent claims, PMC 
employees would access those documents in the paper records. Prior to 
the OIG investigation, the Philadelphia PMC's processes had been 
adjusted to incorporate up-front scanning of documents, and resources 
had been dedicated to scanning the completed claims. Although the work 
had not been completed at the time of OIG's arrival, it was underway 
and subsequently completed in August 2014. VBA is transitioning all 
claims processing to a fully electronic system, VBMS. VBA has a 
contract with a private scanning vendor to convert paper documents into 
digital format and upload them into VBMS. VBA is examining the use of 
the contract scan vendor for the PMC scanning to enable more rapid 
uploading to VBMS.
    The June 20, 2014, OIG Management Advisory also reported on several 
instances in which Veterans or their dependents received duplicate 
payments resulting from duplicate records in VA's electronic system. 
Resolution of duplicate records continues to be a top priority of the 
Philadelphia RO. VA's Hines Information Technology Center generates 
monthly reports identifying potential duplicate payments in VBA's 
corporate database for resolution. Ms. Rubens personally engaged with 
the employees who brought this issue forward and members of the 
Philadelphia RO management team to form a workgroup to develop and 
implement procedures to prevent establishment of duplicate records and 
improper payments. As a result of the workgroup, the RO provided 
training on searching VBA systems to identify existing records before 
establishing a new record for a claimant. Additionally, VBA developed 
standardized training for field personnel on how to avoid creating 
duplicate records and how to correct the system when duplicate records 
are identified.
    The fourth recommendation in the Management Advisory was to limit 
employees' access to electronic date stamps. To address OIG's 
recommendation, the Philadelphia RO changed its procedures on July 11, 
2014, and moved date stamping into a secure mailroom. A small number of 
exceptions were permitted for the public contact staff and other front 
office employees. Employees continue to be assigned to specific 
machines so the RO can audit use of date stamps. All unassigned 
machines remain secured by the RO's Records Management Officer.

OIG Management Implication Notification--Occupational Safety and Health

    On July 23, 2014, OIG sent a Management Implication Notification 
Letter--Occupational Safety and Health to address facility conditions 
at the RO's leased space located at 4700 Wissahickon Avenue. The 150 
employees of the National Call Center and National Pension Call Center 
reside in this space. Ms. Rubens took immediate action to engage with 
the General Services Administration (GSA), which manages this lease, 
and secured contracts with GSA to begin immediate construction at the 
main RO building, at 5000 Wissahickon Avenue, to house these 
operations. VBA anticipates employees will move into new space by the 
end of May 2015.

Improvements at the Oakland RO

    The dedicated employees of the Oakland RO share a similar 
commitment to providing the best service possible to Veterans and their 
families, who deserve nothing less.

Overview of the Oakland RO

    In May 2014, Ms. Julianna Boor was appointed as the Director of the 
Oakland RO. In this role, Ms. Boor is responsible for administering 
approximately $1.9 billion in annual payments to over 137,000 Veterans 
and their dependents in Northern California. The Oakland RO administers 
the full range of compensation and vocational rehabilitation and 
employment benefits. Ms. Boor promotes development opportunities for 
all employees through both local and national programs. She promoted 
and supported the 2014 All-Employee Survey, which resulted in a high 
participation rate of 70 percent. Ms. Boor carefully assessed and 
analyzed the results of the survey and continues to work 
collaboratively with her labor partners to focus on areas needing 
improvement to promote a healthy and motivated workforce.
    Ms. Boor also continues to build effective relationships with 
Congressional stakeholders, VSOs, and the Veteran communities. She has 
participated in multiple town hall and Veterans advisory committee 
events. She holds monthly meetings with VSOs and Congressional 
Staffers. Ms. Boor partnered with the California Department of Veterans 
Affairs (CDVA) in implementing a Strike Force Team, utilizing 12 CDVA 
employees to assist in obtaining information on claims and submitting 
more fully developed claims. The team's assistance continues to assist 
in reducing the number of claims in the backlog.
    The backlog of northern California Veterans' claims has been 
reduced by 73 percent, from its peak of 30,000 claims in June 2012 to 
8,000 claims today. The average age of pending claims was reduced from 
467 days at its peak in March 2013 to 161 days today--a 306-day 
improvement. Quality remains high at the RO--claim-level quality is at 
96 percent and issue-level quality is at 98 percent.

Employee Morale and Engagement

    The Oakland RO's leadership team takes seriously its responsibility 
in developing and nurturing employees, as well as ensuring they have 
the training and tools they need to do the job. They also focus on 
providing a safe workplace, not only in terms of physical safety, but 
safety from harassment, discrimination, and retaliation. Ms. Boor 
encourages candid disclosure of information about problems and 
understands that retaliation is not tolerated and adheres to the I CARE 
values. She promotes developmental opportunities for all employees 
through both local and national training programs and tries to find as 
many ways as possible to have an open dialogue with employees--from 
all-employee meetings to daily meetings for teams. Her leadership team 
actively solicits suggestions on ways to improve, which has resulted in 
ideas implemented locally and shared with other ROs.
    In addition, a special communication mechanism was established in 
Oakland that has become quite popular with employees. Every week, the 
RO celebrates special instances of exceptional customer service in the 
form of ``Friday Shout-Outs.'' These instances range from helping a 
homeless Veteran find shelter close to the treating hospital, to 
helping a young family with five children in financial hardship obtain 
a down-payment for a new home with the grant of service-connected 
disability compensation.
    Ms. Boor and the RO's management team aggressively promoted and 
supported the 2014 All-Employee Survey, which resulted in a 70 percent 
participation rate. RO management carefully assessed and analyzed the 
results of the survey and continues to collaborate with labor partners 
to focus on areas needing improvement to develop a more healthy and 
motivated workforce. Oakland employees have faced and overcome many 
challenges over the past few years and continue to demonstrate each day 
that they are motivated to make a difference in the lives of Veterans 
and their families.

Documents Found in 2012

    To address performance challenges, a special support team was sent 
to Oakland in October 2012. In November 2012, a member of the support 
team found a file cabinet of duplicate copies of approximately 13,000 
documents. VBA initiated an immediate review to determine if a formal 
claim had subsequently been received, and if so, was the correct 
effective date used for any benefits awarded as a result of the 
informal claim. Oakland employees completed the initial review of all 
of the documents in December 2012, with the exception of 2,155 
documents requiring a review of the associated claim folders housed at 
off-site storage facilities.
    In May 2014, before the Oakland RO had completed all of the 2,155 
claim folder reviews, allegations of unprocessed claims were made by 
former employees on a radio talk show. The documents were re-reviewed 
in June 2014 to see if further action was needed on any of the 
documents, and then the copies were filed in the Veterans' records. In 
hindsight, a record of all documents reviewed should have been kept to 
validate the review process.
    To further investigate the allegations, VBA requested the 
assistance of OIG. Unfortunately, OIG was unable to confirm the actions 
taken by the Oakland RO on the majority of the 13,000 documents, as 
only 537 documents were remaining to be reviewed at the time the OIG 
investigation was initiated. The copies of all of the other reviewed 
documents had been filed in each individual Veterans' claims folder.
    In total, 403 documents, or approximately 3 percent of the original 
13,000 documents, were identified as requiring additional claims 
processing actions, primarily granting an earlier effective date. These 
corrective actions were completed in September 2014.
    In February 2015, OIG issued the findings from its July 2014 
investigation, noting the Oakland RO's inadequate maintenance of 
records on the review. In the report, OIG acknowledged that neither VA 
nor OIG can determine entitlement to disability benefits without the 
Veteran submitting a formal application for benefits. As such, OIG 
recommended the Oakland RO complete a review of the remaining 537 
documents, provide training on proper procedures for processing 
informal claims, and implement a plan to ensure oversight of those 
staff assigned to process the informal claims.

Corrective Actions

    VBA fully concurred with the OIG recommendations to improve 
operations and implemented all recommendations. The Oakland RO also 
recently implemented the national centralized mail initiative in 
January 2015, which significantly reduces the potential for delayed 
handling of paper documents. All of the Oakland RO's claim-related mail 
is now directed to a centralized scanning facility in Janesville, 
Wisconsin, for conversion from paper to electronic digital format.
    Additionally, on March 24, 2015, VA implemented an important 
regulatory change to require use of standardized claim and appeal 
forms. This change includes a new intent to file process that replaces 
the informal claim process for applicants who need additional time to 
gather all of the information and evidence needed to submit their 
formal application for benefits. This new process protects the earliest 
possible effective date if the applicant is determined eligible for 
benefits and helps to ensure anyone wishing to file a claim receives 
the information and assistance they need.

Closing

    The progress made at both ROs could not have been accomplished 
without the dedicated leadership of the officials present today. Ms. 
Rubens and Ms. Boor, supported by their Assistant Directors, have both 
led significant progress towards reaching VA's goals. Both have shown 
great leadership, dedication, and commitment to employee engagement. 
This concludes my remarks. My colleagues and I are happy to respond to 
any questions from you or other Members of the Committee.

                                 <F-dash>

                  Prepared Statement of Mr. Ryan Cease

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit my written statement regarding Philadelphia and 
Oakland: Systemic Failures and Mismanagement.
    Since 2012 I've teamed up with Kristen Ruell to provide the VA OIG 
as well as members of Congress details and evidence regarding systemic 
failures and mismanagement. When we first submitted our concern to OIG 
we wanted to remain anonymous because we were afraid of retaliation 
from our peers and management. Regardless our identities were revealed 
since at the time the whistleblower protection act was not taken 
seriously. Since we were afraid that we were going to lose our jobs we 
contacted the media to stay on the radar. After being a voice that's 
being heard, whistleblowers from the VARO would secretly provide us 
with information since they too are afraid of retaliation.
    For the record I would like to provide this written statement as a 
status report, additional findings after the release of the VA OIG 
report and my personal opinions.
    I've selected 6 questions for this written statement that I have 
firsthand knowledge of, obtained from the VA OIG Report, Review of 
Alleged Data Manipulation and Mismanagement at the VA Regional Office, 
Philadelphia, Pennsylvania dated April 15, 2015.

Did VARO staff misapply Fast Letter 13-10, ``Guidance on Date of Claim 
Issues'' and enter incorrect dates of claims in the electronic record?

    Although the guidance under Fast Letter 13-10 was terminated 
effective June 27, 2014, older dates of claims can be hidden in the VBA 
systems using the End Product (EP) EP 930 for Service Connected 
Compensation and EP 937 for Non-Service Connected Pension or Death 
Compensation and DIC Claims with an earlier effective date.
    For VA Service Connected Compensation Claims the following End 
Products are used once it's established in the VBA System, handled by 
the Veterans Service Center (VSC):

<bullet> EP 010--Initial Disability Compensation Claims--Eight Issues 
or More
<bullet> EP 110--Initial Disability Compensation Claims--Seven EP 110--
Initial Disability Compensation Claims--Seven Issues or Less
<bullet> EP 020--Reopened Claims--Compensation

    For VA Non-Service Connected Pension Benefits or Death Compensation 
and DIC Claims are used once it's established in the VBA System, 
handled by the Pension Management Center (PMC):

<bullet> EP 197--Initial Death Pension Claims
<bullet> EP 127--Reopened Claims--Pension
<bullet> EP 147--Initial Death Compensation and DIC Claims
<bullet> EP 029--Reopened Death Compensation and DIC Claims

    As of last week the VSC was instructed to provide justification to 
management upon establishing an old date of claim, under the normal end 
product codes EP 010, 110, and 020. However, establishing an EP 930 to 
hide older date of claims are still being applied in the VSC and PMC 
(under EP 937). This makes it look like the VARO has accomplished their 
goal on eliminating older claims.
    Due to the pressure of achieving production points to justify an 
employee's workload, most employees would top sheet a Veteran's 
physical claim folder or electronic claim folder upon completion of a 
claim. Top sheeting is reviewing only new documents beyond the active 
date of claim.
    Old claims that are not addressed are usually identified if a 
Veteran submits a Notice of Disagreement and request for a Decision 
Review Officer Review (DRO Review). This election forces the Decision 
Review Officer to review the Veteran's entire physical claim folder and 
electronic folder prior to providing the Statement of the Case or an 
Amended Decision of the issue on disagreement. Since the DRO Review 
forces an entire review of the Veteran's record, top sheeting cannot be 
applied, so finding old claims by the Appeals Team due to a DRO Review 
is common.
    Once an old claim is identified it is then sent back to the VSC or 
PMC to be established under the proper End Product (EP) designation and 
date of claim.
    The following questions should be asked and looked into:

<bullet> Do both VSC and PMC use the correct date of claim when an old 
unprocessed claim is discovered by the Appeals Team (or randomly appear 
out of nowhere in the VARO)?
<bullet> As well as what is the oldest claim in the VARO's inventory 
and how was it discovered?

    If the VARO is saying that they do not have claims categorized as 
old pending in their inventory or that they have reached their goal of 
eliminating old claims, someone is lying to the VA Central Office or 
Congress.
    This information was acquired from multiple anonymous 
whistleblowers reporting the information to me because they were 
concerned that the problem still continues and while I process claims 
in the Appeals Team.

Did VARO staff process Board of Veterans' Appeals claims out of order 
by ``cherry picking'' the easy cases?

    Since I've been transferred to the VSC Appeals Team in November 
2014 I do agree with OIG's findings that they did not substantiate the 
allegation that VARO staff processed less complicated appealed claims 
by ``cherry picking'' easy cases out of docket order. It is true that 
Philadelphia VARO does not have control over appealed claims under the 
jurisdiction of the Board of Veterans' Appeals. As such, VARO staff 
could not influence how the Board of Veterans' Appeals controlled or 
managed its workload.
    However due to the pressure of achieving production points to 
justify an employee's workload, cherry picking is common in the VSC and 
PMC main floors for regular cases. Most employees do have the integrity 
to work older or harder cases in their workload regardless of the point 
system. But there's always those who would rather work on the easy 
cases to get by and save their jobs since unmeasured time is usually 
frowned upon by management. To regulate this issue some responsible 
Coaches (Team Supervisors) would conduct monthly projects to eliminate 
older cases, forcing the employees to initiate an action on a pending 
claim.
    Cherry picking does occur but this applies to other VAROs as well. 
There are many factors on why this occurs in our work environment but 
it takes a responsible Supervisor to identify the issue and take 
action.

Did VARO staff timely process Notices of Disagreement for appealed 
claims?

    Since I've been transferred to the VSC Appeals Team in November 
2014, I have firsthand experience on how the workload is managed 
regarding the Notice of Disagreements.
    As listed by the OIG report the delay is due to the following 
reasons:

<bullet> Disorganized Storage of NODs--Changed due to the Centralized 
Mail Center
<bullet> Increased Appealed Claims Workload--Currently Occurring
<bullet> Misrouted Mail--Currently Occurring

OIG recommended the following:

<bullet> The VARO implement a plan to ensure and effectively monitor 
staff enter appealed claims in Veterans Appeals Control and Locator 
System within 7 days to ensure accurate and timely reporting to 
stakeholders.
<bullet> The VARO Office Director implement a plan to ensure efficient 
operations when processing appealed claims, to include determining if 
additional staffing is required to process approximately 700 appealed 
claims from another VA Regional Office.
    Based on my experience working with the VSC Appeals Team the Notice 
of Disagreement delay is ongoing. Currently the major issues with the 
delay are the following:

<bullet> Centralized Mail Scan Delay: The timeframe for the scan 
facilities to upload the Notice of Disagreements into the VBA portals 
is not instant upon receiving the documents. They are unable to keep up 
with the volume of incoming mail.
<bullet> VARO Intake Processing Center Backlog: Once the Notice of 
Disagreements are scanned they are uploaded into an electronic portal 
on which Claims Assistants in the Intake Processing Center (IPC) are 
tasked to identify, establish an End Product (EP 170) in VBMS for 
tracking purposes and assign the case to the Appeals Team. Many of the 
Claims Assistants in IPC are not familiar with VACOLS or the Appeals 
Process so only a select few are knowledgeable on updating VACOLS.
<bullet> Under Staffed in the Appeals Team: The Appeals Team is under 
staffed and unable to keep up with the incoming Notice of 
Disagreements. In addition to each Veterans Service Representative's 
(VSR) primary duty, most are assigned special duties to include 
handling attorney fee cases, verifying herbicide exposure, 
posttraumatic stress stressors and locating missing service records. 
The special duties take up more time then the primary duties so getting 
back to the normal workload can vary depending on the amount it takes 
to complete the special duties. In addition, the team must also 
undertake high priority cases which need attention as soon as possible 
such as White House Inquiries, Congressional Inquiries, Homeless and 
Terminal Cases.
    The major question that should be asked is what is the national 
average on how many days it takes for the Notice of Disagreements to be 
placed into VACOLS once it is received?
    Also where does the Philadelphia VSC and PMC Appeals Team rank 
regarding the delay of the Notice of Disagreements being placed in 
VACOLS?
    There is no way at this point for NODs to be placed into VACOLS 
within 7 days as required. The only way this requirement is obtainable 
is if the following changes are applied:

<bullet> The scan station must upload the NOD into the portals on the 
same day or within 3 days upon receiving the document.
<bullet> Combine the PMC and VSC Intake Processing Center to prevent 
misrouted scanned mail.
<bullet> Increase the amount of Claims Assistants to help alleviate the 
incoming workload of the VARO.
<bullet> Train all Claims Assistants on how to update VACOLS and gain 
basic knowledge of the Appeals Process equivalent to a Veterans Service 
Representative (VSR).
<bullet> Increase the staff in the Appeals Teams as soon as possible.
<bullet> Have Special Duties such as Military Records Specialist and 
Attorney Fee Coordinator VSRs in the Appeals Team focus only on those 
duties so that the regular workflow of appeals is not interrupted.

    For the record my current Supervisor and Assistant Supervisor at 
the VSC Appeals Team have been very proactive on managing our workload 
regardless of our limitations.

Did VARO management ignore benefits-related inquiries and veterans' 
claims submitted through VBA's Inquiry Routing and Information System 
at the Pension Call Center?

    Both Kristen and I were informed about this issue by an anonymous 
employee. Due to the hostility of PMC management towards recognized 
whistleblowers, the employee did not want to be identified for the 
possibility of retaliation. We advised the employee to provide this 
information to the OIG along with us.
    As of last week I conducted a followup with the anonymous employee 
regarding the 31,410 pending inquiries. I was informed to date no 
action has been taken on the pending inquiries via IRIS.
    OIG selected judgment sample of only 30 inquiries from this listing 
to review. Based on the report they just mentioned that they are 
inquiries. But the truth is the majority of the reports of contact via 
IRIS are informal claims which can grant the Veterans with an earlier 
effective date. Due to this they all must be properly reviewed to check 
if the VARO owes Veterans additional payments based on an earlier 
effective dated generated by the informal claim. As well as identify 
and take actions on death notifications of beneficiaries in a timely 
manner to prevent improper payments beyond the termination date.
    The VARO was tasked to fix this issue and USB concurred with their 
recommendations and reported the Philadelphia PMC had fewer than 300 
inquiries pending as of March 15, 2015.
    There is something clearly wrong with this answer. An IRIS if not 
printed can easily be deleted electronically leaving no trace.
    The big question is if the anonymous employee informed me that no 
actions have been taken on the 31,410 IRIS ``inquiries'' how is it that 
it has been reduced to 300 inquiries by March 15, 2015?
    In addition to the big question of who reviewed them, did OIG save 
a control list of the IRIS inquiries to verify if the PMC conducted the 
correct actions?
    The questions raised by the anonymous employee are:
    Of the 31,410 IRISes that have been responded to, how many times 
was a phone call made, per the Veteran's request?
    How many times was a letter sent to a Veteran?
    Why does the PMC disregard the Veteran's request for the type of 
contact they want?
    Damage control was done and a followup is needed. People who were 
tasked to conduct the review must be questioned and the data must be 
presented and hopefully OIG has a control list to cross-reference the 
PMC's response.

    Did VARO management fail to prioritize the merging of duplicate 
claim records that resulted in improper payments and instruct staff to 
waive associated overpayments?

    When I was a Claims Assistant in PMC Triage I was assigned the duty 
of fixing duplicate records and other various record issues. I've 
always been told that duplicate records are not a priority and that 
upper management told us to focus on our regular work. I then got 
promoted to the VSC as a Veterans Service Representative (VSR). I was 
then informed that no one really knew how to fix duplicate records in 
the VSC so I was assigned to help VSC with their duplicate records 
issues. I've done it for approximately 2 years while also tasked to 
work my regular workload and my Military Records Specialist duties for 
brokered cases and then the NEHMER project.
    According to the report, the USB advised OIG that Hines Information 
Technology Center (ITC) staff generate monthly cumulative reports on a 
national level identifying duplicate payments in VBA's corporate 
database. However, VARO staff OIG interviewed were unaware these 
reports existed.
    The question is where is this report that Hines provided the VARO? 
The funny thing is we're the ones who notified upper management to 
contact Hines when we had our DUPC meetings.
    In 2012 Kristen and I worked together to reveal that duplicate 
records can indeed create duplicate payments and later down the line 
Kristen revealed that the duplicate payments were not being recouped 
properly PMC. We submitted this information to OIG in 2012. We never 
got a proper response regarding what we reported until we resubmitted 
our findings along with other mismanagement concerns in 2014.
    From experience working with duplicate records for years, double 
payments will not occur as much in the VSC compared to the PMC since 
VSC requires the Veteran's Service Treatment Records and Personnel 
Records to complete a claim. PMC on the other hand had a habit of 
authorizing payments on pension claims without a social security 
number, verified service dates and correct dependent information.
    The OIG visited the VARO in June 2014; we asked them what happened 
to our initial report in 2012. They informed us that it came out 
inconclusive. We were never asked how we found the duplicate payments 
until June 2014. Our previous report was just pushed to the side 
without any effort on contacting us to obtain more information. It was 
case closed in 2012 with no notification. In 2012 Kristen and I also 
wanted to remain anonymous but someone from the OIG revealed our 
identities to management so we had no choice but to contact the media 
to protect our jobs.
    So the second time we reported the issue I created two charts for 
OIG on June 24, 2014 to assist them on locating duplicate records with 
duplicate payments. I'm not sure how in-depth their investigation was 
because the number of duplicate records on the report is the number 
that I've provided them.
    No one at the VARO looks for duplicate records; they only come 
across it and then it's forwarded to me to fix. When the VARO was 
assigned the NEHMER project I reviewed the incoming spreadsheet and 
identified duplicate records. I've compiled a list for management and I 
was told that we didn't have to worry about those duplicate records 
because it didn't affect the Veteran's payments. Since this was a Court 
Order Project and NVLSP project I felt that that response that I've 
received was not right so I sent that list to OIG as well.
    I was then relieved of my duties fixing duplicate records once I 
provided the VSC IPC my procedures and templates. I was then 
transferred away from the main VSC floor and assigned to the Appeals 
Team. The duty of duplicate records in the VSC is now being handled by 
one person as a fulltime position, which I've been asking for and 
suggested since 2011. I've submitted multiple suggestions on how to fix 
the problem at the VARO before it got worse and they were both denied 
and never reached VACO. I then gave up on submitting suggestions to 
human resources.
    When I was transferred to VSC no one compiled an inventory list of 
identified duplicate records so I created one for the D1BC and 
requested the VSC to create one as well. Since then we were able to 
gain an approximate count of duplicate records in the VSC. The PMC on 
the other hand was not allowed to create a list of their duplicate 
records. I was informed by multiple employees in the PMC. This is very 
questionable since when I left the PMC there were about 1500 to 2000 
duplicate records floating around unattained. The reason for this is 
because the Philadelphia PMC covers pension claims for the whole entire 
east coast of the U.S. Fortunately one employee compiled a list but 
only 150 were identified since that employee took it upon himself like 
me to make an inventory list for tracking purposes. I'm not sure who is 
handling duplicate records in the PMC since the last person was 
promoted.
    There are a lot of steps at the VARO level to fix duplicate 
records. There are hardly any updated procedures that are easily 
accessible to end users. I've made one for the VSC since I kept on 
calling the National Service Desk to gain new procedures that the VARO 
is not aware of. The PMC is still new to VBMS so the new employees who 
are assigned the duty probably does not know to transfer the electronic 
documents first prior to a merge. If a duplicate record is merged and 
steps are missed electronic documents end up getting lost in a location 
in VBMS that can only be accessed by using a special search feature. I 
don't believe that this information was ever relayed to PMC.
    Duplicate records have increased nationwide because the VA Form 21-
526EZ, ebenefits, and the new VA Form 21-0966 Intent to file form does 
not require the Veteran to provide his or her service number. A lot of 
Veterans with service numbers have claim numbers in the VBA system 
already. This will create more double payments and headaches to all of 
the VAROs.
    How serious is the VA taking duplicate records now? I'm not really 
sure; I hope that after this hearing there will be some changes.

Did VARO staff mishandle military file mail?

    Kristen and I reported this practice in 2012; this too was 
dismissed until it was raised again in 2014. The question is will the 
VARO keep doing it? Will whistleblowers keep reporting it?
    The sad new is VBMS has an unassigned document location, so instead 
of physical documents being lost, now electronic documents are being 
lost too. The unassigned document list in VBMS is hardly reviewed and 
it's equivalent to military file mail. This is nationwide, not just at 
our VARO.
    Since Kristen and I revealed multiple issues to OIG, Congress and 
the media we've been categorized as the snitches of the VARO. A lot of 
coworkers and members of management would say that we are just out 
there to give our building a bad reputation. Which I don't understand 
because most of the people who complain about the issues that's going 
on in the building would not step up because they are comfortable 
having a ``it is what it is'' mentality. A lot of our co-workers would 
say just keep your mouth shut, no matter what you do it's going to get 
covered up. Well we made it this far, I really do hope our efforts will 
bring some changes not only for our VARO but the whole nation.
    For the record the Philadelphia VA Regional Office has a lot of 
amazing employees who would go above and beyond for a Veteran in need. 
A lot of us believe in our mission ``To care for him who shall have 
borne the battle and for his widow, and his orphan.''
    My name is Ryan H. Cease. I am a Veterans Service Representative, 
at the Philadelphia VA Regional Office. I have worked with Kristen 
Ruell for almost 3 years to reveal Systemic Failures and Mismanagement 
at the Philadelphia VA Regional Office. I would like to add to the 
record my concerns of the current outcome after the release of the OIG 
Report, Review of Alleged Data Manipulation and Mismanagement at the VA 
Regional Office, Philadelphia, Pennsylvania dated April 15, 2015.
    As a result of the investigation the guidance under Fast Letter 13-
10 was terminated effective June 27, 2014. Older dates of claims can 
still be hidden in the VBA systems using the End Product (EP) EP 930 
for Service Connected Compensation and EP 937 for Non-Service Connected 
Pension or Death Compensation and DIC Claims with an earlier effective 
date.
    Since I've been transferred to the VSC Appeals Team in November 
2014, I do agree with OIG's findings that they did not substantiate the 
allegation that VARO staff processed less complicated appealed claims 
by ``cherry picking'' easy cases out of docket order. However due to 
the pressure of achieving production points to justify an employee's 
workload, cherry picking is common in the VSC and PMC main floors for 
regular cases.
    Since I've been transferred to the VSC Appeals Team in November 
2014, I have firsthand experience on how the workload is managed 
regarding the Notice of Disagreements. Based on my experience working 
with the VSC Appeals Team the Notice of Disagreement delay is ongoing. 
Currently the major issues with the delay are the centralized mail scan 
delay, VARO Intake Processing Center backlog, and under staffed Appeals 
Team.
    As of last week I conducted a follow up with the anonymous employee 
regarding the 31,410 pending inquiries. I was informed to date no 
actions have been taken on the pending inquiries via IRIS. Both Kristen 
and I were informed about this issue by an anonymous employee. Due to 
the hostility of PMC management towards recognized whistleblowers, the 
employee did not want to be identified for the possibility of 
retaliation.
    Duplicate records have increased nationwide because the VA Form 21-
526EZ, ebenefits, and the new VA Form 21-0966 Intent to File form does 
not require the Veteran to provide his or her service number. A lot of 
Veterans with service numbers have claim numbers in the VBA system 
already. This will create more double payments and headaches to all of 
the VAROs.
    Did VARO staff mishandle military file mail? VBMS has an unassigned 
document location, so instead of physical documents being lost, now 
electronic documents are being lost too. The unassigned document list 
in VBMS is hardly reviewed and it's equivalent to military file mail. 
This is nationwide, not just at our VARO .
    Well, we made it this far, I really do hope our efforts will bring 
some changes not only for our VARO but the whole nation.

                    Letter of Mr. Richard J. Griffin

    The Hon. Jeff Miller, Chairman,
    Committee on Veterans' Affairs,

    U.S. House of Representatives,

    Washington, DC 20515

    Dear Mr. Chairman:

    This is in response to your question at the April 22, 2015 hearing 
before the Committee on ``Philadelphia and Oakland: Systemic Failures 
and Mismanagement'' about a statement by a witness, Ms. Lucy Filipov, 
that the Office of Inspector General (OIG) instructed her ``not to 
discuss that investigation until it's complete.'' You asked the OIG 
witness, Ms. Linda Halliday, whether that direction from an OIG office 
was appropriate, and she offered to provide this statement for the 
record .
    As a standard practice in OIG administrative investigations, OIG 
Administrative Investigators read an introductory statement to 
witnesses at the beginning of each interview. These instructions are 
given to maintain the integrity of our investigation and to prevent 
collusion by witnesses while the investigation is ongoing. The 
instructions given to Ms. Filipov were appropriate and consistent with 
OIG standard practice. Following is a portion of that statement:
    We are conducting an administrative investigation that involves 
specific allegations that we will discuss during our conversation. Any 
information that is discussed or derived from this interview is 
designated as confidential by the OIG and is not to be disclosed to any 
individual outside the OIG.
    VA policy requires VA employees to furnish information and testify 
freely and honestly in cases respecting employment and disciplinary 
matters. Refusal to testify, concealment of material facts, or 
willfully inaccurate testimony in connection with an investigation or 
hearing may be grounds for disciplinary action. An employee, however, 
will not be required to give testimony against him/herself in any 
matter in which there is indication that he/she may be or is involved 
in a violation of law wherein there is a possibility of self-
incrimination. The information that we will be discussing is protected 
from unauthorized disclosure under the Privacy Act and other Federal 
laws. You should not disclose to anyone the nature of the questions we 
ask you or any other information you may become aware of during this 
interview.''
    Thank you for the opportunity to provide this information for the 
hearing record.
    Sincerely,
    Richard J. Griffin,
    Deputy Inspector General

                                 [all]
</pre></body></html>
